<html>
<title> - SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET: HOW THE STATE OF NEW JERSEY IS COMBATING CHILD PREDATORS ON THE INTERNET HEARING BEFORE THE SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION JULY 10, 2006 Serial No. 109-122 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 30-531 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                 SEXUAL EXPLOITATION OF CHILDREN OVER THE 
                 INTERNET: HOW THE STATE OF NEW JERSEY IS 
                 COMBATING CHILD PREDATORS ON THE INTERNET


                                  HEARING

                                 BEFORE THE

                SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                   OF THE 

                           COMMITTEE ON ENERGY AND 
                                  COMMERCE
                           HOUSE OF REPRESENTATIVES


                          ONE HUNDRED NINTH CONGRESS

                                SECOND SESSION


                                 JULY 10, 2006

                              Serial No. 109-122

         Printed for the use of the Committee on Energy and Commerce



Available via the World Wide Web:  http://www.access.gpo.gov/congress/house


                    U.S. GOVERNMENT PRINTING OFFICE
30-531                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office 
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 
512-1800  Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE
                       JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                     BUD ALBRIGHT, Staff Director
                    DAVID CAVICKE, General Counsel
     REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS
                     ED WHITFIELD, Kentucky, Chairman
CLIFF STEARNS, Florida                    BART STUPAK, Michigan
CHARLES W. "CHIP"                           Ranking Member
PICKERING,  Mississippi                   DIANA DEGETTE, Colorado
CHARLES F. BASS, New Hampshire            JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       JAY INSLEE, Washington
MIKE FERGUSON, New Jersey                 TAMMY BALDWIN, Wisconsin
MICHAEL C. BURGESS, Texas                 HENRY A. WAXMAN, California
MARSHA BLACKBURN, Tennessee               JOHN D. DINGELL, Michigan
JOE BARTON, Texas                           (EX OFFICIO)                            
  (EX OFFICIO)

                              CONTENTS


                                                                        Page
Testimony of:
        Christie, Hon. Christopher J., United States Attorney, 
                District of New Jersey, U.S. Department of Justice	  8
        Fitzpatrick, Hon. Michael, Member, U.S. House of 
                Representatives	                                         27
        Rodgers, Frank, Lieutenant Colonel, New Jersey State 
                Police	                                                 35
        Ritter, Anthony, Lieutenant, New Jersey State Police	         40
        Forrest, Esq., Wayne J., Somerset County Prosecutor, 
                Office  of the Somerset County Prosecutor, State of 
                New Jersey	                                         47
        Banks, Sergeant, Office of the Prosecutor, Union 
                County, State of New Jersey	                         55
        Livingston, David S., Superintendent of Schools, 
                Somerset County, New Jersey	                         75
        Aftab, Parry, Executive Director, WiredSafety	                 81
        Sullivan, Shannon, Teen Angel, WiredSafety	                116
        Hahn, Samantha, i-Mentor, i-Safe America	                134


                 SEXUAL EXPLOITATION OF CHILDREN OVER THE 
                 INTERNET: HOW THE STATE OF NEW JERSEY IS 
                 COMBATING CHILD PREDATORS ON THE INTERNET


                           MONDAY, JULY 10, 2006

                          HOUSE OF REPRESENTATIVES,
                      COMMITTEE ON ENERGY AND COMMERCE,
               SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS,
                                                             Washington, DC.

        
	The subcommittee met, pursuant to notice, at 10:30 a.m., in 
Conference Center Room A of the Raritan Valley Community 
College, Hon. Ed Whitfield (Chairman) presiding.
	Members present: Representatives Whitfield and Ferguson.
	Staff present:  Mark Paoletta, Chief Counsel for Oversight and 
Investigations; Kelli Andrews, Counsel; Karen Christian, Counsel; 
Ryan Ambrose, Legislative Clerk; and David Nelson, Minority 
Investigator.
	MR. WHITFIELD.  I would like to call this hearing to order and I 
certainly want to thank all of you for attending today.  The Energy 
and Commerce Committee and the Subcommittee on Oversight 
and Investigation are convening this hearing in New Jersey on the 
Sexual Exploitation of Children over the Internet.  The 
subcommittee has held four hearings on this subject.  We have 
heard testimony from victims of Internet child pornography, State 
and Federal law enforcement agents, safety and Internet education 
experts and Internet service providers about the dangers the 
Internet can pose to children.
	While Federal law enforcement agents actively investigate and 
pursue online predators, 70 percent of the investigations take place 
at the State and local level through the efforts of the State Internet 
Crimes Against Children Task Force and local police officers and 
investigators and prosecutors.  For this reason, the subcommittee 
thought it would be important to have a hearing where we would 
focus on local efforts to deal with this significant problem.  Like 
every other State, New Jersey is not immune from the dangers that 
the Internet presents to children.  Today we will hear testimony 
from witnesses who work each day to combat child pornography 
and to keep New Jersey's children safe from predators who seek to 
use the Internet to exploit them.
	These hearings that we have had have been quite startling to all 
of us, to recognize and be aware of the dangers that are lurking out 
there for our young people who are on the Internet and come in 
contact with some very unsavory characters.  Today we are going 
to hear from the United States Attorney for the District of New 
Jersey, Chris Christie, about the cases brought by his office against 
child predators.  Particularly, we will be interested in his RegPay 
case, which was a real breakthrough; I guess the first international 
breakthrough in this area.  We will also hear from the New Jersey 
State and local police officers about how they developed their 
investigations against individuals who exploit children on the 
Internet and the challenges they face when they attempt to bring 
these criminals to justice.
	Our subcommittee's hearings have shown that every effort 
must be made to support law enforcement efforts in the war against 
child pornography, but they also have shown that we will not win 
this war unless we educate parents, teachers and children about 
Internet safety.  Witnesses have repeatedly told our subcommittee 
that children often are not able and do not appreciate the risk posed 
to them when they meet and communicate over the Internet with 
strangers.
	Two of our witnesses today, i-Safe Mentor, Samantha Hahn, 
and WiredSafety Teen Angel, Shannon Sullivan, have been trained 
to talk to their friends and fellow students about Internet safety.  
We look forward to learning what they believe is the most 
effective way to teach children to protect themselves against online 
predators.  Samantha and Shannon are joined by Superintendent 
David Livingston of the Somerset County Schools, who will testify 
about how schools in his district are addressing Internet safety 
issues, as well as problems related to social networking sites, cyber 
bullying and online predators.
	We will also be joined today by Congressman Michael 
Fitzpatrick of Pennsylvania.  Congressman Fitzpatrick has 
introduced a bill, H.R. 5319, entitled "The Deleting Online 
Predators Act," which requires schools and libraries to use 
technology on their computers that prevent students from accessing 
social networking sites, and we look forward to Mr. Fitzpatrick's 
testimony when he arrives.
	And finally, I want to thank my colleague, Mike Ferguson, 
who is a member of the Energy and Commerce Committee and 
certainly a member of the Oversight and Investigations 
Subcommittee.  He has been a real leader in this effort to address 
the dangers facing our children on the Internet and I know that he 
shares our interest in this issue.  He has been dedicated to doing 
whatever can be done to keep the Internet safe for children and to 
ensure that criminals who use the Internet to prey on our children 
are found and prosecuted.  And I want to thank him for arranging 
for this hearing today and convincing us to come to New Jersey to 
learn what, specifically, law enforcement prosecutors and others 
are doing in this area about this important issue.
	So I want to thank all of you for being here and at this time I 
will recognize Mr. Ferguson for his opening statement.
	[The prepared statement of Hon. Ed Whitfield follows:]

PREPARED STATEMENT OF THE HON. ED WHITFIELD, CHAIRMAN, 
SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

        Today, the Committee on Energy and Commerce, 
Subcommittee on Oversight and Investigations, is convening a 
hearing in New Jersey on the sexual exploitation of children over 
the Internet.
	Already, this subcommittee has held four hearings on this 
subject.  We have heard testimony from victims of Internet child 
pornography, state and federal law enforcement agents, safety and 
Internet education experts, and Internet Service Providers about the 
dangers the Internet can pose to children.  
        From these hearings, this subcommittee has learned that while 
federal law enforcement agents actively investigate and pursue 
online predators, seventy percent of the investigations of these 
criminals take place at the state and local level through the efforts 
of the state Internet Crimes Against Children Task Forces, or 
"ICACs," and local police officers.  For this reason, the 
subcommittee thought it was important to dedicate a hearing to 
how the war against child pornography and the online exploitation 
of children is being fought on the ground, by state and local law 
enforcement agents.  
        Like every other state in the nation, New Jersey is not immune 
from the dangers the Internet presents to children.  Today we will 
hear testimony from witnesses who work each day to combat child 
pornography and to keep New Jersey's children safe from 
predators who seek to use the Internet to exploit them.  We will 
hear from the United States Attorney for the District of New 
Jersey, Chris Christie, about the cases brought by his office against 
child predators.  We will also hear from New Jersey state and local 
police officers about how they develop their investigations against 
individuals who exploit children over the Internet, and the 
challenges they face when they attempt to bring these criminals to 
justice.  I look forward to learning whether the witnesses believe 
they have the resources they need to not only fight the war against 
child pornography on the Internet, but to win it.  As this 
subcommittee held a hearing only two weeks ago with Internet 
Service Providers and social networking sites, I also look forward 
to learning your thoughts about the industry's efforts to combat 
online child pornography and whether you believe more should be 
required of them.  Finally, because the vast majority of cases 
against online predators are prosecuted at the state and local level, 
I am interested to learn if additional federal resources would help 
facilitate your investigations and prosecutions.
        Just as our subcommittee's hearings have shown that every 
effort must be made to support law enforcement's efforts in the 
war against child pornography, they have also shown that we will 
not win this war unless we educate parents, teachers, and children 
about Internet safety.  Witnesses have repeatedly told this 
subcommittee that children often are not able to appreciate the risk 
posed to them when they meet and communicate over the Internet 
with a stranger.  Two of our witnesses today, i-Safe mentor 
Samantha Hahn and Wired Safety Teen Angel Shannon Sullivan, 
have been trained to talk to their friends and fellow students about 
Internet safety.  I look forward to learning what they believe is the 
most effective way to teach children to protect themselves against 
online predators.  Samantha and Shannon are joined by 
Superintendent David Livingston of the Somerset County Schools, 
who will testify about how schools in his district are addressing 
Internet safety issues as well as problems related to social 
networking sites, cyber bullying, and online predators.
        We are also joined today by Congressman Michael Fitzpatrick 
of Pennsylvania.  Congressman Fitzpatrick has introduced a bill, 
H.R. 5319, the Deleting Online Predators Act.  H.R. 5319 requires 
schools and libraries to use technology on their computers that 
prevents students from accessing social networking sites.  Thank 
you, Congressman Fitzpatrick, for making the trip to appear before 
us this morning to discuss your efforts to combat online predators.
        Finally, I would like to thank my colleague, Mike Ferguson, 
for welcoming us to his district.  I know that Congressman 
Ferguson shares my interest in this issue, and that he is dedicated 
to doing whatever he can to keep the Internet safe for children and 
to ensure that the criminals who use the Internet to prey on 
children are found and prosecuted.
        Thank you.

	MR. FERGUSON.  Thank you, Mr. Chairman.  Thank you for 
being here, very much for your welcome here in New Jersey.  I am 
delighted to have you here and really pleased that we could do this 
hearing here in New Jersey.  I also want to thank--we have several 
panels of really excellent witnesses.  I am delighted that they are 
all here.  I particularly appreciate the U.S. Attorney being here 
today and our Somerset County Prosecutor, Wayne Forrest.  I 
appreciate you and all the other panelists who are going to join us 
here today.  I think this is going to prove to be an excellent line-up 
for shedding some light on how we can combat this problem here 
in New Jersey.
	I appreciate very much and want to personally commend some 
of our other panelists for the work that they are doing every day to 
combat this issue in our families and in our communities.  
Throughout the course of the past few months, we in Congress 
have held several hearings on this topic.  We have heard from law 
enforcement, from Internet service providers, from social 
networking sites, from Internet education groups, Federal officials 
from the Department of Justice and other Federal agencies, as well 
as some of the victims themselves.  But no matter how many 
hearings we have on this topic, it never gets any easier to hear 
about and it still shocks and sickens every one of us.
	The National Center for Missing and Exploited Children 
reports that 39 percent of persons caught with images of child 
sexual abuse had images of children younger than 6 years old, and 
19 percent of these people caught had images of children under 3 
years old.  In all of my years, as a Member of Congress, as an 
educator and most importantly, as a parent, I have never been so 
disturbed by a topic that we have considered.  It is beyond 
comprehension that we, as a society, have allowed this industry to 
flourish, sometimes even within the confines and protection of our 
own homes.  And it is our responsibility, as lawmakers, as parents, 
as educators, and law enforcement, to do everything possible to let 
our children know that they are safe and that they will be protected 
at all costs.
	I am not just a Member of Congress and a public servant; I am 
also a parent with four young kids.  Like millions of other families, 
my wife and I talk to our kids about the great opportunities for fun 
and learning that the Internet has to offer, but we also need to 
protect our children from those who use the Internet to try and 
harm them.  The private sector and government and law 
enforcement must work together to ensure that we all have the 
necessary tools to keep our children safe.
	 This issue is gruesome, it is heart wrenching, and it is 
disturbing, but it is not one that we can ignore.  The Internet can be 
an extraordinary tool for our children, but it also harbors dangers 
that we must be aware of.  The predators that lurk on the Internet 
take advantage of children in the cruelest of ways; by earning their 
trust and stealing their innocence, and this leaves a pain that no 
child should ever have to endure.  I am proud to say that New 
Jersey has strong law enforcement programs directed toward, 
dedicated to rooting out Internet predators.
	 Today we will hear some of the success stories of the New 
Jersey Internet Crimes Against Children Task Force, as well as the 
collaborative efforts with other ICACs across the country.  Our 
educators have also made an effort to teach our children about the 
dangers of the Internet.  Law enforcement and local schools have 
been teaming up to educate both children and parents on how to 
safely use the World Wide Web.  Organizations such as i-Safe and 
WiredSafety have made it their mission to educate children about 
how to use the Internet safely and what warning signs to look out 
for.
	Specifically, i-Safe has educated over 43,000 students on 
Internet safety and implemented 30 parent education programs in 
New Jersey alone.  I commend these organizations for their 
programs and sincerely hope they can continue in the future.  I 
look forward to hearing from our witnesses today and I hope this 
hearing serves to further draw attention to this issue, especially in a 
State where we have so many good people working on behalf of 
our children.
	Again, I want to thank you, Chairman Whitfield, for allowing 
us to bring the Congress to New Jersey today.  I want to thank our 
witnesses for coming to the committee today and I particularly 
want to thank Raritan Valley Community College for so graciously 
hosting this field hearing today.  I appreciate all of the efforts on 
their behalf and on behalf of the committee and the subcommittee 
staff for their work in pulling this hearing together.
	MR. WHITFIELD.  Mike, thank you very much and I will say 
that the interim president of Raritan Community College was here 
to greet us this morning and took us on a tour and we are all ready 
to move to New Jersey.  But I appreciate your opening statement.  
At this time, we have four panels of witnesses today and at this 
time we will start with our second panelist and that is the 
Honorable Christopher Christie, who is the U.S. Attorney for the 
District of New Jersey, U.S. Department of Justice.  So if you 
wouldn't mind coming forward, Mr. Christie.  I would mention to 
you that Oversight and Investigation, when we take testimony, we 
do it under oath and under the rules of the House and certainly the 
rules of the committee, you are entitled to legal counsel, but since 
you are a U.S. attorney, I assume you don't need legal counsel.  
But if you don't have any difficulty testifying under oath, would 
you stand up and I would like to swear you in.
	[Witness sworn.]
	MR. WHITFIELD.  Thank you, Mr. Christie.  You are now under 
oath and you are recognized for your 5-minute opening statement.

STATEMENT OF HON. CHRISTOPHER J. CHRISTIE, UNITED STATES ATTORNEY, DISTRICT 
OF NEW JERSEY

	MR. CHRISTIE.  Mr. Chairman, thank you for coming to New 
Jersey, Congressman Ferguson.  Thank you for inviting me here 
today to speak about this very important topic.  Let me say, first, 
that here in New Jersey we have enormously fruitful cooperative 
efforts that are going on between Federal, State, and local law 
enforcement.  I am sure you will hear from my law enforcement 
partners on the State and local level a lot about that in the 
testimony that will follow mine.  We have great cooperation, cases 
being done federally and on the State level, and they are decided 
on whether or not to do them federally or State based upon where 
we can get the best sentence, where we can get the best possible 
result.  There are no egos involved, there are no turf battles over 
this and I am proud to say that in this State, everyone is 
cooperating very well because they see how important the problem 
is.
	One particular investigation, which I think deserves note this 
morning, is the one you referred to in your opening remarks, Mr. 
Chairman, the RegPay investigation.  That remains the first and I 
think, most successful international attack on child pornography 
here from the Department of Justice.  And let me tell you how that 
began.  It literally began by an assistant United States Attorney, in 
my office, coming into my office one day and saying to me I have 
a new idea about how to go after this child porn problem.  And I 
think it is important to note how it began because it is just one 
dedicated assistant United States Attorney who had an idea, came 
to my office, sold me on the idea and we, then, went about getting 
Federal law enforcement involved and selling them on the idea.  It 
was a very resource-intense investigation, as you can imagine.
	But the premise of the investigation was different than it had 
ever been done before.  Our idea was to follow the money, using 
that old phrase.  But follow the money is very, very important.  
This is a multi-billion dollar worldwide industry.  So the first thing 
we did was to approach MasterCard, Visa and American Express.  
Since almost all this Internet child pornography is processed 
through credit cards, we wanted to have real time access to the 
transactions that were occurring on these child pornography 
websites.  After negotiation with MasterCard, Visa, and American 
Express, I think, for the first time they gave us that real time 
access.  From there, we were able to trace it to what were in 
essence the money launderers here in the United States, a place 
called Connections USA, which operated out of the State of 
Florida.  They were processing millions of dollars a month in 
transactions from these child pornography websites.
	Once we were able to establish that they were getting illegal 
money from these websites, we approached them, were able to 
arrest them and then turn them to cooperate for us, and they, then, 
turned us to RegPay, which was their client in Belarus.  This is 
where the child pornography was being created, this is where it 
was being put up onto the Internet websites.  And there were 
principals that operated out of Belarus that were interacting on a 
regular basis with these folks in Florida.  And as I said, the folks in 
Florida were laundering millions of dollars a month for these 
people through American banks, American credit card companies, 
back over to Belarus.
	We were able to execute, with the help of these cooperating 
witnesses in the United States, a successful lure, and that is to lure 
these folks from Belarus to a place where we would be able to 
arrest and successfully extradite them to the United States.  The 
lure occurred in Paris.  We were able to tape record very 
incriminating conversations with these people from Belarus in 
Paris.  Once all the incriminating conversations were taped by the 
cooperating witness, they were arrested, put in jail in Paris and 
extradited to the United States.
	We have obtained guilty pleas from all the principals of the 
RegPay company in addition to the guilty pleas we got from 
Connections USA.  Those people are about to be sentenced, Mr. 
Chairman, and they have presumptive sentences somewhere 
between 25 and 30 years.  That, given the recent Supreme Court 
decision in Booker, the guidelines are no longer, as you know, 
mandatory but advisory, but we are confident that we will get very 
significant sentences and we will argue for 30-year sentences for 
these folks.
	This case is significant, in essence, because following the 
money gets you to the people who are creating this child 
pornography, exploiting these children and putting these images up 
on the Internet and we were also able to get those people in 
between who are profiting from the money laundering for these 
folks.  So this is something that can be done; the template is out 
there now for other U.S. Attorneys' offices.  We have worked with 
a lot of them in an attempt to show them how we did what we did.  
We are enormously proud of the efforts that started with that one 
assistant United States Attorney who had a different idea about 
how to go after this problem.
	I thank you for the time.
	[The prepared statement of Hon. Christopher J. Christie 
follows:]

PREPARED STATEMENT OF THE HON. CHRISTOPHER J. CHRISTIE, UNITED STATES 
ATTORNEY, DISTRICT OF NEW JERSEY, U.S. DEPARTMENT OF JUSTICE

        Chairman Whitfield, Ranking Member Stupak, and 
distinguished members of the Subcommittee, thank you for 
inviting me to testify before you today about my office's 
prosecutions of cases involving the sexual exploitation of children 
on the Internet, including the RegPay case, in which we prosecuted 
both producers and consumers of child pornography.  

Introduction
	As this Subcommittee is already no doubt aware, the advent of 
the Internet has led to a vast proliferation in the availability and 
prevalence of child pornography in today's society.  The 
possession and distribution of child pornography ware once 
relatively rare crimes relegated to those who would frequent 
certain underground adult bookstores or attempt to order obscure 
magazines from overseas.  The Internet has dramatically changed 
that by making child pornography easy to produce and distribute, 
while also making it readily available to those inclined to seek out 
this material from their own home.  Sadly, thousands of individuals 
who are sexually attracted to children now have ready access to 
images and videos depicting the sexual exploitation and 
molestation of children.  Moreover, unscrupulous and 
opportunistic individuals both here and especially abroad have 
seized the opportunity to market access to child pornography in an 
industry that provides huge profits and relatively low overhead 
costs.  It is probably accurate to say that the number of individuals 
in this county who have intentionally obtained access to or traded 
images of child pornography within the last six-month period 
outstrips the number for a similar six-month period from 15 years 
ago by at least a hundredfold.  In addition, the Internet has also 
become an avenue for child predators to seek out and communicate 
with children in the seeming anonymity of chat rooms.
	Needless to say, this sea change has created a tremendous 
challenge for law enforcement -- one that requires law enforcement 
to adapt quickly to a rapidly changing landscape and to search for 
innovative ways to identify and apprehend offenders.  It has also 
put a premium on law enforcement officers with technological and 
computer expertise.  
	Law enforcement efforts to interdict Internet-based child 
exploitation crimes are largely dictated by the nature of the 
offense, which can be loosely grouped into two categories: child 
pornography offenses and child exploitation cases.  The former 
type of investigation is more heavily dependent on technological 
expertise and forensic investigation, while the latter is typically 
dependent on the capacity of an individual agent to convincingly 
portray himself or herself as a minor who is susceptible to 
advances by on-line predators.
	To understand child pornography offenses and the efforts of 
law enforcement to effectively investigate them, it is necessary to 
understand the nature of child pornography on the Internet.  Much 
of the proliferation of child pornography can be traced to the 
existence of numerous commercial websites that offer access to 
child pornography for a monthly fee.  During the past ten years, 
hundreds of websites, many based in Eastern Europe, have 
appeared on the Internet.  These sites typically require a subscriber 
to submit various information including billing information, 
whether it be via credit card or some other on-line payment service 
such as E-Gold.  Law enforcement efforts to interdict these 
websites and to apprehend both those who operate them and those 
who subscribe to these sites has proven a formidable task, but there 
have been notable successes.  Foremost among these successes has 
been the RegPay investigation which represented the collaboration 
of a number of federal agencies, including the Federal Bureau of 
Investigation (FBI), the Department of Homeland Security's 
Immigration and Customs Enforcement (ICE), the Internal 
Revenue Service Criminal Investigations, and the Postal Inspection 
Service, in conjunction with the United States Attorney's Office 
for the District of New Jersey and the Child Exploitation and 
Obscenity Section in the Department's Criminal Division (CEOS).  
It is also illustrative of how the federal government can 
successfully target the commercial child pornography industry at 
both the level of the producer and the consumer. 

The RegPay Case
	The RegPay investigation, which began in early 2003, 
represented the first large-scale effort to target the operators of 
commercial websites offering access to child pornography over the 
Internet and to track the financial trail created by those who profit 
from this industry.  In the early part of that year, federal agents 
made undercover purchases of monthly subscriptions to numerous 
child pornography websites in an effort to track down the 
producers of the material and the operators of the sites.  The 
investigation revealed that a company based in Belarus, which 
called itself RegPay, operated several commercial child 
pornography websites and processed credit card fees for more than 
50 other similar sites.  The investigation also determined that credit 
card payments for access to these sites were being processed 
through a company based in Ft. Lauderdale, Florida known as 
Connections, USA.  Agents also executed search warrants on 
computer servers based in Texas and Virginia that RegPay had 
leased, and recovered extensive databases documenting credit card 
transactions involving approximately 90,000 customers worldwide.  
Armed with this informatio,n the investigation pursued two paths, 
aimed at, on the one hand, the operators of RegPay and those who 
processed their transactions, and, on the other hand, the consumers 
who purchased access to the site.  
	To pursue the operators of RegPay, agents first executed a 
search warrant at Connections, USA in Ft. Lauderdale.  Upon 
executing the search warrant, agents learned of an ongoing 
financial dispute between Connections, USA and the operators of 
RegPay relating to an outstanding debt of more than one million 
dollars supposedly owed to RegPay.  Agents were able to assume 
the role of Connections, USA to broker a meeting in Paris between 
the operators of RegPay and Connections, USA, ostensibly to 
resolve the ongoing dispute and to set the groundwork for future 
financial cooperation between the companies.  This ruse led to the 
arrest of two Belarussians in Paris while a third individual was 
apprehended while vacationing in Spain at the same time.  All 
three were extradited to New Jersey to face charges relating to the 
production and distribution of child pornography.  All three pled 
guilty on the eve of trial in February of 2005 before the Honorable 
Dennis M. Cavanaugh of the United States District Court of New 
Jersey.  The two principals of RegPay, Yahor Zalatarou and 
Aliaksandr Boika, are expected to be sentenced later this month.  
They face presumptive sentences in the range of 25 to 30 years.  In 
total, 9 individuals pled guilty in the District of New Jersey for 
their involvement in operating or supporting RegPay's business 
operations, including three individuals from Connections, USA as 
well as three California-based individuals involved in the 
laundering of RegPay's proceeds.  One of these latter individuals, 
Yaroslav Grebenschikov, admitted that in late June 2003, he 
assisted individuals associated with Regpay in the formation of LB 
Systems - a company created to assist Regpay and others in 
Belarus to process credit card sales for previously approved 
transactions involving child pornography - as well as the opening 
of a bank account, both of which he used to transfer more than 
$200,000 in funds associated with RegPay to banks in Latvia. 
	Simultaneously, in what was dubbed Operation Falcon, agents 
pursued the consumers of child pornography by following the 
transaction history of those who had gained access to the RegPay-
supported child pornography websites.  By comparing the 
transaction data obtained via the search warrants conducted on the 
servers in Texas and Virginia with credit card records, agents were 
able to seek search warrants for numerous individuals throughout 
the United States.  Leads were also distributed worldwide to 
pursue those who knowingly received and possessed child 
pornography.  Through February of 2006, the RegPay investigation 
had resulted in 341 federal, state and local arrests in the United 
States and approximately 703 additional international arrests.  In 
the District of New Jersey alone, more than 50 individuals were 
charged federally with possession of child pornography.  The New 
Jersey defendants included teachers, a pediatrician, a psychologist, 
a retired minister and, perhaps least surprisingly, several 
individuals who had been convicted of sex offenses against minors, 
including a former school principal.

Recidivist Offenders
	This latter category illustrates the importance of pursuing the 
consumers of child pornography because, among other reasons, the 
link between those who seek out child pornography and those who 
molest children is substantial and disturbing.  Of the approximately 
52 New Jersey targets charged federally in New Jersey, 5 had prior 
convictions for sexual offenses against minors.  In addition, 3 other 
defendants, when confronted by ICE agents conducting searches 
on their computers, admitted to molesting a total of at least 14 
children, while two defendants, including one of the convicted sex 
offenders, admitted to attempting to meet minors in on-line chat 
rooms.  What cannot be known is how many others of those who 
were arrested had molested in the past but chose not to reveal this 
to authorities.  While it is uncertain what percentage of those who 
gain access to child pornography act out upon their impulses, it is 
clear that a significant percentage do and common sense dictates 
that the exposure to child pornography encourages this behavior.  
For example, a study completed in 2000 by the Director of the Sex 
Offender Treatment Program at the Butner Federal Correctional 
Complex in North Carolina revealed that of 54 inmates convicted 
of child pornography offenses, 79.6% of them admitted that they 
had also molested significant numbers of children.

Harm to Exploited Children
	Furthermore, the proliferation of child pornography websites 
and the great profits reaped by their operators fuels a market for 
the production of new and often hard-core child pornography.  In 
short, the market in child pornography directly leads to the 
exploitation and molestation of children from all over the globe, 
often for the purpose of commercial gain.  Many of the victims are 
from Eastern Europe where a substantial percentage of child 
pornography is produced.  Images and videos of American children 
are encountered with great frequency, however, because once a 
photograph of child pornography makes its way on to the Internet - 
something that can be accomplished with ease in the era of digital 
photography - control of that image is essentially lost, and 
commercial websites may include such images in the collections 
they offer on their sites.  Sadly, the victimization of children forced 
to become the subjects of child pornography thus continues as the 
image travels throughout the Internet.  As Attorney General 
Gonzales noted recently, "[child pornography] is not a victimless 
crime.  Most images today of child pornography depict actual 
sexual abuse of children.  Each image literally documents a crime 
scene."

The Evolving Landscape and Law Enforcement's Challenge 
	As with most sophisticated criminal enterprises, the purveyors 
of child pornography adapt to law enforcement techniques, thus 
forcing investigators to adjust to an ever-changing landscape.  The 
commercial child pornography industry has evolved even since the 
RegPay investigation.  For instance, child pornography websites 
are not as easily located on the Internet by the uninitiated as was 
the case three to four years ago.  While this may reduce the number 
of individuals subscribing to these sites, it also makes them harder 
for law enforcement to locate and identify.  Moreover, the 
operators of these sites are increasingly sophisticated in hiding 
their own identities and whereabouts.  They accomplish this both 
technologically - by making their operations more difficult to trace 
through the use of such software as anonymizers - and by 
insulating themselves through the use of sham Internet-based 
companies and other third parties through which they funnel their 
profits from the child pornography websites.  Moreover, they lease 
server space typically through the use of stolen identities, and the 
companies that lease the space to them frequently do not realize 
the true content of the website they are helping to host.  Perhaps 
the greatest challenge to bringing these individuals to justice, 
however, stems from the concentration of such operations in 
Eastern Europe, typically in the break-away Soviet republics such 
as Belarus.  Most of these countries do not have extradition 
policies with the United States, and the knowledge of the fate of 
the RegPay defendants makes the likelihood that operators of 
similar sites will venture outside the relative safety provided by the 
borders of their home country remote at best.  Widespread 
corruption amongst Government officials in some of these 
countries significantly reduces the chances that they will face 
meaningful prosecution in their homeland.
	These obstacles mean that curbing demand for child 
pornography will be increasingly important in combating the 
proliferation of this material.  Techniques including electronic 
surveillance and the execution of search warrants on servers both 
domestically and abroad provide a deterrence effect for those who 
might seek child pornography through online commercial websites.  
Law enforcement needs to send a clear message that individuals 
who subscribe to these websites and contribute to the molestation 
of children across the globe run a substantial risk of facing 
significant jail time any time they hit the "JOIN NOW" button for 
one of these sites.  As I speak here today, even though child 
pornography websites are harder to locate than before, there are 
still thousands of Americans who attempt to subscribe to child 
pornography websites every month.  Law enforcement can and will 
play a significant role in bringing such individuals to justice.

Alternative Distribution Methods
	While I have spoken so far primarily about the role of 
commercial websites in the proliferation of child pornography, it is 
important to realize that a great deal of child pornography gets 
distributed on the Internet through individuals who trade such 
material with one another.  Additionally, peer-to-peer software 
such as Kazaa and Limewire may be abused by those with a 
mutual interest in child pornography to share their respective 
collections with one another if they belong to the same network of 
computers.  Child pornography may also be distributed through 
attachments to e-mail.  Individuals with an interest in child 
pornography may frequent certain chat rooms from which they will 
exchange collections.  In addition, certain individuals may 
establish on their home computer what is known as an F-Serve on 
which they establish a collection of child pornography that can 
only be accessed by those who upload images of child 
pornography to the F-Serve first - thereby preventing law 
enforcement from gaining access while expanding the F-Serve 
operator's own collection. 
	All of these methods for distributing child pornography cause 
many of the same harms as posed by commercial child 
pornography websites, namely, the continued victimization of the 
children depicted and the encouragement of those with pedophilic 
impulses to act upon them.  Law enforcement can identify many of 
the individuals involved in these forms of distribution through a 
variety of techniques.  For instance, certain programs can be run 
which search computers that are connected through the same 
network for a particular image as defined by its hash value.  This 
enables law enforcement to identify individuals who have 
particular images of child pornography on their computers and 
may establish sufficient probable cause for search warrants.  In 
addition, forensic examination of an individual's computer that has 
been seized may reveal e-mail communications with other 
individuals who have sent and received child pornography from 
the seized computer.  In this regard, traditional cooperation from a 
defendant who has distributed child pornography through these 
means may lead to the identification and arrest of numerous others.

Interstate Traveler Cases
	In addition to investigations involving child pornography, the 
FBI plays a vital role in preventing and even interdicting child 
exploitation crimes so long as there is some interstate nexus to 
provide federal jurisdiction.  The best known example of this type 
of investigation is the so-called enticement or "traveler case," 
which has been recently well documented on a series of "Dateline 
NBC" episodes.  Across the country, too many of our children 
have been lured by child abusers through contacts in chat rooms 
that are allegedly closed to adults.  Some of these interstate 
travelers also take pictures of the minors they molest and 
sometimes abduct, and then post the child pornography online.  
This type of investigation requires an undercover agent to enter an 
Internet chat room where older men are likely to be interacting 
with  minors.  The undercover agent will engage in a series of 
chats to determine if the other individual is an adult seeking sexual 
contact with the undercover whom he believes to be a young 
teenager.  As the chats progress, the older male may decide to 
travel to the location of the minor in the hopes of renting a nearby 
motel room or making similar arrangements.  If the older male 
travels across state lines to meet the minor, the case may be taken 
federally.  While many "traveler cases" may be prosecuted at the 
state level, federal traveler cases are not uncommon.  For instance, 
the District of New Jersey is currently prosecuting a case where a 
doctor from a prominent Philadelphia hospital traveled to 
Hackensack, New Jersey expecting to meet a 14-year old girl with 
whom he intended to have sexual relations.  Such "traveler cases" 
often involve actual minors whom the traveler intends to sexually 
abuse.  For example, the District of New Jersey recently secured a 
conviction of a Florida man who traveled to New Jersey to have 
sex with a 13-year old girl.  ICE agents, who did not initially know 
the identity of the intended victim, trailed the defendant and 
observed him following a school bus in an effort to find the girl 
whom he had met over the Internet.  The agents were able to 
interdict this crime before the defendant, who was in possession of 
a stun gun and alcohol, contacted the victim.  It is likely that such 
crimes, however, are greatly under reported by the young and 
confused victims.  

Sex Tourism Cases
        Another, albeit less common type of child exploitation case 
that may involve the Internet arises out of sex tourism 
investigations wherein the defendants are individuals who travel 
overseas to have sex with minors, or who organize such trips.  
These trips frequently involve travel to southeast Asia.  Sex tour 
operators catering to pedophiles tend to be discreet and are difficult 
to infiltrate because they are usually extremely wary of law 
enforcement.  If successful, however, these cases may not only 
lead to the apprehension of the tour operator, but his prior clients 
as well.  Because of the international nexus of these violations, 
ICE often acts as the primary federal law enforcement agency 
responsible for conducting such investigations.  ICE has conducted 
many successful child sex tourism investigations and works closely 
with CEOS, the U.S. Attorney's Offices, as well as federal, state 
and local law enforcement agencies.  
        The District of New Jersey is currently prosecuting one such 
case where the defendant operated a website advertising sex 
tourism.  The website did not specifically advertise that its tours 
were catered toward minors, but it included pictures of girls in 
various states of undress, some of whom clearly appeared to be 
underage.  The investigation involved undercover Internet chats 
followed by meets wherein undercover agents posed as customers 
seeking to have sex with underage girls upon arrival in the 
Philippines.  The defendant initially indicated that he would not 
talk about minors until the group arrived in the Philippines, but he 
gradually opened up to the point where he admitted to having sex 
with minors himself. 

Project Safe Childhood
	All of the investigations that I have described so far will be 
bolstered by the Department of Justice's recently launched Project 
Safe Childhood initiative designed to coordinate the efforts of 
federal agencies and U.S. Attorneys' Offices with state and local 
law enforcement.  This initiative is designed to help coordinate 
national child pornography investigations, train additional federal, 
state and local law enforcement in pursuing computer-based 
investigations and raise community awareness of the dangers of 
the Internet for children.  The initiative is also designed to increase 
federal involvement in many of these investigations, especially 
where state laws provide little deterrence for offenders.  This latter 
point is clearly evident in New Jersey where possession of child 
pornography regularly results in sentences of 2 to 3 years if 
prosecuted federally but carries with it a presumption of a 
probationary sentence under state law. 
	I am proud that the District of New Jersey has been a leader in 
pursuing child exploitation offenses on a national level, as 
evidenced by the RegPay case, which represents one of the most 
successful child pornography investigations in the nation's history.  
Most importantly, Project Safe Childhood will ensure that every 
state and every district has properly trained law enforcement 
officials who can vigorously pursue predators and similar 
offenders, when supplied with appropriate leads, and that these 
investigations will realize even greater success in the future.
	I should also note that the District of New Jersey's experience 
in pursuing RegPay and other similar investigations demonstrates 
that the number of child pornography and other child exploitation 
offenders is quite simply staggering, and that it behooves law 
enforcement offices - whether they be the prosecuting authority or 
the investigative agency - to devote greater resources and 
personnel to these investigations.  The RegPay investigation 
demonstrates that a few well-trained and dedicated law 
enforcement officials can make a major impact and provide 
prosecutors and agents in their own and other districts with large 
numbers of dangerous offenders to pursue and bring to justice.  
Unfortunately, sometimes our own American youth are the victims 
of traffickers in this country who lure youth from their 
communities and sell them for prostitution in other jurisdictions, 
offering them for sex at truck stops, conventions, and on the streets 
of our cities.  

Human Trafficking
	I would be remiss if I did not mention that the impact of federal 
law enforcement's efforts to protect children is not limited to 
investigations focused on the Internet.  One type of crime that 
frequently entails the exploitation of minors are those involving 
human trafficking, whether they involve forced labor or sex 
trafficking.  Many of the victims of this type of deplorable crime 
are minors, and they are often sexually exploited on a commercial 
basis.  Human trafficking is a crime that has been with us for many 
years, but continued largely unnoticed until the passage of the 
Trafficking Victims Protection Act of 2000, authored by a strong, 
committed group of legislators including Representative 
Christopher Smith, from my home state of New Jersey.  That 
legislation recognized that many individuals, typically young 
female immigrants, were being smuggled into the United States 
and forced to work in demeaning conditions or in prostitution.  
Since the passage of that legislation, numerous trafficking cases 
have been brought throughout the United States, and the District of 
New Jersey has once again been one of the leaders in pursuing 
these types of cases.  
	In 2002, for example, this Office brought the case of United 
States. v. Jimenez-Calderon which led to the convictions of two 
women for their role in forcing several juvenile Mexican girls to 
work as prostitutes in Plainfield, New Jersey.  The defendants 
received sentences of approximately 17� years each.  In 2005, this 
office indicted the case of United States. v. Luisa Medrano, et al., 
which involved the smuggling into the United States of young 
Honduran females, some as young as fourteen, after they had been 
promised legitimate waitressing jobs to lure them into the country.  
Upon arrival in Union City, New Jersey, these girls were forced to 
work six or seven days per week at bars catering to male 
immigrants where they were pressured to perform sexually 
provocative dances for the customers and ply them with alcohol. 
The victims were also required to live at specific residences and 
had their movement greatly restricted until their smuggling debts 
were paid off in full.  Many of these juveniles were sexually 
exploited during the smuggling process that brought them to New 
Jersey.  
	Even more recently, the District of New Jersey has brought 
various charges against a number of defendants for their 
involvement in prostitution activities in Hudson County and 
elsewhere.  These defendants are primarily members of the Notario 
family from San Miguel Tenancingo, the trafficking capital of 
Mexico.  The investigation has identified numerous trafficking 
victims who were put to work as prostitutes in various brothels 
along the East Coast after having been smuggled in from Mexico.  
Among these identified victims are at least three juveniles.  Thus, 
the pursuit of human trafficking cases often represent yet another 
means by which law enforcement identifies and dramatically 
assists sexually exploited minors.
 
Conclusion
	In conclusion, the dangers of the Internet in the proliferation of 
child exploitation crimes cannot be underestimated.  The Attorney 
General has recognized that "we are in the midst of an epidemic in 
the production and trafficking of movies and images depicting the 
sexual abuse of children," and the need for law enforcement to 
respond rapidly and forcefully cannot be more clear.  With proper 
coordination and the cooperation of federal, state and local 
authorities, the Internet can be made far safer for the children of 
this country.  Law enforcement must create an environment in 
which sexual predators fear the Internet as a dangerous place that 
may likely land them in prison for a significant period of time.  
The RegPay investigation - especially with the advent of Project 
Safe Childhood - provides a model for law enforcement agencies 
throughout the country to pursue child exploitation cases with the 
knowledge that the offenders who are identified will be vigorously 
investigated and prosecuted.  
        Mr. Chairman, I again thank you and the Subcommittee for the 
opportunity to speak to you today, and I would be pleased to 
answer any questions the Subcommittee might have.

	MR. WHITFIELD.  Well, Mr. Christie, thank you very much and 
we certainly appreciate the great work you are doing here and I 
know there has been national attention on the prosecution in the 
RegPay case and I mentioned this in my opening statement, that 
those of us on the committee have really been shocked about 
exactly how widespread this problem of child pornography is and 
then those people whose sole goal is to meet young people and 
meet them physically and molest them in some way.  I know we 
had this case in Texas where a couple, a married couple, had a 5-
year-old child and they had 7,000 subscribers, 70,000 subscribers 
that were paying $30 a month and they would molest their child 
sexually on demand and their income was around $2 million a 
month and through law enforcement and the techniques that you 
are using, that couple was arrested, prosecuted and both of them 
are now in prison serving between 40 and 50 years in a 
penitentiary.
	But once again, I do want to commend you on the RegPay case 
and I would like you to elaborate, if you wouldn't mind, just a little 
bit about, in some cases and some jurisdictions, there is a lack of 
cooperation between Federal and State and local officials:  Do you 
feel comfortable that on this issue that you are getting cooperation 
at all levels?
	MR. CHRISTIE.  As I said, Mr. Chairman, in my remarks, I 
think in this jurisdiction I can speak to this one with the most 
knowledge.  There is a great deal of cooperation.  I think part of 
that is led by the fact that there is so much of this crime going on, 
that there is so much to go around, that people aren't arguing over 
who gets what case.  It is more trying to figure out how do we 
cover everything we need to cover.  The breadth of the problem is 
extraordinary.  As I said, it is a multibillion dollar industry and it 
branches off in a number of different directions.
	You have the exploitation of the children, as you mentioned, 
who are in the images.  And in our office, we have had cases with 
children as young as 6 months old who are being exploited 
sexually on these images, which I will tell you, I was not in law 
enforcement before I became the United States Attorney, and when 
I saw these images of children as young as 6 months old being 
exploited, it is the most sickening thing I have seen in this job, so I 
think the cooperation is driven by the depravity of the crime and 
also by, unfortunately, the volume of it.  We all need to work 
together and there is plenty for all of us to do.
	MR. WHITFIELD.  Right.  Now, what about Attorney General 
Gonzalez's Project Safe Childhood initiative?  What is your view 
on that and are you pleased with that?
	MR. CHRISTIE.  I think it is a very important initiative, but one 
in New Jersey that, quite frankly, we were ahead of.  When you 
look at what Project Safe Childhood is asking U.S. Attorneys 
offices to do, is ordering the U.S. Attorneys offices to do, we have 
already done that 4 years ago.  When I became U.S. Attorney, we 
set up a separate stand-alone unit on that which was called our 
Public Protection Unit that deals almost exclusively with crimes 
against children.  We have seven assistant United States Attorneys 
who are working almost exclusively on that, also with violence 
against women and human trafficking, so the initiatives that the 
Attorney General is calling for in terms of the focus there, is 
something that we have been doing for the last 4 years.  In fact, the 
chief of my Public Protection Unit is here with me today, Mark 
McCarren, and Mark has been working on these problems with me 
now for nearly the last 4 years, so I think the focus is very 
important.
	In addition, I think it helps to focus the other investigative 
agencies, both inside DOJ and outside the Department on making 
sure they make these investigations a priority, so I mentioned in 
my remarks they are very resource intensive.  You will have 
hundreds and hundreds of targets that you need to go after across 
the country and sometimes around the world, so you need the 
cooperation of the FBI, you need the cooperation of Immigration 
and Customs Enforcement out of Homeland Security to make sure 
that they put the resources on it.  So I think the Attorney General 
putting a focus on it will help to make sure those other resources 
come, as well.
	MR. WHITFIELD.  What was the length of time from the 
beginning of the RegPay case until you did get a conviction?
	MR. CHRISTIE.  It was about 2 years.
	MR. WHITFIELD.  Two years?
	MR. CHRISTIE.  About 2 years.
	MR. WHITFIELD.  You know, we also had, in one of our 
hearings, there was a young girl from Russia who was adopted by 
a gentleman here in Pennsylvania.  She was 6 years old, and it 
came through a child adoption agency in New Jersey and this child 
was placed with this man who was not married and for a period of 
6 years he sexually molested her, kept her chained in the basement 
for periods of time, taking obscene pictures, and putting it all over 
the Internet, which he was paid for that, as well.  And through 
some very innovative work by law enforcement, he was also 
arrested and is serving a prison term now.  We are going to have a 
hearing about some of these child adoption agencies, in which this 
agency received a fee of $25,000 and did not do any due diligence 
in placing this child.  It also appears, we are going to be looking 
into that aspect, which is a little bit different than we normally 
think, in these cases.
	At this time, I would like to recognize Mr. Ferguson for any 
questions he may have.
	MR. CHRISTIE.  Mr. Chairman, I need to say just one thing 
before Mr. Ferguson, on that point; there are many branches of this 
problem and you have just raised one of them and human 
trafficking is also a part of this problem.  You can identify these 
people as people who exploit children sexually from a child 
pornography perspective, but also, a lot of these organizations are 
involved, especially in Eastern Europe and in Central America, in 
highly coordinated trafficking of individuals into the United States 
for children for this very purpose.  And so I would urge the 
committee, as they go forward, to not lose sight of that aspect of 
this, as well, because the profits being made there are not as 
significant as in the pure child pornography industry, but they are 
significant and it is a growing problem here, especially in a State 
like New Jersey, where you have a real melting pot and so people 
can come from very different parts of the world and fit in here 
seamlessly and not be noticed.
	MR. FERGUSON.  Thanks, Mr. Chairman.  Thank you again for 
being here with us today, Mr. Christie.  We have had a number of 
these hearings.  We have heard from lots of different folks, 
including victims.  You talked about the volume as being a 
challenge, an issue that you have to deal with.  One of the victims 
that we heard from in one of our first hearings who actually turned 
this into a business for himself when he was, himself, a minor; 
ended up making a lot of money.
	He finally decided to turn over all of his information to legal 
authorities and he testified that he was--this is another part of the 
country--was very, very dissatisfied, disappointed with the pace of 
the law enforcement investigation.  To his knowledge, this is some 
months or a couple of years, I think, after he had turned all this 
information over to the Department of Justice, that they hadn't, as 
far as we know, hadn't brought a prosecution or hadn't had a 
conviction of, I don't know, some 1,500, I think, IP addresses and 
credit card information and there clearly are a lot of challenges for 
law enforcement, for folks like yourself, to try and get to the root 
of this problem and to prosecute and hold accountable those who 
need to be held accountable.
	We are trying to address that from a legislation point of view, 
if that is necessary.  What insights can you share with us?  What 
challenges, what problems do you see, from a Federal law 
enforcement perspective?  What challenges do you have in terms 
of trying to go after these folks?  You have obviously had success, 
so you have overcome some challenges, but what other, what 
insights can you share with us?  What can we be doing from our 
end to help work with law enforcement, particularly Federal law 
enforcement?
	MR. CHRISTIE.  Well, we have had--I don't want to lead 
anybody astray.  We have had our frustrations, too, and they 
surround, essentially, resource-type of frustrations where you 
really need to get people focused.  This work is difficult work and 
quite frankly, Congressman, it is distasteful work.  When you have 
assistant United States Attorneys and agents who are working day 
after day amidst these images, at times it can be inspirational 
because you want to try to save these children, but it can be very 
emotionally taxing and so part of what we have done is try to 
rotate the people that we have doing this work to try to ease the 
burden from them because it is an extraordinary burden.
	If you sit and leaf through, as I have, notebooks of these 
images, it is extraordinarily disturbing.  And as a parent, you can't 
but have your mind wander to how horrible the reality is for these 
children.  I think in terms of what can be done, I think the Attorney 
General's step is a good one.  I think we need to just make sure 
that law enforcement understands that this is a priority, that this is 
important work that we need to do, and that is about providing 
leadership and that is why I think the Attorney General's initiative 
in Project Safe Childhood is so important.
	We saw, in the first term of the Bush Administration, the focus 
on Project Safe Neighborhood and on violent crime and we had 
enormous results from that initiative.  I think we can have similar 
type of results in this initiative just by the Attorney General telling 
every U.S. Attorney this now must be a priority in your office.  In 
some offices, like mine, it already has been, but in others it hasn't 
and so in those offices they now know, from the number one guy 
in our department, that this is a priority and I think anything that 
Congress can do to encourage and supplement that leadership is 
going to be very important because they need to know from the 
Congress that they think this is important, as well.
	MR. FERGUSON.  You talked about, sort of, this fatigue that can 
set in when dealing with a topic which is so distasteful and so 
horrible.  I spent a day over at the National Center for Missing and 
Exploited Children, meeting with the folks there who are doing 
this every day.  They do lots of things there; as you know, they 
train law enforcement from all around the country, they bring them 
in for free and train folks, which is an incredible service, but they 
also have this Federal kind of a task force with all different folks 
from FBI and DOJ and all different folks trying to work together 
and one of the things they do is monitor all of this material and try 
and get their hands on this material and figure where it came from, 
who created it and whatnot.  And it has got to be a tremendous 
strain and a mental and psychological strain for just a human 
being; these are just people that are doing this investigative work.  
So that sort of having to rotate folks through opportunities like that 
has got to be very difficult because, I mean, just thinking about it 
from our perspective and listening to testimony, it is horrible.
	MR. CHRISTIE.  Yes.
	MR. FERGUSON.  And for folks who are doing this every day, it 
must be really, really difficult.
	MR. CHRISTIE.  It is, and I think one of the things that have 
escalated that, too, through the Internet in particular, is not only the 
availability of it in everybody's home now, but the fact that there 
are really two ways to pay for this material that are being used 
now.  It is not only just paying through credit card, but you can pay 
by uploading your own images.  So you can pay in kind, 
essentially, so that if you are willing to upload 30, 60, 90, 120, they 
usually do it in lots of 30, original images of child pornography, 
that can help to pay for your membership to these type of sites, 
instead of paying cash.
	We have had cases where you have people who are exploiting 
their own children in order to have access to this information, in 
order to make a profit.  You have people out there, we have had 
cases of people adopting children, as you mentioned, and not just 
foreign adoptions, but domestic adoptions, where they then trade 
their children with other pedophiles and allow them to abuse their 
children in return for abusing someone else's children.
	The breadth of these crimes and what I am really trying to get 
across is, the focus on the Internet is important because of its 
availability and its ability to exploit our children in our own living 
rooms.  But we need to make sure that we follow all the branches 
of what runs off of this vein and it is an enormous problem and one 
that we are spending a lot of time, you know, seven--I have 130 
AUSAs in my office, seven of them are working just exclusively 
on this type of work, so that is a large commitment of resources, 
from a percentage perspective, on crimes against children and we 
include human trafficking in that, as well, since most of the people 
trafficked are children, so it is a fatigue area and so I try to move 
my people out of there, except for Mark, who is, unfortunately, 
stuck there because he does it so well.  But he has shown real 
leadership in that area and he has gotten a lot of new young people 
in there now that we have just put in that are really bringing an 
enormous energy to the task.
	MR. FERGUSON.  I happen to know Mark.  He and I went to 
high school together many moons ago and you are fortunate, as 
you know, to have such a talented person leading the charge on 
that.
	MR. CHRISTIE.  Absolutely.
	MR. FERGUSON.  Mr. Chairman, I have one more topic I would 
like to cover with the U.S. Attorney.
	MR. WHITFIELD.  Sure.
	MR. FERGUSON.  You talked about following the money.  You 
talked about how this is paid for, largely through credit card 
companies and using that technology.  How can we work with, in 
your opinion, with your experience, how can we work with the 
credit card companies to make them a full partner in this effort?  It 
just seems to me, and this is another thing that has become obvious 
to us in other hearings, is that without the money, a lot of this 
problem, not all of it, but a lot of this problem is driven by money 
and by the ability for people to make money and the commerce of 
the issue is really, I think, perhaps at the heart of this, other than 
just a sickness.  How did you work with the credit card companies 
in the RegPay case and how might that be a model and what things 
have we learned from that?  Or what things do we need to do to 
help them to be a more active partner with us in this effort, as 
well?  Because I have got to believe they have got to be a huge part 
of it.
	MR. CHRISTIE.  Well, they are an enormous part of it and this 
former AUSA identified that very early on and was his first foray 
into trying to set this up was meeting with the credit card 
companies.  And I will be candid that initially we met with some 
resistance from them in terms of them giving us real time access to 
the transactions coming off these sites, but eventually, we were 
able to persuade them that this was in their interest.
	And I think that anything that Congress can do to encourage 
both transparency on this topic from the credit card companies and 
real time access for law enforcement to these records, because 
listen, we know that if they are processing transactions from a 
child pornography website, that is illegal.  So you have already met 
the threshold.  This is not a free speech question.  It is not a 
privacy question.  These are people who we know are engaged in 
illegal conduct and they are using those credit cards to engage in 
that illegal conduct.
	So I think to the extent that Congress can continue to prod the 
credit card companies to have transparency on this issue and give 
real time access, because the hundreds of thousands of transactions 
that are done, just in New Jersey every day on these websites, it is 
staggering.  When you go across the country, you are talking about 
millions.  So for law enforcement to follow those transactions, both 
to the people who are purchasing and then back to the people who 
are benefiting from this money, we need to get on top of it right 
away.  People change credit cards, drop credit cards the same way 
that drug dealers change and drop cell phones, so we need to be on 
top of that and get that in a real time way because the money 
launderers here in the United States are also profiting from this, 
these middlemen companies who don't have any direct--they are 
not owned by the credit card companies, but they work as affiliates 
who are processing this money.
	They are the key, after the credit card companies.  Once you 
get to them, they know who they are making these deals with 
around the world and how much they are getting paid to process 
this money and get it to foreign banks where we would have a 
more difficult time seizing the assets.  So I think the credit card 
companies are the gateway into this industry and so to the extent 
they can continue to be held accountable for transparency and 
giving us real time access, the Congress would be making an 
enormous contribution in that regard for law enforcement, to make 
our job easier and make us more effective.
	And I will tell you, these guys in the RegPay case were stunned 
that we were able to catch them, we found in debriefings 
afterwards, because no one had ever followed the money before.  
The traditional way law enforcement had done this was to just go 
after the purchasers.  It is the easier way to go.  And a lot of time it 
is important, because in this case, we had purchasers who were 
pediatricians, purchasers who were school bus drivers, purchasers 
who were athletic coaches for children.
	You need to go after those people to get them out of circulation 
because the statistic, Congressman, you mentioned, about how apt 
these people are to be able to then act out on the abuse is they own 
this material.  So both sides are important, but there had been an 
emphasis in law enforcement previously just on the purchaser side 
and not on the side of the people who are profiting from this 
monetarily.
	MR. FERGUSON.  Actually, I have another question.  Do you 
mind?
	MR. WHITFIELD.  No, go ahead.
	MR. FERGUSON.  I have one more question.  When it comes to 
ISPs, we have also been in conversations and heard testimony from 
ISPs, these Internet Service Providers who--there is no real 
industry standard right now for the length of time that they keep 
information and we have heard from law enforcement, the 
Department of Justice, and others who would like there to be a 
standard where ISPs would keep information about traffic and 
personal information from folks for up to 2 years.  ISPs and other 
privacy organizations, frankly, have raised concerns with that.  Do 
you have any particular personal or professional recommendation 
on where we--I mean, ideally we will come to some consensus on 
this and bring everybody together, but in the case that we may end 
up having to legislate this at some point, do you have any insights 
for us on how that might affect your ability to go after the bad 
guys?
	MR. CHRISTIE.  Well, without talking specifically about 
legislation, it seems to me that from a law enforcement 
perspective, having that historical information is the only way that 
we are going to be able to follow these people unless you are in a 
situation where you are real time following it in the midst of an 
investigation.  If you want to try to do one of these things 
historically, which is most of the time the way it is going to be 
done, the RegPay case is an anomaly.  Most of the time you are 
going to wind up kind of backing into one of these investigations 
and so having that historical information available to us is 
important, and I understand the privacy concerns of gathering and 
holding onto--for the ISPs, holding onto this personal information.
	But again, it seems to me that law enforcement, in this 
instance, is only going after folks and only requesting information 
on folks who are on child pornography websites.  Per se, that is 
illegal.  I mean, we are not talking about people who are going on 
adult pornography websites, which you may or may not necessarily 
be illegal.  We are not talking about obscenity in the adult 
obscenity sense, which some people may argue have some First 
Amendment protection.  We are talking about children who are 
being exploited sexually for profit on the Internet.  There can't be 
any argument from anyone that there is a privacy protection, in my 
view, here.  What is the privacy protection of people profiting 
illegally from exploiting children, both in the United States and 
around the world.
	And so I have less sympathy for the privacy position in this 
particular context, because the underlying conduct is, per se, 
illegal.  And once you have established that, it seems to me that if 
we establish probable cause to get the information and have a 
judge who is willing, a Federal judge, lifetime tenure, who is 
willing to sign off on a search warrant for us to be able to get those 
materials, it seems to me that the privacy issue is much less 
important and so I would be hopeful that Congress can help in 
forging a consensus among all the parties on this, but if not, I think 
it is a very important tool if we are really serious about going after 
these folks because I will tell you, they believe--when they sit in 
their living rooms--we have spoken to people who are purchasers 
of this material.  When they sit in their living rooms, they believe 
they are anonymous.  They believe no one knows who they are and 
they don't grasp the fact yet that law enforcement can come and 
get them for doing this and that they are part of the problem.  And I 
think we need to send very strong messages about that and that is 
why, in our office, we have been as aggressive as we have been, 
not only on the RegPay supplier side, but on the purchaser side, as 
well.  And it is important that if Congress sends that type of 
message, I think the Federal judges will hear it, too, and will make 
sure that in this era where they now have a lot more discretion, will 
give out stiff sentences to these folks, because these are serious 
crimes.
	MR. WHITFIELD.  I think Congressman Ferguson did hit on an 
important part and that is relating to data retention and we have 
had a number of meetings with the Internet service providers and 
maybe not surprisingly, they haven't talked a lot about privacy 
with us; they talk about cost with us.  But we have told them that 
we think it is essential that they start retaining this data and I think 
the Chairman of our full committee and with Mr. Ferguson's help 
and others, are probably going to come forward with legislation to 
deal with this in a broader sense, as well.  I am also glad you 
mentioned the credit card things because, as I mentioned in my 
opening statement, this is our fifth hearing on this subject matter 
and we are going to have another one and we are bringing in the 
credit card companies to see what we can do with them to assist in 
a more effective way, also.
	MR. CHRISTIE.  I will say it is really important, Mr. Chairman, 
and I have to give MasterCard, Visa, and American Express credit 
on the RegPay case.  After negotiations with them, that were good 
faith negotiations, they came forward and gave us the access and 
the information we needed to make that case, so it is available and 
they can do it if they want to do it, and in the RegPay case, they 
did it and they were enormous partners in bringing that case to a 
conclusion.
	MR. WHITFIELD.  And I know Congressman Ferguson had also 
mentioned this young man who first got involved in this because 
an older gentleman convinced him that if he would take off his 
shirt with a webcam showing and everything, that he would send 
him a check for $50, so that was his first step down the road to 
being sexually exploited in person--by taking off his shirt and 
getting a check for $50.  But thank you very much for your 
testimony and great leadership you are providing here in this area 
and we look forward to working with you as we continue down the 
road to take steps to reduce the exploitation of children on the 
Internet.
	MR. CHRISTIE.  Thank you.  Thank you for inviting me, thank 
you for being here.  I thank you for your focus on this problem.  It 
is an enormous problem that really, quite frankly, when I go 
around our State, frightens more parents than almost anything 
because they really feel as if they have lost a sense of control over 
their children and so your committee's focus, subcommittee's 
focus on this is really important and I think gratifying.
	MR. WHITFIELD.  And so many parents are way behind their 
children about the way the Internet operates, too, which makes it 
more difficult.
	MR. CHRISTIE.  I count myself among them, absolutely.  Thank 
you.  Thank you, Congressman.
	MR. WHITFIELD.  At this time, I would like to call our second 
witness, and that is Congressman Michael Fitzpatrick, who 
represents the Eight Congressional District in Pennsylvania.  
Congressman Fitzpatrick, it is great to see you here today.  As I 
mentioned, before you came in, Congressman Fitzpatrick, you 
have introduced a bill, H.R. 5319, entitled "The Deleting Online 
Predators Act," and I know you have been at the forefront on 
trying to deal with this issue, so we are quite excited about your 
being here today to testify.  As you probably know, in Oversight 
and Investigations, we do like to take testimony under oath and I 
am assuming you have no difficulty in testifying under oath.
	MR. FITZPATRICK.  Sure.
	MR. WHITFIELD.  So if you would stand up and let me just 
swear you in, raise your right hand.
	[Witness sworn.]
	MR. WHITFIELD.  Thank you very much and you are 
recognized now for 5 minutes, Congressman Fitzpatrick.

STATEMENT OF HON. MICHAEL FITZPATRICK, MEMBER, 
U.S. HOUSE OF REPRESENTATIVES

	MR. FITZPATRICK.  Mr. Chairman, Congressman Ferguson, 
thank you for permitting me to participate in your Oversight 
hearing this morning, allowing me to give testimony on what I feel 
is a new and emerging problem confronting our Nation's children 
and their safety while using the Internet.  Mr. Christie correctly 
testified, indicated that this is a, virtually a multibillion dollar 
industry where the sole product is the exploitation of our Nation's 
children.  And Chairman, you talked about the particular case, 
international adoption of a young girl, I believe she was from 
Russia, passed through an adoption agency here in New Jersey and 
ended up ultimately adopted by a single male in the western part of 
my State, I think it was Pittsburgh or Plum, Pennsylvania.  His 
name is Mancuso.
	And I remember her story, her name is Masha, and while she 
has been placed now with a real family, her innocent images, 
which were essentially stolen from her, continue widely available 
on the World Wide Web, and while Mr. Mancuso is in jail, there is 
legislation that has been introduced in the Senate, hopefully it will 
be introduced into the House soon that will give Masha private 
right of action against those Internet service providers and the 
providers of Internet e-mails who continue to profit from her 
innocence in her images, as I said, both were stolen from her, so I 
look forward to the introduction of that legislation, as well.
	I want to thank the Subcommittee on Oversight and 
Investigations, Chairman Whitfield and Congressman Ferguson, 
for holding this, the committee's--I think you said it is the fifth 
hearing in addressing the dangers that online predators pose to our 
Nation's children.  Your work in this area is helping to shed light 
on the difficult challenges to both law enforcement and to 
American families, as well, and I appreciate the committee's 
dedication to this issue.
	As the father of six children, I know the challenges that 
technology poses to our families.  In a world that moves at a 
dizzying pace, being a father gets harder all the time.  Monitoring 
our children's use of emerging technology is a huge task and the 
Internet remains the focus of many parents' concerns.  The 
technological breakthrough of the World Wide Web has been 
enormously beneficial to our society.  The Internet has brought 
communities across the globe closer together through instant 
communication.  It has enabled an unfiltered free flow of thought, 
ideas, and opinion.  The Internet has opened a window to the world 
right at our fingertips.
	However, this window opens both ways.  The freedom to 
connect to the world anywhere, at any time brings with it the threat 
of unscrupulous predators and criminals who mask their activities 
with the anonymity the Internet provides to its users.  And among 
its many applications, one of the most worrying developments of 
late has been the growth of what are known as social networking 
sites.  Social networking sites like Myspace.com is one of the more 
famous--Friendster and Facebook are some of the others--have 
literally exploded in popularity in just a few short years.  MySpace 
alone has just over 80 million users and ranks as the sixth most 
popular English language website and the eighth most popular in 
the world.
	Anyone can use these sites.  Companies and colleges, teachers 
and students, young and old all make use of social networking sites 
to connect with people electronically, to share pictures, 
information, course work, and common interests.  These sites have 
torn down the geographical divide that once prevented long 
distance social relationships from forming, allowing instant 
communication and connections to take place and a virtual second 
life to take hold for its users.  For adults, these sites have been 
fairly benign.  For children, they open the door to many dangers, 
including online bullying and exposure to child predators that have 
turned the Internet into their own virtual hunting ground.
	I became personally aware of the danger of the Internet and 
what it can pose after my 16-year-old daughter began using the 
social networking site in MySpace.com.  I quickly realized that 
while my daughter thought she was only chatting with her friends, 
other people, some with criminal intent, could be looking in.  
Although age limits exist on many of these sites, there is almost no 
enforcement of these rules.  Frequently, children under the age of 
14, which is the cutoff age for profiles on MySpace, simply lie 
about their age and fake being 16 or 18 or even older.  Predators 
also use this anonymity to their advantage by profiling themselves 
as teenagers to more easily identify and navigate the profiles of 
their prey.
	The dangers our children are exposed to by these sites is clear 
and is compelling.  According to a study conducted by the National 
Center for Missing and Exploited Children, in 1998 there were 
3,267 tips regarding child pornography.  Since then, the number 
has risen by over 3,000 percent to an astounding 106,119 tips in 
2004.  The Department of Justice recognizes child pornography as 
a precursor for pedophiles and is often linked to online predators.  
According to Attorney General Gonzalez, one in five children has 
been approached sexually on the Internet, one in five children.
	Worse still, a survey conducted by the Crimes Against 
Children Research Center found that less than one in four children 
told their parents about the sexual solicitation that they received.  
MySpace, which is self-regulated, has removed an estimated 
200,000 objectionable profiles since it began to operate in 2003.  
And while it is difficult to predict the exact number of total 
predators on the Internet at any one time, the FBI estimates that 
there are more than 2,400 active sexual, child sexual exploitation 
investigations under investigation at any one given time.
	This problem is finally gaining the public's attention.  Look 
closely at local and national news stories and you will undoubtedly 
see a story of a crime linked to a social networking site.  Recently, 
national news reports have focused on the case of Katherine R. 
Lester, a 16-year-old Michigan honor student who fled to Israel 
with hopes of meeting a 25-year-old man she met on MySpace.  
Two months ago, in my own congressional district, right across the 
Delaware River in Bucks County, a 25-year-old man, Shawn Little, 
was arrested for posing as a teenager online to solicit a 14-year-old 
boy.  Little's communications with the child resulted in a sexual 
encounter.  And NBC's Dateline program has brought the threat of 
online predators to the televisions of millions of Americans 
through their acclaimed by disturbing "To Catch a Predator" series.  
While these high-profile cases make a splash in the headlines, how 
many other less-publicized cases of child exploitation go 
unnoticed?
	While these stories have pressured many social networking 
sites to take action to improve their safety protocols, like MySpace 
recently has done, these changes, in my view, fall short of real 
reform and that is why I did introduce the bill, the Deleting Online 
Predators Act.  Parents have the ability to screen their children's 
Internet access at home, but this protection ends when their child 
leaves for school or the library.  My legislation would require 
schools and libraries in New Jersey and throughout our Nation to 
monitor the Internet activities of minors and implement technology 
to protect their children from accessing, number one, social 
networking sites like MySpace.com and chat rooms which allow 
children to be preyed upon by individuals that seek to do our 
children harm and also protect them from visual depictions that are 
obscene.
	Preventing access to social networking sites in these situations 
is not designed to underestimate the importance of parental 
supervision.  Internet safety begins at home and that is why my 
legislation would require the FTC to design and publish a unique 
website to serve as a clearinghouse and resource for parents, 
teachers, and children for information on the dangers of surfing the 
Internet.  The website would include detailed information about 
commercial networking sites.  The FTC would also be responsible 
for issuing consumer alerts to parents, teachers, school officials, 
and others regarding the potential dangers of Internet child 
predators and their ability to contact children through 
MySpace.com and other sites.
	In addition, the bill would require the FCC to establish an 
advisory board to review and report commercial sites and chat 
rooms that have been shown to allow sexual predators easy access 
to personal information of and contact with children.  Make no 
mistake, child predators are on the Internet and they are a growing 
problem.  Predators will look for any way to talk to children 
online, whether through sites like MySpace, instant messaging, or 
even online games.  The best defense against these people is to 
educate parents and children of the dangers that come along with 
the Internet and by limiting access to certain sites during the school 
day.
	And this is not all.  Congress and State legislatures must also 
act to dedicate funds to law enforcement programs designed to 
combat child predators.  Last month we fought for and in Congress 
we passed legislation to increase funding to the FBI's Internet 
Crimes Against Children Task Force and the Innocent Images 
National Initiative, which serves as a hub for all the FBI's child 
predator initiatives.
	Mr. Chairman, Congressman Ferguson, there is no silver bullet 
solution to the problem of online predators.  It will take the 
combined efforts of parents, children, law enforcement officials, 
and the legislature, Federal and State, to take action against these 
crimes.  Thank you, Mr. Chairman, for permitting me to address 
the committee and Congressman Ferguson, for permitting me to 
remark on my efforts to address this issue together with each of 
you and the United States Congress.
	[The prepared statement of Hon. Michael Fitzpatrick follows:]

PREPARED STATEMENT OF THE HON. MICHAEL FITZPATRICK, MEMBER, U.S. HOUSE OF 
REPRESENTATIVES

        Mr. Chairman,
        Thank you for inviting me to participate in today's hearing and 
for allowing me to give testimony on what I feel is a new and 
emerging problem confronting our nation's children and their 
safety while using the Internet.  I am speaking of the rapid increase 
in popularity of Internet social networking sites and their use by 
child predators to hunt and harass our children at home, in schools 
and in our libraries.  
        As the father of six children, I know very well the challenges 
technology poses to our families.  In a world that moves at a 
dizzying pace, being a father gets harder all the time.    Monitoring 
our children's use of emerging technologies is a huge task and the 
Internet remains the focus of many parent's concerns. 
        The technological breakthrough of the World Wide Web has 
been enormously beneficial to society.  The Internet has brought 
communities across the globe closer together through instant 
communication.  It has enabled an unfiltered free-flow of thought, 
ideas and opinion.  The Internet has opened a window to the world 
right at our fingertips.  However, this window opens both ways.  
The freedom to connect to the world anywhere at anytime brings 
with it the threat of unscrupulous predators and criminals who 
mask their activities with the anonymity the Internet provides to its 
users.  And among its many applications, one of the most worrying 
developments of late has been the growth in what are known as 
"social networking sites."  
        Social networking sites like Myspace, Friendster, and 
Facebook have literally exploded in popularity in just a few short 
years.  Myspace alone has almost 90 million users and ranks as the 
sixth most popular English language website and the eighth most 
popular site in the world.  
        Anyone can use these sites - companies and colleges, teachers 
and students, young and old all make use of networking sites to 
connect with people electronically to share pictures, information, 
course work, and common interests.  These sites have torn down 
the geographical divide that once prevented long distance social 
relationships from forming, allowing instant communication and 
connections to take place and a virtual second life to take hold for 
its users.  
        For adults, these sites are fairly benign.  For children, they 
open the door to many dangers including online bullying and 
exposure to child predators that have turned the Internet into their 
own virtual hunting ground.  I became personally aware of the 
danger the Internet can pose after my 16 year old daughter began 
using the social networking site Myspace.com.  I quickly realized 
that while my daughter thought she was only chatting with her 
friends, other people, some with criminal intent, could be looking 
in.
        Although age limits exist on many of these sites, there is 
almost no enforcement of these rules.  Frequently, children under 
the age of 16 - the cut off age for a profile on Myspace - simply 
lie about their age and fake being 16, 18 or even older.  Predators 
also use this anonymity to their advantage by profiling themselves 
as teenagers to more easily identify and navigate the profiles of 
their prey.  
        The dangers our children are exposed to by these sites is clear 
and compelling.  According to a study conducted by the National 
Center for Missing and Exploited Children (NCMEC), in 1998 
there were 3,267 tips reporting child pornography.  Since then, the 
number has risen by over 3,000 percent to an astounding 106,119 
tips in 2004. The Department of Justice recognizes child 
pornography as a precursor for pedophiles and is often linked to 
online predators.  According to Attorney General Gonzales, one in 
five children has been approached sexually on the internet. One in 
five.  Worse still, a survey conducted by the Crimes Against 
Children Research Center found that less than one in four children 
told their parents about the sexual solicitation they received. 
Myspace, which is self regulated, has removed an estimated 
200,000 objectionable profiles since it began operating in 2003.  
And while it is difficult to predict the exact number of total 
predators on the Internet at any one time, the Federal Bureau of 
Investigation (FBI) estimates that there are more than 2,400 active 
child sexual exploitation investigations under way at any given 
time.
        This problem is finally gaining the public's attention.  Look 
closely at local and national news stories and you will undoubtedly 
see a story of a crime linked to social networking sites.  Recently, 
national news reports have focused on the case of Katherine R. 
Lester, a 16 year old Michigan honors student who fled to Israel 
with hopes of meeting a 25 year old man she met on Myspace.  
Two months ago, in my own congressional district, a 25 year old 
man, Shawn Little, was arrested for posing as a teenager online to 
solicit a 14 year old boy.  Little's communications with the child 
resulted in a sexual encounter.  And NBC's Dateline program has 
brought the threat of online predators to the televisions of millions 
of Americans through their acclaimed, but disturbing, "To Catch a 
Predator" series.  While these high-profile cases make a splash on 
the headlines, how many other, less publicized cases of child 
exploitation go unnoticed?
        While these stories have pressured many social networking 
sites to take action to improve their safety protocols, like Myspace 
recently has done, these changes fall short of real reform. That is 
why I introduced the Deleting Online Predators Act.  
        Parents have the ability to screen their children's Internet 
access at home.  But this protection ends when their child leaves 
for school or the library.  My legislation would require schools and 
libraries to monitor the internet activities of minors and implement 
technology to protect children from accessing: 
        1. Commercial networking sites like MySpace.com and chat 
rooms which allow children to be preyed upon by 
individuals seeking to do harm to our children; and 
        2. Visual depictions that are obscene or child pornography.

        Preventing access to social networking sites in these situations 
is not designed to underestimate the importance of parental 
supervision. Internet safety begins at home and that is why my 
legislation would require the Federal Trade Commission to design 
and publish a unique website to serve as a clearinghouse and 
resource for parents, teachers and children for information on the 
dangers of surfing the Internet.  The website would include 
detailed information about commercial networking sites.  The FTC 
would also be responsible for issuing consumer alerts to parents, 
teachers, school officials and others regarding the potential dangers 
of internet child predators and their ability to contact children 
through MySpace.com and other social networking sites. 
        In addition, my Bill would require the Federal 
Communications Commission to establish an advisory board to 
review and report commercial social networking sites like 
MySpace.com and chat rooms that have been shown to allow 
sexual predators easy access to personal information of, and 
contact with, children. 
        Make no mistake; child predation on the Internet is a growing 
problem.  Predators will look for any way to talk to children online 
whether through sites like Myspace, instant messaging, or even 
online games.  The best defense against these people is to educate 
parents and children of the dangers that come along with the 
Internet and by limiting access to certain sites during the school 
day.  
        This is not all.  Congress and state legislatures must also act to 
dedicate funds to law enforcement programs designed to combat 
child predators.  Last month, I actively fought for and Congress 
passed legislation to increase funding to the FBI's Internet Crimes 
Against Children Task Forces and the Innocent Images National 
Initiative, which serves as the hub for all of the FBI's child 
predator initiatives.  Supporting these programs will send a clear 
signal to child predators and pedophiles that the hunters have 
become the hunted and law enforcement will not relent until these 
criminals are apprehended.   
        There is no "silver bullet" solution to the problem of online 
predators.  It will take the combined effort of parents, children, law 
enforcement and the legislature to take action against these crimes. 
Thank you, Mr. Chairman, for inviting me to address this 
committee and remark on my efforts to address this important 
issue.  
        I yield back the balance of my time.    

	MR. WHITFIELD.  Congressman Fitzpatrick, thank you for your 
testimony and for your leadership.  Speaking of MySpace, with 85 
to 90 million registrants on that program, I guess, Rupert Murdoch 
purchased MySpace about 6 months ago for $568 million and I 
know they are expecting some great advertising revenues, but I am 
glad you brought up this whole issue of social networking.  I look 
forward to seeing what the law enforcement people say about it, 
but we do know that a lot of crimes have been committed because 
of information obtained through the social networking sites.  And 
as you very correctly pointed out, there is no way to determine the 
age of a person that may be on that site and there is no way that 
can be verified.
	But on your legislation that has been introduced, which 
committee is that?  Has that been referred to Energy and 
Commerce?
	MR. FITZPATRICK.  It has been referred to the Energy and 
Commerce Committee and there is actually a hearing scheduled 
tomorrow morning for the Subcommittee on Telecommunications 
and the Internet.
	MR. WHITFIELD.  Okay.  Okay, good.  And under your 
legislation, what are the responsibilities that would be placed upon 
the libraries and the schools, so I can have a little bit better 
understanding of it?
	MR. FITZPATRICK.  In 2000 a law was passed by Congress and 
signed by President Clinton.  I believe it is called the Children's 
Internet Protection Act.  And the Children's Internet Protection Act 
required schools and libraries that are recipients of Federal funds 
for those institutions, to implement screening technology, software 
that would prohibit children from, while in school and in the 
library, accessing pornography sites.  And so those schools and 
institutions, probably most of them in this district here, the 7th 
District of New Jersey, already have that technology, that software 
in place.
	What this bill would do is require those institutions to expand 
the existing software, use that existing software and expand, sort 
of, the net to prohibit children from accessing social networking 
sites in these virtual chat rooms while in school or in the library, 
and so the technology is there.  The social networking sites are a 
recent phenomenon, just exploding in terms of the number of 
users.
	If you walk down the streets of this district, I am sure you 
would have a difficult time finding a teenager that doesn't have a 
profile registered and as I have spoken to parents and spoken to 
teachers in my district, they are as aggravated as anybody else that 
kids go into the computer lab, they are working on a project; they 
know how to access one of these networking sites or an instant 
messaging system and they are talking to friends in other schools, 
in other communities, in other States while they are in school.  And 
so the technology is there.  But essentially to answer your question, 
what the bill would do is take the existing technology, expand it to 
preclude access to social networking sites like MySpace while kids 
are in school.
	MR. WHITFIELD.  And what would be the enforcement 
mechanism in the bill or is there one?
	MR. FITZPATRICK.  Well, first, it was a question of what a 
social networking site is, so the bill lays out what a social 
networking site is and the requirement really is on the school and 
the library to issue a certification to the Federal government as a 
condition to proceed in receiving any Federal funds.  And so the 
mechanism would be the same as what currently exists under the 
Child Internet Protection Act.
	MR. WHITFIELD.  Well, thank you, Congressman Fitzpatrick, 
and I recognize Mr. Ferguson.
	MR. FERGUSON.  Thank you, Mr. Chairman.  Thanks again for 
being here and I appreciate you making the long trek across the 
river to join us here in New Jersey.  And I also appreciate your 
leadership on this issue.  I know your concern and passion for this 
issue extends beyond your experience as a Member of Congress; it 
is as a father, as you said, and it is a concern that many of us share.
	Your bill is focused on schools and libraries and we know, any 
of us who are parents know it is tough enough to manage or be 
aware of your kids' Internet use when they are at home.  But of 
course, much of that control, much of that oversight kind of goes 
out the window when your kids are not in your own home.  If they 
are at school or if they are at the library or at a friend's house--
what, as you worked your bill and developed your bill, do we have 
any sort of statistics or evidence of how much of a problem this is 
in schools and libraries?
	I mean, certainly we know, anecdotally, any parent will tell 
you their level of concern goes up when their child is not right 
there with them in their home.  Parents have a lot of control in their 
own homes, but less, a lot less outside of their own home.  Do we 
have a lot of evidence or is it mostly, is it just a sense?  Is this just 
a, really a proactive measure to take?
	MR. FITZPATRICK.  Much of the evidence is anecdotal.  First of 
all, as you point out, in the home, it is difficult enough.  I mean, as 
a parent--we have one computer in our home that is hooked up to 
the Internet and it is in plain view and it kind of perplexes me and I 
saw a story on NBC recently with a mother shocked that her 
daughter was on MySpace and the content of what was on 
MySpace and the report was from the daughter's bedroom, so the 
computer was in the child's bedroom, the child goes to the 
bedroom, locks the door, and that is where the problem begins.  
But, as I testified, for purposes of my bill, it is the issue of the 
parents' oversight over the child while the child is at home.
	But the evidence is essentially anecdotal.  It is stories that we 
have received, it is the criminal investigations, the affidavits and 
probable cause that further our public record and it is a growing 
body of evidence that, both from law enforcement but also from 
school officials, the children who used to have inappropriate 
material accessed at school, that is not precluded on the Children's 
Internet Protection Act, who now have access to social networking 
sites while at school and in the library.
	MR. FERGUSON.  Well, I serve on the Telecommunications and 
Internet Subcommittee of this committee.
	MR. FITZPATRICK.  You will be there tomorrow.
	MR. FERGUSON.  We will be having a hearing on your bill 
tomorrow and I look forward to learning more about it and asking 
further questions at that time.  Thank you, Mr. Chairman.
	MR. FITZPATRICK.  Thanks for your support, Congressman, 
appreciate it.
	MR. WHITFIELD.  And I am also on that Telecommunications 
subcommittee, so we look forward to hearing more about it 
tomorrow, as well.
	MR. FITZPATRICK.  Okay.  Thank you.
	MR. WHITFIELD.  Thank you for being with us.
	MR. FITZPATRICK.  Thanks for the chance, Chairman.  I 
appreciate it.
	MR. WHITFIELD.  At this time, I would like to call up the third 
panel which includes Mr. Frank Rodgers, who is the Lieutenant 
Colonel with the New Jersey State Police; Mr. Wayne Forrest, who 
is the Somerset County Prosecutor, Somerville, New Jersey; Mr. 
Anthony Ritter, who is a lieutenant with the New Jersey State 
Police Division Headquarters; and Mr. Andre Banks, who is a 
sergeant, Office of the Prosecutor for Union County in Elizabeth, 
New Jersey.  I certainly do thank you gentlemen involved in law 
enforcement for being with us because you are the fellows out 
there on the front line and are the ones that can be most helpful to 
us who are trying to adopt policy in making sure we maximize our 
opportunity to come up with the right solutions.  We recognize, 
also, that sometimes we interfere with the right solution, so 
hopefully you can lead us in the right direction, but as you have 
already heard, we do take testimony under oath and I am assuming 
none of you gentlemen have any difficulty testifying under oath, so 
if you would stand, I would just like to swear you in.
	[Witnesses sworn.]
	MR. WHITFIELD.  Thank you very much.  You are now under 
oath and Mr. Rodgers, we will recognize you for your 5-minute 
opening statement.

STATEMENTS OF FRANK RODGERS, LIEUTENANT COLONEL, NEW JERSEY STATE POLICE; 
WAYNE FORREST, ESQUIRE, SOMERSET COUNTY PROSECUTOR; ANTHONY RITTER, 
LIEUTENANT, NEW JERSEY STATE POLICE; ANDRE BANKS, SERGEANT, OFFICE OF THE 
PROSECUTOR, UNION COUNTY, NEW JERSEY

        MR. RODGERS.  Good morning, Mr. Chairman, Mr. Ferguson 
and members of the subcommittee.  I am Lieutenant Colonel Frank 
Rodgers, the Deputy Superintendent of Investigations for the New 
Jersey State Police.  I appreciate the opportunity to discuss with 
you how the State of New Jersey is combating predators on the 
Internet.
	I have been a member of the New Jersey State Police for 25 
years and involved in criminal investigations for 21 of those years.  
Never in my career have I seen criminal activities as far reaching 
or rapid in growth as Internet related crimes.  Never have I 
witnessed crimes so egregious and so prevalent as those being 
committed against the youth of New Jersey and all across America 
right in their own homes.
	As the Deputy Superintendent of the Investigations Branch, I 
am privileged to command 800 fine men and women assigned to 
the Intelligence Section, the Special Investigations Section, and the 
Office of Forensic Science.  As the commander of this Branch, 
under the leadership of Colonel Rick Fuentes, the Superintendent 
of the New Jersey State Police, we are reshaping how law 
enforcement does business in the State of New Jersey.
	Last year the New Jersey State Police operationalized an 
intelligence Led policing strategy.  In doing so, we adopted the 
processes intrinsic to that strategy; most importantly, intelligence 
sharing.  At present, we have deployed our Statewide Intelligence 
Management System, which is known as SIMS, to 300 of the 
State's 600 police departments, including the FBI.  We are 
currently working with our law enforcement allies to network this 
system to others around the State and region to fill in the holes.  
We have also initiated a full-time all crimes, all hazards 
intelligence fusion center at our headquarters in West Trenton.
	 That center will expand dramatically in September, when we 
open with our many allied law enforcement, intelligence, and other 
public safety partners, what will be the largest and most 
sophisticated intelligence fusion center in the country.  The 55,000 
square foot Regional Operations and Intelligence Center, known as 
the ROIC, embodies our commitment to the fundamental 
recommendations of both the 9/11 Commission and the National 
Intelligence Sharing Plan, unity of effort and true intelligence 
sharing.
	The New Jersey State Police has been fighting Internet 
predators for 10 years.  We are proud to work with our many 
partners on these critical investigations.  To give you an idea of our 
commitment over the last 10 years, our team has averaged over 
100 Internet related child exploitation investigations each year and 
has averaged 45 arrests a year for the victimization of children 
over the Internet.
	We are proud and honored to be selected as the primary agency 
in New Jersey to lead the New Jersey Internet Crimes Against 
Children Task Force, known as ICAC.  We have concentrated our 
mission into three main areas; training, outreach, and enforcement.  
We currently have 20 cyber investigators on our task force, 10 of 
which hunt Internet predators full time.  Thanks to ICAC funding, 
we have been able to send these individuals to 120 training events 
over the last 18 months; technical training that is key to doing the 
job.  This never would have been possible without ICAC funding.
	Over the last 18 months we have conducted 310 presentations 
to over 30,000 students, teachers, parents, and law enforcement 
officials from across this State.  We are currently working to 
expand cooperation and information sharing through the New 
Jersey Department of Education, the New Jersey Education 
Association, the New Jersey Parent Teacher Association, and the 
New Jersey Association for Educational Technology.  Educating 
the children must come from all fronts and it must come loud and 
often.
	Finally, I would like to speak to you briefly about enforcement.  
These programs are working and we are making a difference.  
Could we do more?  Certainly.  And we ask your support in 
helping us get there.  However, from the many challenges that we 
face, we have accumulated many accomplishments.  Most recently, 
during the week of June 26, 2 weeks ago, members of the New 
Jersey Internet Crimes Against Children Task Force, in partnership 
with 20 other law enforcement agencies around the State, arrested 
seven individuals for the possession and distribution of child 
pornography over the Internet.
	The arrests were a result of a 3-month undercover investigation 
and they included an elementary school teacher, a medical intern 
about to begin his residency, and a resident of Bridgewater, New 
Jersey, right here in Somerset County.  The techniques used to 
capture these individuals were provided through ICAC training.
	On March 3 of this year, task force members, in conjunction 
with members of the FBI Innocent Images, arrested a 33-year old 
subject for sexually assaulting a 14-year old who he met through 
MySpace.com.  This subject traveled to Florida while the victim 
was there on vacation with her family, sexually assaulted her, and 
then returned with her to New Jersey, knocked on the front door of 
the residence where the young lady lived and professed his love to 
the parents at the door.
	This time last year, over a 9-day period, as a result of an 
investigation which we dubbed Operation Guardian, following up 
on leads provided to us by the Wyoming ICAC, the New Jersey 
ICAC Task Force members arrested 39 individuals for possession 
and distribution of child pornography over the Internet.  Included 
in these arrests were a defense attorney, a high school teacher, and 
a pediatric neurosurgeon.
	Finally, going back a couple years, through the results of 
information provided to us by the Dallas ICAC in conjunction with 
the FBI and a matter prosecuted by Mr. Christie's office, a former 
Superior Court judge from Camden County was charged with 
endangering the welfare of a child after we executed a search 
warrant on two of his homes and his office.  Following up on this 
ICAC evidence, during the searches we uncovered a videotape 
depicting this judge engaged in sexual activity with a 10-year old 
Russian juvenile.  The subject is currently incarcerated in a Federal 
prison.
	As you can imagine, I could go on and on with regard to these 
cases.  Our experience shows us these child predators will continue 
to prey upon the most innocent and vulnerable members of our 
society, our children.  We ask your continued support for our 
mission and we assure you that we remain committed to the 
children of New Jersey by arresting those individuals who are 
prowling the Internet every day for a new victim.  Thank you.
	[The prepared statement of Frank Rodgers follows:]

PREPARED STATEMENT OF FRANK RODGERS, LIEUTENANT COLONEL, NEW JERSEY STATE 
POLICE

1. Introduction
        a. 25 years law enforcement experience, 21 years in criminal 
investigations
	b. Commander of 800 fine men and women

2. New Direction
	a. Leading a Branch reorganization based on intelligence led 
policing
	b. Deployed a statewide intelligence management system
	c. Initiated a full time, all crimes intelligence fusion center

3. Resource Sharing
	a. Must be inclusive of all local, county, state and federal law 
enforcement partners
	
4. New Jersey Internet Crimes Against Children (ICAC) Task 
Force
	a. Training
	   1) 20 cyber investigators on task force
	   2) Investigators have attended 120 training events in the 
last 18 months
	b. Outreach
  	   1) 310 presentations have been given in the last 18 months
	   2) Expanding capabilities with education partners
	c. Enforcement
	   1) List of five case histories

5. Conclusion
	a. Successful track record in task force leadership
	b. Continued commitment to the ICAC mission


        Good morning Mr. Chairman, Ranking Member Stupak and 
members of the Subcommittee, I am Lieutenant Colonel Frank 
Rodgers, Deputy Superintendent of the Investigations Branch of 
the New Jersey State Police.  I appreciate the opportunity to 
discuss with you how the State of New Jersey is Combating 
Predators on the Internet.

I. Introduction
	I have been a member of the New Jersey State Police for the 
last 25 years and have been involved in criminal investigations for 
21 of those 25 years.  Never in my career have I seen criminal 
activities as far reaching or rapid in growth as Internet related 
crimes.  Never have I witnessed crimes so egregious and so 
prevalent as those being committed against the youth of New 
Jersey and youth all across America right in their own homes.
	As Deputy Superintendent of the Investigations Branch, I am 
privileged to command the 800 fine men and women of the 
Intelligence Section, the Special Investigations Section and the 
Office of Forensic Science of the New Jersey State Police.  As 
commander of this Branch, under the leadership of Colonel Rick 
Fuentes, Superintendent of the New Jersey State Police and with 
oversight and endorsements from both our Attorney General 
Zulima Farber and Governor Jon Corzine, we are reshaping how 
law enforcement does business in the State of New Jersey.

II. A New Direction
	Last year the New Jersey State Police operationalized an 
Intelligence Led Policing strategy.  In doing so we adopted the 
processes intrinsic to that strategy, most importantly, intelligence 
sharing.  At present we have deployed our Statewide Intelligence 
Management System (SIMS) to 300 of the state's 600 police 
departments, including the FBI. We are currently working with our 
law enforcement allies to network this system to others around the 
state and region to fill in the holes. We have also initiated a full 
time all crimes all hazards intelligence fusion center at our 
headquarters in West Trenton. That center will expand 
dramatically in September when we open with our many allied law 
enforcement, intelligence and other public safety partners, what 
will be the largest and most sophisticated intelligence fusion center 
in the country. The 55 thousand square foot Regional Operations 
and Intelligence Center known as the ROIC embodies our 
commitment to the fundamental recommendations of both the 911 
commission and the National Intelligence Sharing Plan, unity of 
effort and true intelligence sharing.

III. Resource Sharing
	We have all heard the phrases "surfing the Internet" or "surfing 
the web" and I must admit it gives one the connotation of fun, 
freedom, adventure and excitement.  Who wouldn't want to "surf 
the net"?  We all do it and we all enjoy it.  Yet as we are all too 
well aware, at least those of us in this room, there are sharks in the 
water and riptides waiting to pull our children out to sea.  We are 
committed to protecting our children from the dangers of the 
Internet and we have been very successful thus far.  But like 
everyone else who takes the oath to protect and serve, we cannot 
do it alone, this is bigger than any one agency, any one state.  We 
are a team made up of local, county, state and federal partners and 
we ask for your continued support.
	The New Jersey State Police has been fighting Internet 
predators for the last ten years.  We are a multi-faceted 
organization with a strong reputation, intense work ethic and 
unwavering integrity.  We are proud to work with our many 
partners on these critical investigations.  To give you an idea of our 
commitment over the last ten years, our team has averaged 100 
Internet related investigations a year and we average 45 arrests per 
year for the victimization of children through the Internet. 

IV. New Jersey Internet Crimes Against Children (ICAC) Task 
Force
	We are proud and honored to be selected as the primary agency 
in New Jersey to run the New Jersey Internet Crimes Against 
Children Task Force (ICAC).  We have concentrated our mission 
into three main areas: training, outreach and enforcement.  

        A. Training
	We currently have 20 cyber investigators on our task force, 10 
of which hunt Internet predators full time.  Thanks to ICAC 
funding, we have be able to send these individuals to 120 training 
events over the last 18 months, technical training that is key to 
doing the job.  This would never have been possible without ICAC 
funding.
        B. Outreach
	Over the last 18 months we have conducted 310 presentations 
to over 30,000 students, teachers, parents and law enforcement 
officials across the State.  We are currently working to expand 
cooperation and information sharing through the New Jersey 
Department of Education, the New Jersey Education Association, 
the New Jersey Parent Teacher Association and the New Jersey 
Association for Educational Technology.  Educating the children 
must come from all fronts and it must come loud and often.
        C. Enforcement
	Finally, I would like to speak to you about enforcement.  These 
programs are working, we are making a difference.  Can we do 
more?  Yes of course, and we ask for your support in getting us 
there.  However, through all the challenges and horrors that we 
face, we have made bold accomplishments.
	Case # 06-06
	During the week of June 26, 2006, members of the New Jersey 
Internet Crimes Against Children Task Force in partnership with 
20 other law enforcement agencies throughout the State, arrested 
seven individuals for the possession and distribution of child 
pornography over the Internet.  The arrests were as a result of a 
three month undercover investigation and included an elementary 
school teacher, a medical intern about to begin his residency, an 
enlisted member of the United States Coast Guard and a resident of 
Bridgewater, New Jersey right here Somerset County.  The 
techniques used to capture these individuals were provided through 
ICAC training.
	Case # 06-24
	On March 3, 2006, task force members in conjunction with 
members from FBI Innocent Images arrested a 33 year old man for 
sexually assaulting a 14 year old girl whom he had met through 
myspace.com.  He traveled to Florida while she was there on 
vacation with her family, sexually assaulted her in Florida and then 
traveled to New Jersey after they returned home, knocked on their 
front door in order to meet her parents and professed his love for 
their daughter.
	Case #04-39
	Over a nine day period in January, 2005 and as a result of leads 
from the Wyoming ICAC, the New Jersey ICAC task force 
arrested 39 individuals for possession and distribution of child 
pornography over the Internet.  Arrests included a defense 
attorney, a high school teacher and a pediatric neurosurgeon.
	Case # 03-08
	In August 2003, as a result of leads from the Dallas ICAC and 
in conjunction with the FBI and the United States Attorney's 
Office, a former Camden County Superior Court Judge was 
federally charged with Endangering the Welfare of a Child as a 
result of the execution of search warrants on his two homes and 
office.  During the searches, detectives uncovered a video tape 
recording of the judge having sex with a Russian male juvenile.  
He is currently serving a ten year term in federal prison.

V. Conclusion
	As you can imagine these stories go on and on.  Our experience 
shows us that these child predators will continue prey upon the 
most innocent and vulnerable members of our society.  We ask that 
you continue to support our mission, as we remain committed to 
the children of New Jersey by identifying and arresting those who 
are prowling the Internet everyday for a new victim.

	MR. WHITFIELD.  Thank you, Mr. Rodgers.  And Mr. Ritter, 
you are recognized for your 5-minute opening statement.
MR. RITTER.  Good morning, Mr. Chairman, Congressman 
Ferguson.  I am Lieutenant Anthony Ritter, Assistant Bureau Chief 
of the Computer Crimes and High Technology Surveillance 
Bureau within the Special Investigations Section of the New Jersey 
State Police.  I appreciate the opportunity to discuss with you our 
issues regarding combating predators on the Internet.  I have been 
a member of the New Jersey State Police for 22 years and have 
been involved in both technology and cyber investigations for the 
last 17 years.  The Computer Crimes and High Technology 
Surveillance Bureau coordinates the efforts of the New Jersey 
Internet Crimes Against Children Task Force.  I would like to 
address some of the challenges that face our task force and that of 
cyber law enforcement in general.
	First, data retention.  There has been much testimony before 
the committee on the subject of data retention by Internet service 
providers and I would like to address three major concerns brought 
forth by the ISPs, generally.  First, the ISPs are not clear who will 
be able to access records of someone's online behavior.  The law 
enforcement process begins with reasonable suspicion to develop 
required probable cause and operates under legal guidance and 
court orders.  I think unauthorized insider access to records is of 
graver concern to the ISPs.
	Second, the ISPs are not clear who would pay for the data 
warehousing of these additional records.  I think everyone will 
bear a part of that cost.  And third, ISPs say it is not clear that 
police are hindered by the current law as long as they move swiftly 
in the investigative process.  In this case, they may be partly 
correct.  There needs to be a consistent, measured approach to data 
retention and an increase in the speed of the investigative process.  
We both must work more efficiently.
	Although we are pleased to see the ISPs moving forward 
voluntarily to address our concerns where they can, we seek to 
have a standard established for the retention of data by ISPs.  All 
ISPs should be required to have the capability of isolating targeted 
traffic and upon the receipt of a court order, deliver that content to 
a law enforcement monitoring facility in a standardized manner.  
This capability needs to extend to all methods of communication 
services supported by this industry.
	Quality of service.  Quality of service is an industry-recognized 
term that is important to a business's ability to maintain and 
increase its customer base.  In our case, law enforcement is the 
customer and poor customer service equates to a delayed law 
enforcement action.  These delays can result in an inability to 
continue investigative leads in a timely manner.  Our goal here is 
to institute industry-wide standards to ensure the efficient and 
timely return of the information sought by law enforcement.
	Cost.  There is an explosion in technology and it is the 
convergence of telephony networks and data networks on portable 
data assistants, known as PDAs, cell phones, and other wireless 
devices.  Current costs for intercepting conventional wireless 
devices can reach as much as $2,600 per intercept order.  Our fear 
is that the cost associated with IP intercept will exceed the cost of 
conventional intercept and will price many law enforcement 
agencies out of this investigative crime fighting tool.
	Personnel.  The need for skilled investigators is as critical as 
data retention.  Without the data we cannot investigate; without the 
detective, we cannot investigate.  In New Jersey's Peer-to-Peer 
initiative, we have over 83,000 leads.  As Lieutenant Colonel 
Rodgers stated, we have 10 full-time detectives with half working 
proactively.  The other half are working reactively on referrals and 
direct complaints.  And what about being proactive in the other 
areas of the Internet?  Most people only know of browsing the 
Web, but there are many other ways of communicating across the 
Internet and each one could keep a whole squad of detectives busy 
24 hours a day.
	Tools.  Additional research and development needs to be 
conducted by law enforcement, technology corporations, and 
institutions of higher learning to close the large gaps impeding our 
ability to fight technology crime against Internet predators.  We 
need to collect technical data and present it in an easy to view 
graphical format.  We need to automate the process of locating 
network log files regardless of an operating system.  We need to 
overcome the obstacles of anonymizers, IP spoofing, encrypted 
data, and steganography.  We need to forensically capture a 
computer's Random Access Memory or RAM without 
modification or alteration.
	We need to provide real time IP intercept on data networks in a 
standardized format with the ability to isolate the target and 
capture the communication inclusive of all activities, such as 
instant messaging, voice over IP phone calls, webcams, e-mail, and 
Web browsing.  We need to facilitate an automated and 
standardized stored data handover interface for the return of 
historical records requested by subpoena or court order.  And we 
need to develop tools to locate the physical position of devices 
connected to wireless networks.
	Solutions.  There have been many suggestions by the men and 
women fighting Internet crimes against children in New Jersey and 
ways to improve and streamline our mission.  Here are some of 
their thoughts.  Increase ISP record retention to not less than 2 
years to include, but not be limited to, subscriber information, 
method of payment, types of devices connected and all in and out 
IP logging records.
	Mandate that out-of-state subpoenas and warrants be 
recognized as valid legal documents.  Create a website rating 
system much like the one used by the motion picture industry so 
parents can more easily block content.  Sponsor a national Internet 
safety campaign through television and movie theaters.  Evaluate 
the Counterdrug Technology Assessment Center's, CTAC, 
technology transfer program and model a similar program to 
support agencies combating Internet predators.
	Recognize the FCC's Second Report and Order and 
Memorandum Opinion and Order that addresses several issues 
regarding the implementation of the Communications Assistance 
for Law Enforcement Act, CALEA, enacted in 1994.  The primary 
goal of the order is to ensure that law enforcement agencies have 
all the resources that CALEA authorizes, particularly with regard 
to facilities-based broadband Internet service providers and 
interconnected voice over Internet protocol or VOIP providers.  
Although the VOIP issue has now been addressed, other packet-
based services such as instant messaging, picture messaging, and a 
host of other Internet-based communication services have been 
excluded from CALEA standards.  This needs to be corrected.
	Endorse and support and promote the expansion and 
implementation of Internet Protocol version 6 (IPv6), which will 
allow ISPs the ability to give every Internet accessible device its 
own unique static IP address and eliminate the nightmare of 
dynamic IP addressing issues.  The United States government has 
specified that network backbones of all Federal agencies must 
deploy IPv6 by the year 2008.
	With the proper resources, States can and will do much more to 
continue the fight against Internet predators.  We remain 
committed to maintaining existing operations without 
minimization and are honored to be a partner in the fight against 
Internet child victimization.
	[The prepared statement of Anthony Ritter follows:]

PREPARED STATEMENT OF ANTHONY RITTER, LIEUTENANT, NEW 
JERSEY STATE POLICE

1. Introduction
	a. 22 years law enforcement experience
	b. Oversees operation of the New Jersey Internet Crimes 
Against Children Task Force

2. Challenges
	a. Data Retention
	   1) Need to establish standards for data retention
	   2) Should apply to all methods of communication services
	b. Quality of Service
	   1) Need for industry wide standards for return of 
                information to law enforcement
	c. Costs
	   1) Costs for intercept of data may prove prohibitive
	d. Personnel
	   1) There is a serious lack of skilled investigators
	e. Tools
	   1) Development of additional investigative technology 
                tools is needed

3. Solutions
	1) Increase ISP record retention without limitations
	2) Recognition of out-of-state subpoenas and warrants
	3) Institute a website rating system
	4) Sponsor a national Internet Safety campaign
	5) Empower technology transfer programs to provide needed 
                tools
	6) Expand CALEA to fully support all IP based 
                communication services
	7) Support rapid deployment of IPv6


        Good morning Mr. Chairman, Ranking Member Stupak and 
members of the Subcommittee, I am Lieutenant Anthony Ritter, 
Assistant Bureau Chief of the Computer Crimes and High 
Technology Surveillance Bureau within the Special Investigations 
Section of the New Jersey State Police.  I appreciate the 
opportunity to discuss with you our issues regarding combating 
predators on the Internet.

I. Introduction
	I have been a member of the New Jersey State Police for 22 
years and have been involved in both technology and cyber 
investigations for the last 17 years.  The Computer Crimes and 
High Technology Surveillance Bureau which coordinates the 
efforts of the New Jersey Internet Crimes Against Children (ICAC) 
Task Force.  

II. Challenges
	I would like to address some of the challenges that face our 
task force and that of cyber law enforcement in general.
        A. Data Retention
	There has been much testimony before the committee on the 
subject of data retention by Internet Service Providers (ISPs) and I 
would like to address the three major concerns brought forth by 
ISPs generally.  First, the ISPs are not clear who will be able to 
access records of someone's online behavior.  The law 
enforcement process begins with reasonable suspicion to develop 
required probable cause and operates under legal guidance and 
court orders.  I think unauthorized insider access to records is of 
graver concern to the ISPs.  Second, the ISPs are not clear who 
would pay for the data warehousing of these additional records.  I 
think everyone will bear part of the cost.  And third, ISPs say it is 
not clear that police are hindered by current law as long as they 
move swiftly in the investigative process.  In this case, they may be 
partly correct.  There needs to be a consistent, measured approach 
to data retention and an increase in the speed of the investigative 
process.  We both must work more efficiently.  Although we are 
pleased to see the ISPs moving forward, voluntarily, to address our 
concerns where they can, we seek to have a standard established 
for the retention of data by ISPs.   All ISPs should be required to 
have the capability of isolating targeted traffic and upon receipt of 
a court order, deliver that content to a law enforcement monitoring 
facility in a standardized manner.  This capability needs to extend 
to all methods of communication services supported by this 
industry.


        B. Quality of Service 
	Quality of service is an industry recognized term that is 
important to a business's ability to maintain and increase its 
customer base.  In our case, law enforcement is the customer and 
poor customer service equates to a delayed law enforcement 
action.  These delays can result in an inability to continue 
investigative leads in a timely manner.  Our goal here is to institute 
industry wide standards to ensure the efficient and timely return of 
the information sought by law enforcement.
        C. Costs
	There is an explosion in technology and it is the convergence 
of telephony networks and data networks on portable data 
assistants (PDA), cell phones and other wireless devices.  Current 
costs for intercepting conventional wireless devices can reach as 
much as $2600 per intercept order.  Our fear is that the costs 
associated with IP intercept will exceed the costs of conventional 
intercepts and will price many law enforcement agencies out of 
this investigative crime fighting tool.
        D. Personnel
	The need for skilled investigators is as critical as data retention.  
Without the data we cannot investigate, without the detective we 
cannot investigate.  In New Jersey's Peer-to Peer (P2P) initiative 
we have over 83,000 leads and as LTC Rodgers stated, we have 10 
full time detectives with half working proactively.  The other half 
are working reactively on referrals and direct complaints.  And 
what about being proactive in other areas of the Internet?  Most 
people only know of browsing the web, but there are many other 
ways of communicating across the Internet and each one could 
keep a whole squad of detectives busy 24 hours a day. 
        E. Tools
	Additional research and development needs to be conducted by 
law enforcement, technology corporations, and institutions of 
higher learning to close the large gaps impeding our ability to fight 
technology crime against Internet predators.  We need to:
	- collect technical data and present it in an easy to view 
                graphical format.
	- automate the process of locating network log files 
                regardless of operating system.
        - overcome the obstacles of anonymizers, IP spoofing, 
                encrypted data and steganography.
	- forensically capture a computer's Random Access Memory 
                (RAM) without modification or alteration.
        - provide real time IP intercept on data networks in a 
                standardized format, with the ability to isolate the target 
                and capture the communication inclusive of all activities 
                such as instant messaging, voice over IP phone calls, web 
                cams, emails and web browsing.
        - facilitate an automated and standardized stored data 
                handover interface for the return of historical records 
                requested by subpoena or court order.
        - develop tools to locate the physical position of devices 
                connected to wireless networds.

III. Solutions										
	There have been many suggestions from the men and women 
fighting Internet Crimes Against Children in New Jersey on ways 
to improve and streamline our mission.  Here are some of their 
thoughts:
        A. Increase ISP record retention to not less than two years to 
include, but not be limited to, subscriber information, 
method of payment, types of devices connected and all in 
and out IP logging records.
        B. Mandate that out-of-state subpoenas and warrants be 
recognized as valid legal documents.
        C. Create a website rating system much like the one used by 
the motion picture industry so that parents can more easily 
block content.
        D. Sponsor a national Internet Safety campaign through 
television and movie theaters.
        E. Evaluate the Counterdrug Technology Assessment Center's 
(CTAC) technology transfer program and model a similar 
program to support agencies combating Internet predators.
        F. Recognize the FCC's Second Report and Order and 
Memorandum Opinion and Order that addresses several 
issues regarding implementation of the Communications 
Assistance for Law Enforcement Act (CALEA), enacted in 
1994. The primary goal of the Order is to ensure that Law 
Enforcement Agencies have all of the resources that 
CALEA authorizes, particularly with regard to facilities-
based broadband Internet Service Providers and 
interconnected voice over Internet Protocol (VOIP) 
providers.  Although the VOIP issue has now been 
addressed, other packet based services such as instant 
messaging, picture messaging and a host of other Internet 
based communication services have been excluded from 
CALEA standards.  This needs to be corrected.
        G. Endorse, support and promote the expansion and 
implementation of Internet Protocol version 6 (IPv6) which 
will allow ISPs the ability to give every internet accessible 
device its own unique static IP address and eliminate the 
nightmare of dynamic IP addressing issues.  The United 
States Government has specified that the network 
backbones of all federal agencies must deploy IPv6 by 
2008.

IV. Conclusion
	With the proper resources, states can and will do much more to 
continue the fight against Internet predators.  We remain 
committed to maintaining existing operations without 
minimization and are honored to be a partner in the fight against 
Internet child victimization.

	MR. WHITFIELD.  Thank you, Mr. Ritter.  At this time, Mr. 
Forrest, you are recognized for 5 minutes.
	MR. FORREST.  Thank you, Mr. Chairman, Congressman 
Ferguson.  Good morning.  My name is Wayne Forrest.  I am the 
prosecutor here in Somerset County.  New Jersey has 21 counties, 
21 county prosecutors.  I have been serving as our county 
prosecutor for the past 9 years.  Prior to that I worked in the 
Attorney General's office and in total I have over 30 years in law 
enforcement.  In addition to that, I am an adjunct professor here at 
this college where I have been teaching for the past 15 years and 
along with a colleague of mine, Prosecutor Barnes from Hunterdon 
County, we moved our regional police academy to this institution, 
as well.  So we welcome you here and if you have more time, we 
will give you a tour of our police academy before the end of the 
day.
	Like the rest of the country, over the past 10 years we in 
Somerset County have also experienced a dramatic increase in 
cases involving sexual exploitation of children.  Our experience 
shows that this increase is due large in part to the proliferation of 
the Internet.  In Somerset County in particular, I believe we have 
had extensive experience with this problem because Somerset 
County is such an affluent county.  In fact, in the year 2000 U.S. 
census ranked Somerset County as the number one county in the 
country in median household income at $88,957.
	As a wealthy county, computers are everywhere in Somerset 
County.  All Somerset County children have access to the Internet, 
either at home, at school, at the library, at a friend's house.  And in 
addition, Somerset County children also have more privacy and 
autonomy due to the factors such as both parents being employed 
outside the home, larger homes with individual bedrooms for each 
child and frequently, a personal computer with Internet access in 
the bedrooms.  Under these circumstances, the sexual exploitation 
of children over the Internet is of particular concern to us in 
Somerset County.
	As an aside, when I came up to Somerset County from Trenton 
to become the prosecutor in 1997, I met with the then U.S. 
Attorney who introduced me, for the first time, to the Federal 
initiative, Innocent Images, which is what we have heard talked 
about before.  As a parent, I was somewhat alarmed and 
immediately went back to the freeholders and said I feel the need 
to dedicate one of our detectives full time to this initiative.  It is 
hard for local prosecutors and local freeholders to understand that 
you have to send someone elsewhere and how that is going to 
benefit your county and the economic impact on that.
	We did that and I began learning, myself, as a parent, the 
dangers of the Internet and at the same time we sent detectives to 
the State Police initiative, which began back at the same time as 
the high tech crimes unit.  We had two detectives, for a period of 6 
or 7 years, outside of Somerset County learning, educating 
themselves, and at the same time making cases with those 
initiatives that came back to Somerset County.  When I first did 
that, a number of my colleagues who were prosecutors at the time, 
my freeholders who finance our office, said why Somerset 
County?  Why are you doing it?  Why not one of the bigger 
counties?  Why shouldn't they be doing it?  And the reason I gave 
them is what I just said, because in Somerset County, you come to 
my neighborhood, every house has computers on every floor.  Kids 
have personal computers, laptops; they are all over the place.  Far 
more prolific than in other counties.
	Having been in law enforcement now for over 30 years, I can 
tell you that 30 years ago there were far less cases involving the 
sexual exploitation of children.  At that time, pedophiles interested 
in sexual activity with children would have to leave the privacy 
and security of their own homes to physically trade child 
pornography with other likeminded individuals or lurk at the 
schoolyard fence and attempt to lure an actual child victim.  Now 
what we have seen is that through the Internet, pedophiles have 
access to millions of images, child pornography from all over the 
globe without even leaving their bedrooms.
	In addition, the prolonged viewing of unlimited and readily 
available child pornography leads to more and more pedophiles to 
take the next step and to attempt to meet and victimize an actual 
child.  Our experience in Somerset County, small, affluent 
Somerset County, has taught us that this type of criminal behavior 
is happening every day and generally falls into one of three main 
categories: one, cases involving actual child victims who are 
sexually assaulted; two, cases involving undercover agents posing 
as child victims, which is the Innocent Images initiative, who are 
solicited online for sexual activity; and three, child pornography 
cases.
	In Somerset County, while we have always had cases involving 
actual child victims who are sexually assaulted, the Internet has led 
us to an increase in cases in which the child victim willingly 
participates in the initial contact with the pedophile.  Due to the 
pedophile's ability to groom the child victim over time through 
repeated communications over the computer, our experience has 
shown us that the child victim will begin to identify with the 
offender and be more willing to meet with that offender.
	Some examples of Somerset County cases.  One example is the 
Christopher Wahler case.  And what you will see in all our cases, I 
provide them in our written statement, the profile of the individual 
that we see is someone like us; middle age, 30s, 40s, 50s; usually 
affluent; usually a family man; usually a man; good job; and that is 
what we have here.  I believe Defendant Wahler came from Upper 
Saddle River, another affluent community.  He is a 36-year old 
man, met with a 14-year old victim over the Internet.  He posed as 
a 17-year old boy; was able to get her to trust him.  Through 
repeated communications with the victim, he convinced the victim 
to meet with him, in person, at which time he sexually assaulted 
her here in Somerset County.
	With regard to cases involving undercover agents posing as 
children who are targets of pedophiles, who engage them in 
graphic sexual communications over the Internet and subject them 
to images of pornography, we have found that pedophiles do not 
hesitate to travel to our county to meet their intended victims in 
person for sexual activity.  Some of the many cases, again, that I 
had cited in my written statement, two include the Marc Balkin 
case and the Edward Bostonian case, described in greater detail in 
the written statement.  But in addition, our experience shows that 
this type of offender often exhibits no signs of being a danger to 
children prior to their arrest, which is demonstrated by the fact that 
we have arrested professionals, teachers, and even a police officer 
for these types of offenses.
	Finally, the prevalence of computers in Somerset County 
brings with it the concomitant presence of child pornography.  As 
with any community in which there are computers with Internet 
access, there are individuals in Somerset County who use their 
computers to view, download, transmit or create child 
pornography, as evidenced by the cases of James Nafus, Jr. and 
Christopher Hickman, cases I have also included in my written 
statement.
	After recognizing the growing nature of this problem 
approximately 10 years ago, when I left the Attorney General's 
office to become the Somerset County prosecutor, I took a number 
of steps to educate and train our police officers, system 
prosecutors, and most importantly, the parents in our county in an 
effort to combat this problem and protect the citizens of Somerset 
County.  For example, in 1998 we created a free Internet safety 
presentation that educates parents and other concerned citizens on 
the dangers of the Internet and provides guidance for keeping 
children safe.
	We also created and distributed free informational brochures 
for parents and children and provide rules for Internet use.  We 
have copies, sample copies of the brochures for both of you, as 
well as a mouse pad that we provide to children and parents that 
we distributed throughout the schools.  That is also on our website.  
In addition, I have sent our assistant prosecutors and detectives for 
advanced training in investigating and prosecuting these types of 
crimes so that we can stay at least one step ahead of individuals 
who commit these crimes in the constantly changing area of 
computer technology and computer crimes.
	Finally, I created a High Tech Computer Crimes Unit within 
the prosecutor's office to assist other law enforcement agencies in 
properly investigating these specialized crimes.  Through these 
steps, I believe the Somerset County Prosecutor's Office provides 
the citizens of Somerset County with highly trained police officers 
and detectives to both proactively and reactively investigate these 
more challenging crimes, assistant prosecutors who are better 
prepared to prosecute these cases, and the educational awareness to 
help prevent the sexual exploitation of our children over the 
Internet.
	I recognize that we cannot win this war alone here in Somerset 
County.  This war goes well beyond our territorial boundaries.  In 
fact, it is international.  You were questioning the U.S. Attorney 
about Federal jurisdiction; it is beyond that.  As I said, I have been 
in law enforcement over 30 years and this is, I believe, the most 
challenging type of crime that I have ever confronted.  I thank you 
for your interest and I thank you for time today.
	[The prepared statement of Wayne J. Forrest, Esq., follows:]

PREPARED STATEMENT OF WAYNE J. FORREST, ESQ., SOMERSET COUNTY PROSECUTOR, 
OFFICE OF THE SOMERSET COUNTY PROSECUTOR

        Dear Honorable Members of the United States House of 
Representatives:
        In the past ten years we here in Somerset County have 
experienced a dramatic increase in cases involving the sexual 
exploitation of children.  Our experience shows that this increase is 
due in large part to the proliferation of the Internet.  In Somerset 
County in particular, I believe we have had extensive experience 
with this problem because Somerset County is such an affluent 
county.  In fact, the 2000 United States Census ranked Somerset 
County as the number one county in the country in median 
household income at $88,957.00.  As a wealthy county, computers 
are everywhere in Somerset County.  All Somerset County 
children have access to the Internet, either at home, at school, at 
the library, or at a friend's house.  In addition, Somerset County's 
children also have more privacy and autonomy due to factors such 
as both parents being employed outside the home, large homes 
with individual bedrooms for each child, and frequently a personal 
computer with Internet access in their bedroom.  In addition, 
because these crimes ordinarily require privacy and money to 
purchase expensive computer equipment, Somerset County 
residents, who due to their wealth generally possess more of each, 
are in a better position than the average citizen to commit these 
types of offenses.  Under these circumstances, the sexual 
exploitation of children over the Internet is of particular concern to 
us in law enforcement in Somerset County.
        Having been in law enforcement now for over thirty years, I 
can tell you that thirty years ago, there were far fewer cases 
involving the sexual exploitation of children.  At that time, 
pedophiles interested in sexual activity with children would have 
to leave the privacy and security of their homes to physically trade 
child pornography with other like-minded individuals or "lurk" at 
the schoolyard fence in an attempt to lure an actual child victim.  
Now, what we have seen is that through the Internet, pedophiles 
have access to millions of images of child pornography from 
around the globe without leaving their homes or workplace.  For 
some, the ubiquity of, and ease with which they can obtain child 
pornography, feeds on itself until that interest consumes more and 
more of their daily lives.  At that point, photographs cease to be 
enough, and the pedophile takes the next step and seeks out an 
actual child to victimize.  The Internet then assists those 
pedophiles in finding an actual child victim as well.  Through the 
Internet, a pedophile can search for an actual child victim, gather 
personal information or other intelligence on that victim through 
various search engines, and ultimately, make contact with a child 
victim under false pretenses.  For example, a pedophile can now 
research an intended victim through the victim's profile or "blog," 
and determine that victim's photograph, age, phone number, email 
address, physical address, school, employer, siblings, friends, 
interests, likes and dislikes.  Then, once armed with a wealth of 
information about that victim, the pedophile can make contact with 
the victim through an instant message using an assumed identity.  
Instead of "Joe Child Molester," 50 year-old registered sex 
offender, he can contact the victim as 16 year-old "Billy," a friend 
of the victim's friend Jessica, who saw the victim at the movies 
last Friday night and thinks she's cute.  Because the contact is not 
face-to-face, and because the victim now believes that she is 
communicating with a peer, she will open-up more quickly and 
give more information to the pedophile.  Through this process, the 
pedophile can "groom" the victim, and ultimately exploit his 
knowledge of the victim to obtain an in-person meeting with the 
victim.  
        Our experience in Somerset County has taught us that this type 
of criminal behavior is happening every day, and generally falls 
into one of three main categories: (1) cases involving actual child 
victims who are sexually assaulted; (2) cases involving undercover 
agents posing as children ("virtual victims") who are solicited 
online for sexual activity, and (3) child pornography cases.  
        In Somerset County, while we have always had cases involving 
actual child victims who are sexually assaulted, the Internet has led 
to an increase in cases in which the child victim willingly 
participates in the initial contact with the pedophile.  Due to the 
pedophile's ability to "groom" the child victim over time through 
repeated communications over the computer, our experience shows 
that the child victim will begin to identify with the offender and be 
more willing to meet that offender in person.  One example of this 
is the Christopher Wahler case, described in detail below, in which 
a 36 year-old man met a 14 year-old victim over the Internet by 
posing as a 17 year-old boy.  Through repeated communications 
with the victim, he convinced the victim to meet him in person, at 
which time he sexually assaulted her.  
        With regard to cases involving undercover agents posing as 
children who are the targets of pedophiles who engage them in 
graphic sexual communications over the Internet and subject them 
to images of pornography, we have found that pedophiles do not 
hesitate to travel to Somerset County to meet their intended victims 
in person for sexual activity.  Some examples of these types of 
cases are the Marc S. Balkin and Edward Bostonian cases 
described in detail below.  In addition, our experience shows that 
this type of offender often exhibits no obvious signs of being a 
danger to our children prior to his arrest, which is demonstrated by 
the fact that we have arrested professionals, teachers, and even a 
police officer for this type of offense.  
        Finally, the prevalence of computers in Somerset County 
brings with it the concomitant presence of child pornography.  As 
with any community in which there are computers with Internet 
access, there are individuals in Somerset County who use their 
computers to view, download, transmit or create child 
pornography, as evidenced by the James Nafus, Jr. and Christopher 
Hickman cases described below.   
        The following case summaries are some of the investigations 
and prosecutions conducted by the Somerset County Prosecutor's 
Office involving the sexual exploitation of children over the 
Internet over the past ten years.  

                  Cases with Actual Victims
        State v. Christopher D. Wahler.  Case No. 97-635 / Ind. No. 
98-01-00039-I.  In the fall of 1997, 36 year-old defendant 
Christopher Wahler met a 14 year-old Bernards Township girl in 
an America On-Line chat room.  While the victim was using a 
friend's computer, she received an instant message from "Steven," 
later determined to be defendant.  Defendant claimed to be a 17 
year-old boy and developed an online friendship with the victim.  
This friendship led to telephone calls and eventually, in-person 
meetings.  On three occasions, defendant drove to Bernards and 
engaged in vaginal, oral and anal intercourse with the victim in the 
back of his van in the parking lot of her condominium complex.  
On June 16, 1998, defendant pled guilty to 3 counts of 2nd degree 
sexual assault and on January 8, 1999, was sentenced to six years 
in New Jersey State Prison.  Defendant was paroled from Northern 
State Prison on September 16, 2002.                                                    
        State v. Christopher Sopko.  Case No. 04-358 / Ind. No. 04-07-
00483-I.  In spring 2003, 20 year-old defendant Christopher Sopko 
met and began communicating with a 14 year-old Branchburg girl 
via America On-Line Instant Messenger.  Thereafter, defendant 
Sopko met with the victim in-person and engaged in sexual 
intercourse with her.  On August 23, 2004, defendant pled guilty to 
one count of 2nd degree sexual assault and on May 13, 2005 was 
sentenced to three years New Jersey State Prison.  
        State v. Carl Niro, Jr.  Case No. 05-495 / Ind. No. 05-07-
00592-I.  In June 2005, 22 year-old defendant Carl Niro, Jr., met a 
15 year-old victim through her "My Space" website.  Thereafter, 
defendant Niro picked the victim up at her school and drove her to 
his Raritan Borough residence, where he engaged in vaginal and 
anal intercourse with her.  On March 17, 2006, defendant Niro pled 
guilty to 3rd degree endangering the welfare of a child, and is 
currently awaiting sentencing.  
        State v. Michael Capone.  Case No. 05-518 / Ind. No. 05-07-
00618-I.  In summer, 2005, 24 year-old defendant Michael Capone 
met a 15 year-old victim through her "My Space" website.  In June 
2005, the 15 year-old girl was reported missing by her guardian.  
The ensuing police investigation revealed that on two occasions in 
the summer, 2005, defendant Capone picked the victim up, took 
her to his residence, and engaged in sexual intercourse with her.  
On January 6, 2006, defendant Capone pled guilty to 2nd degree 
sexual assault and 3rd degree endangering the welfare of a child, 
and is currently awaiting sentencing.  

                 Cases with "Virtual" Victims
        State v. Marc S. Balkin.  Case No. 99-100 / Ind. No. 99-05-
0290-I.  In winter, 1999, 51 year-old defendant Marc Balkin met 
an undercover agent posing as a 14 year-old girl in an online chat 
room entitled "barely legalf4olderm."  The defendant engaged in 
graphic sexual conversations online and transmitted lewd 
photographs of himself masturbating to the undercover agent.  The 
defendant ultimately appeared at a prearranged meeting at the 
Bridgewater Sports Arena to engage in sexual activity with the girl 
and was arrested.  On August 13, 1999, defendant pled guilty to 3rd 
degree endangering the welfare of a child and 3rd degree eluding 
and on January 21, 2000 was sentenced to three years probation 
with 364 days in the Somerset County Jail.
        State v. Edward Bostonian.  Case No. 00-078 / Ind. No. 00-04-
00196-I.  In winter, 2000, 39 year-old defendant Edward Bostonian 
met an undercover agent posing as a 13 year-old girl in an online 
chat room entitled "barely legalf4olderm."  The defendant engaged 
in graphic sexual conversations online and gave the undercover 
agent detailed instructions on masturbation.  The defendant 
ultimately appeared at a prearranged meeting at the Bridgewater 
Commons Mall to engage in sexual activity with the girl and was 
arrested.  On June 8, 2000, defendant pled guilty to 3rd degree 
endangering the welfare of a child and on January 5, 2001 was 
sentenced to three years probation with 364 days in the Somerset 
County Jail.
        State v. Robert T. Condon.  Case No. 00-451 / Ind. No. 00-10-
00547-I.  In summer, 2000, 57 year-old defendant Robert Condon 
met an undercover agent posing as a 13 year-old girl in an online 
chat room.  The defendant engaged in graphic sexual conversations 
online with the agent and gave the undercover agent detailed 
instructions on masturbation.  The defendant ultimately appeared 
at a prearranged meeting at the Bridgewater Commons Mall to 
engage in sexual activity with the girl and was arrested.  On 
September, 2003, defendant was tried and convicted of 2nd degree 
Attempted Sexual Assault and on October 29, 2004, was sentenced 
to an eight year period of incarceration in New Jersey State Prison, 
to be served at the Adult Diagnostic & Treatment Center at 
Avenel.  
        State v. James Kane.  Case No. 00-535 / Ind. No. 00-12-00717-
I.  In the summer of 2000, defendant James Kane, a twenty-eight 
year veteran police officer with the Port Authority Police 
Department, met an undercover officer posing as a 13 year-old girl 
in an America On Line chat room.  Thereafter, defendant Kane 
engaged in numerous graphic sexual conversations online with the 
undercover officer using AOL Instant Messenger.  Defendant Kane 
gave the undercover officer detailed instructions on masturbation 
and sent pornographic images to the undercover officer over the 
computer.  On February 9, 2001, defendant pled guilty to 3rd 
degree attempting to promote obscene material and on February 8, 
2002 was sentenced to probation with 180 days in the Somerset 
County Jail.
        State v. Glen P. Albright.  Case No. 03-430 / Acc. No. 03-08-
00465-I.  In the spring of 2003, 47 year-old defendant Glen 
Albright (a teacher at Somerset County Vocational and Technical 
School in Bridgewater, New Jersey) met an undercover detective 
posing as a 14 year-old girl in an America On-Line chat room.  
Thereafter, defendant engaged in numerous online conversations 
with the undercover officer, including instant messages in which 
the defendant gave the undercover detective specific, detailed 
instructions on how to masturbate.  Thereafter, defendant was 
arrested.  On August 11, 2003, defendant pled guilty to 3rd degree 
attempted endangering the welfare of a child and 4th degree 
endangering the welfare of a child, and on January 2, 2004, was 
sentenced to non-custodial probation and a $2,500.00 fine.  	

                   Child Pornography Cases
        State v. Allen May.  Case No. 98-620 / Ind. No. 99-03-00176-I.  
In fall, 1998, police learned that 70 year-old defendant Allen May 
of Bridgewater, Somerset County, subscribed to an Internet 
newsgroup dedicated to the dissemination of child pornography.  
Police investigation resulted in a search of the computer at 
defendant May's residence.  This search revealed hundreds of 
images of child pornography that defendant May both downloaded 
from, and posted to, the Internet.  On May 15, 2001, defendant 
May was convicted of 2nd degree and 4th degree endangering the 
welfare of a child, and on September 7, 2001 was sentenced to five 
years incarceration in New Jersey State Prison.
        State v. James Nafus, Jr.  Case No. 03-158 / Ind. No. 03-04-
00236-I.  In spring, 2003, 25 year-old defendant James Nafus, Jr., 
a teacher at the Far Hills Country Day School, turned his laptop 
computer over to a friend because he was having problems with it.  
Defendant Nafus' friend discovered child pornography on the 
computer and called he police, who searched the computer and 
found numerous images of child pornography.  On June 6, 2003, 
defendant pled guilty to 4th degree endangering the welfare of a 
child and on December 19, 2003 was sentenced to probation and a 
$1,000 fine.  
        State v. Christopher Hickman.  Case No. 03-203 / Ind. No. 03-
06-00323-I.  In spring, 2003, 21 year-old defendant Christopher 
Hickman met and began a sexual relationship with a 14 year-old 
girl.  During the course of this relationship, defendant Hickman 
engaged in sexual intercourse with the victim and participated in 
photographing her nude and while engaged in various sexual acts 
using his computer and web cam.  On September 19, 2003, 
defendant pled guilty to 2nd degree sexual assault, 2nd degree 
endangering the welfare of a child, 3rd degree possession of 
psilocybin with intent to distribute, and 3rd degree possession of 
marijuana with intent to distribute.  On January 9, 2004, defendant 
Hickman was sentenced to four years incarceration in New Jersey 
State Prison
        State v. Robert Mascola, Case No. 05-343 / Ind. No. 05-06-
00535-I; State v. Michael Pleban, Case No. 05-344 / Ind. No. 05-
06-00543-I, and State v. Mickey Phillips, Case No. 05-345 / Ind. 
No. 05-06-00536-I.  In spring, 2005, the Somerset County 
Prosecutor's Office received information from Immigration and 
Customs Enforcement (ICE) that ICE was conducting a large scale 
child pornography investigation which revealed that several 
Somerset County residents had purchased child pornography over 
the Internet.  Police contacted these individuals and the resulting 
investigations revealed that they possessed child pornography on 
their computers that they obtained via the Internet.  All of these 
individuals were admitted into the PTI program on charges of 4th 
degree endangering the welfare of a child (possession of child 
pornography).  

       Steps Taken by the Somerset County Prosecutor's Office to
      Combat the Sexual Exploitation of Children Over the Internet
        After recognizing the growing nature of this problem almost 
ten years ago, when I left the Attorney General's Office to become 
the Somerset County Prosecutor I took a number of steps to 
educate and train our police officers, assistant prosecutors, and 
parents in an effort to combat this problem and protect the children 
of Somerset County.  For example, in 1998 we created a free 
Internet safety presentation that educates parents and other 
concerned citizens on the dangers of the Internet and provides 
guidance for keeping children safe.  We also created and 
distributed free informational brochures for parents and children to 
provide rules for safe Internet use.  In addition, I have sent our 
assistant prosecutors and detectives for advanced training in 
investigating and prosecuting these types of crimes so that we can 
stay at least one step ahead of the individuals who commit these 
crimes in the constantly changing area of computer technology and 
computer crimes.  Finally, I created a High Tech Computer Crimes 
Unit within the Prosecutor's Office to assist in properly 
investigating these specialized crimes.  Through these steps, all of 
which are described in detail below, I believe the Somerset County 
Prosecutor's Office provides the citizens of Somerset County with 
highly trained police officers and detectives to both proactively 
and reactively investigate these more challenging crimes, assistant 
prosecutors who are better prepared to prosecute these cases, and 
the educational awareness to help prevent the sexual exploitation 
of our children over the Internet.  
        Internet Safety Presentation for Parents.  In 1998, the Somerset 
County Prosecutor's Office created a free Internet safety program 
for parents and other concerned citizens entitled "Danger Is Only 
A "Click" Away:  A Parents' Guide to Internet Safety."    The 
program covers Internet dangers, including pornography, child 
pornography, pedophiles/child exploitation, weapons/explosives, 
"hate" groups, theft, terroristic threats, narcotics and profiles/blogs, 
and uses examples from actual Somerset County cases.  The 
program provides parents with advice on how to protect their 
children, including rules for safe Internet use, warning signs and 
detailed instructions on how to examine the computer to determine 
which sites your child has accessed on-line.  The program is 
directed toward parents with minimal computer knowledge and is 
not suitable for minors due to graphic content.  The program lasts 
approximately one hour with a question-and-answer period to 
follow.  Anyone who attends the program receives a free "Internet 
Safety Pledge" mouse pad to assist them with teaching their 
children rules for safe Internet use.  Since 1998, the Somerset 
County Prosecutor's Office presented the program to every school, 
community and business group that requested it, thereby educating 
thousands of Somerset County residents about safe Internet usage.  
(See enclosed copy of PowerPoint presentation, attached as Exhibit 
A.)
        Informational Brochures.  In 2001, the Somerset County 
Prosecutor's Office created two informational brochures entitled 
"A Parent's Guide to Internet Safety" and "Ten Internet Safety 
Tips for Kids."  The brochures provide parents and children with 
information on Internet dangers and tips for safe Internet usage, 
and since 2001 have been disseminated to the public free of 
charge.   (See enclosed brochures, attached as Exhibit B and 
Exhibit C.)
        Advanced Training for Assistant Prosecutors.  Several 
Somerset County Assistant Prosecutors who prosecute these types 
of cases have received advanced training on prosecuting crimes 
involving children and the computer.  For example, Somerset 
County Assistant Prosecutors have attended the following courses: 
(1) Protecting Children Online for Prosecutors, 2005, at the Jimmy 
Ryce Law Enforcement Training Center in Alexandria, Virginia 
(sponsored by the National Center for Missing and Exploited 
Children; (2) High Tech Crimes Investigation Association Training 
& Conference in Atlantic City, New Jersey, 2002; (3) Law 
Enforcement and the Internet, Sponsored by the New Jersey 
Attorney General's Office at Rutgers College, New Brunswick, 
2000; (3) Legal Issues in Computer Crimes Prosecutions, 
Sponsored by the US Secret Service and the High Tech Crimes 
Investigation Association, at the World Trade Center in New York, 
New York, 1999, and (4) Investigation and Prosecution of Child 
Sexual Exploitation, sponsored by the Assistant Prosecutors' 
Research Institute and the National District Attorneys' Association 
in Columbia, South Carolina, 1999.  In addition, Somerset County 
Assistant Prosecutors have attended various seminars on high tech 
crimes and/or computer child pornography issues held during the 
general annual conference for the Sex Crimes Officers' Association 
and MAGLOCLEN, as well as classes on legal issues of high tech 
crime, sponsored by the New Jersey Division of Criminal Justice.
        Specialized Training for Detectives.  After recognizing the 
problems for law enforcement presented by the Internet, the 
Somerset County Prosecutor's Office made a concerted effort to 
ensure that its Detective Division was prepared to investigate these 
types of cases.  Toward that end, since 1999, the Somerset County 
Prosecutor's Office has assigned a number of detectives to various 
other agencies / units that specialize in computer investigations.  
Specifically, between 1999 and 2001, Detective Andrew Lippitt 
was assigned to the Federal Bureau of Investigations North East 
Regional Child Exploitation Task Force (aka, "Innocent Images.")  
During that time, the Task Force generated more than seventy 
undercover proactive investigations over the Internet that resulted 
in arrests of sexual predators.  Since that first assignment, the 
Prosecutor's Office assigned two other detectives to "Innocent 
Images" - Detective Robert Pascale, from January 2002 to August 
2003, and Detective Sergeant Lori Rinaldi, from August 2003 to 
May 2005.  In addition, the Prosecutor's Office sent Detective 
Lippitt and Detective Pascale to the New Jersey State Police High 
Tech Crime Unit where they received additional training and 
experience.  Detective Lippitt was there from August 2001 to 
February 2002, and Detective Pascale was there from August 2003 
to May 2004.  There, they conducted all types of computer and 
Internet related investigations, including computer forensic 
examinations and proactive "traveler" investigations.  In addition, 
Detectives Lippitt and Pascale have attended numerous other 
courses involving computer investigations.  
        Creation of the High Tech Computer Crimes Unit.  In 1999, the 
Somerset County Prosecutor's Office created the High Tech 
Computer Crimes Unit to assist in conducting computer 
investigations.  The unit assists other units with the Prosecutor's 
Office and other law enforcement agencies in all types of criminal 
investigations involving computers, including the seizure, search, 
and forensic examination of computers obtained by law 
enforcement personnel.  In addition, the High Tech Computer 
Crimes Unit conducts computer related training for law 
enforcement officers, including a one-day Introduction to 
Computer Crimes Course at the Somerset County Police Academy 
that teaches law enforcement personnel to recognize and properly 
handle a computer crime.  The course covers the common types of 
computer crimes, including sexual predators, child pornography, 
narcotics, weapons and explosives, and hate groups.  Course 
attendees receive training on how to trace Internet Protocol (IP) 
addresses found in the header portion of Emails.  In addition, the 
High Tech Computer Crimes Unit has participated with the FBI, 
ICE, the New Jersey State Police and numerous local agencies in 
conducting proactive Internet investigations regarding child 
exploitation and child pornography.  The High Tech Computer 
Crimes Unit is currently in the process of developing and 
conducting proactive Internet investigations. 
        Conclusion
        While the sexual exploitation of children through the Internet is 
a serious and growing problem in Somerset County, the Somerset 
County Prosecutor's Office will continue to take all necessary 
measures, including the steps described herein, to protect our 
citizens from individuals looking to victimize our children.   

                                        Respectfully submitted,


					Wayne J. Forrest
					Prosecutor, Somerset County

	MR. WHITFIELD.  Thank you, Mr. Forrest.  And Mr. Banks, you 
are recognized for 5 minutes.
        MR. BANKS.  Mr. Chairman Whitfield and Mr. Ferguson and 
members of the subcommittee, thank you for the opportunity to 
testify here today.  My name is Andre B. Banks and I am a 
sergeant with over 20 years experience in law enforcement.  I work 
in the Union County Prosecutor's Office in Elizabeth, New Jersey 
and I am currently assigned to the High Tech Crimes Unit that 
oversees the Union County High Tech Task Force.  The High Tech 
Task Force investigates all computer and Internet related crimes in 
Union County.
	I obtained my bachelor's degree in Political Science from Kean 
University and I also have obtained an associate's degree in 
Liberal Arts.  I am a certified instructor for "The Internet and Your 
Child" and a certified i-Safe instructor, which are both education 
and training programs designed to teach parents and educators 
about Internet safety.  We have given hundreds of lectures 
throughout Union County on Internet safety and cyber crime.
	The Union County High Tech Task Force was the first New 
Jersey county to start a High Tech Task Force 6 years ago to 
investigate child exploitation cases.  We work closely with 
Federal, State, and local authorities in these types of investigations.  
Several years ago, our office also received a Federal grant to be a 
satellite office for the Internet Crimes Against Children, ICAC, 
national task force.  We have arrested dozens of Internet predators 
over the years through the efforts of ICAC.
	I am also certified as an Encase Certified Forensic Examiner, 
EnCe, for conducting detailed computer forensic examinations of 
seized computers.  This becomes very important after arresting an 
offender and examining his computer for evidence of the crime 
that was committed.  I teach in-service classes to Federal, State, 
and local officers in Internet crimes at the Union County Police 
Academy.  I am an active member of the High Tech Crime 
Investigator Association, the New York Secret Service Electronic 
Crimes Task Force, International Association of Computer 
Investigative Specialists, and the Institute of Computer Forensic 
Professionals.
	Today, one of the many challenges law enforcement faces is 
protecting our children from the dangers of the Internet.  When I 
first started investigating Internet crimes back in 1996, it was 
primarily cases involving distribution of child pornography and e-
mail.  Today, the predators that troll the Internet have many 
choices from which to make attempts to lure their victims.  There 
are hundreds of investigations that I could talk about today when it 
involves the dangers of the Internet.  One of the cases that I want 
to review with you is an investigation that I started a few years ago 
that involved a 14-year old female named Nicole.  I say this is 
typical because Nicole would come home from school before her 
mother arrived home from work, between 3:00 p.m. and 5:00 p.m. 
and would always log on to AOL's instant messenger program 
called AIM.
	You know about the Internet chatting programs that allow 
children or Internet users to talk in real time with people anywhere 
in the world?  This teenager used the AIM program to chat with 
her friends.  Some of her friends she had met online and some she 
knew from school.  She met a subject online who said he was also 
a teenager from New Jersey and he went by the screen name of 
Lovs2playDoctr.  After several weeks of chatting online and 
making secret phone calls, they became online buddies and 
Lovs2playDoctr began sending her lewd pictures and talking about 
sex.  This is the grooming process that predators often do to make 
their victims feel more comfortable talking to them.
	One day Nicole's mother came home early from work and saw 
some disturbing chat conversations and called the Kenilworth 
Police Department.  The PD called my office and I later met with 
Nicole and her mother and they agreed to allow me to take over 
Nicole's screen name so I could continue chatting with this 
subject.  I later found out, through a subpoena, that 
Lovs2playDoctr was actually Michael Jasinski, a 31-year old male 
from Newark, Delaware, who had a criminal record.
	I then went in, an undercover capacity, acting online as if I was 
Nicole by using her screen name and I continued chatting with this 
guy, Lovs2playDoctr, until he made plans to meet Nicole for a 
sexual encounter.  I contacted Delaware State Police through ICAC 
and we eventually arrested Jasinski and executed a search warrant 
at his house in Newark, Delaware.  This case that I just reviewed 
with you is a scenario that often happens involving our children 
when they are home alone.  They usually feel safe on the Internet 
using computers and chatting with strangers, even though they 
know it is not the right thing to do.  Jasinski is currently serving 10 
years in Delaware State prison.
	The second scenario I want to talk about involves the popular 
website called MySpace.  MySpace is a virtual meeting place on 
the Internet where children and adults can create free accounts to 
express their creativity and leave journal entries, also called blogs, 
on each other's pages.  This popular website is an awesome 
technology to many users; however, it can be a nightmare to some 
people who fall prey to the predators and evildoers who seeks to 
lure innocent victims.
	A recent case in Union County that ended in a tragic death 
involved a 14-year old female named Judy Cajuste.  The victim 
had a MySpace account filled with many pictures and blog entries 
from her friends that revealed personal information.  The 
investigation is still ongoing and we believe there may be a link to 
her MySpace Web page that led to her death.  Other MySpace 
problems occur when parents don't know their children even have 
a MySpace account.  Other MySpace problems occur also when 
schoolmates use MySpace to cyberbully other children.  I speak to 
parents all the time during our lectures and also receive phone calls 
from disturbed parents about harassment that their children are 
confronted with on MySpace.
	This is not only restricted to MySpace.  There are many other 
Web blog Internet sites out there that suspects use to lure and stalk 
victims as well.  I am highlighting MySpace because it is the most 
popular.  One of the things I always tell parents is to become 
familiar with this technology and see what their children are doing.  
One incident I like to tell parents about is when a very upset parent 
called my office complaining about posting bad messages on her 
daughter's MySpace web page.  I advised her the proper way to 
file a complaint at a local police department, but I also educated 
her about the website.  I asked her if she knew about the security 
settings that MySpace put in place to block unwanted comments 
and she didn't know.  I then talked her through the steps to block 
certain users and to prevent blog entries without permission.  After 
showing her and many others how to activate this feature, it often 
solves the problem.
	A good portion of my job at the Union County Prosecutor's 
Office is community awareness through training classes and 
lectures on Internet safety.  Many parents are clueless when it 
comes to navigating around on the Information Super Highway.  
That is why my office has taken an aggressive approach to 
community awareness by having Saturday classes called the 
"Internet and Your Child," where parents can come and sit down at 
a computer terminal and learn what their kids already know about 
the Internet.  We have also started the first "Train the Trainer" 
program in the State of New Jersey through i-SAFE, where 
members of our office and the Union County High Tech Task 
Force teach educators and law enforcement personnel how to give 
informative lectures to citizens in their communities.  I believe this 
approach we have taken has educated a good portion of the 
population and has prevented more tragedies from occurring in 
Union County.
	Thank you and I look forward to your questions.
	[The prepared statement of Andre Banks. follows:]

PREPARED STATEMENT OF ANDRE BANKS, SERGEANT, OFFICE OF THE PROSECUTOR, UNION 
COUNTY

        Chairman Whitfield and members of the subcommittee, thank 
you for the opportunity to testify here today.  My name is Andre B. 
Banks and I am a Sergeant with over 20 years experience in law 
enforcement.  I work in the Union County Prosecutor's Office in 
Elizabeth, NJ and I am currently assigned to the High Tech Crimes 
unit that oversees the Union County High Tech Task Force.  The 
High Tech Task Force investigates all computer and Internet 
related crimes in Union County .  I obtained my Bachelor of Arts 
degree in Political Science from Kean University (Union, NJ) and I 
obtained an Associate degree in Liberal Arts (Walnut, Ca).  I am a 
certified instructor for "The Internet & Your Child" and a certified 
ISafe instructor, which are both education and training programs 
designed to teach parents and educators about Internet safety.  We 
have given hundreds of lectures through out Union County on 
Internet safety and Cyber Crime.  The Union County High Tech 
Task Force was the first N.J. County to start a High Tech Task 
Force six years ago to investigate child exploitation cases.  We 
work closely with Federal, State and local authorities in these types 
of investigations.  Several years ago our office also received a 
Federal grant to be a satellite office for the Internet Crimes Against 
Children (ICAC) national task force.  We have arrested dozens of 
Internet predators over the years through the work of ICAC.  I am 
also certified as an Encase Certified Forensic Examiner (EnCE) for 
conducting detailed computer forensic examinations of seized 
computers.  This becomes very important after arresting an 
offender and examining his computer(s) for evidence of the crime 
that was committed.  I teach in-service classes to Federal, State and 
Local officers on Internet crimes at the Union County Police 
Academy.  I am an active member of the High Tech Crimes 
Investigator Association (HTCIA), New York U.S. Secret Service 
Electronic Crimes Task Force (ECTF), International Association of 
Computer Investigative Specialists (IACIS) and the Institute of 
Computer Forensic Professionals (ICFP).  
        Prior to working in Union County, I worked as a Patrol Officer 
for the Fullerton Police Dept. in California from 1985 to 1988.  In 
1988 I relocated to my home state of New Jersey where I was hired 
by the Morris County Sheriff's Office and was immediately 
assigned to work at the Special Enforcement Unit of the Morris 
County Prosecutor's Office as an undercover narcotic agent.  I 
worked in that capacity until Nov. 1995.  I was then reassigned to 
develop the Sheriff's office-wide network database that was used 
by the four divisions within the Sheriff's office to manage the day 
to day operations.  In July 1996 I was hired by the Morris County 
Prosecutor's Office as a Detective in the Fraud 
Unit/Administration Unit.  While there, I enforced crimes relating 
to fraud, theft and started the Morris County computer crime unit.  
I have attended many police training courses in my career and also 
other specialized courses in police supervision and computer 
investigations.
        Today, one of the many challenges law enforcement faces is 
protecting our children from the dangers of the Internet.  When I 
first started investigating Internet Crimes back in 1996 it was 
primarily hacking cases and distribution of child pornography via 
email.  Today, the predators that troll the Internet have many 
choices from which to make attempts to lure their victims.  
        There are hundreds of investigations that I could talk about 
when it involves the dangers of the Internet.  One of the cases that 
I want to review with you is an investigation that I started a few 
years ago that involved a typical 14year old female named Nicole.  
I say this is typical because Nicole would come home from school 
before her mother arrived home from work between 3pm and 5pm 
and would always logon to AOL's instant messenger program 
called AIM.  You know about the Internet chatting programs that 
allow Internet users to talk in real-time with people anywhere in 
the world?  This teenager used the AIM program to chat with her 
friends.  Some of her friends she had met online and some she 
knew from school.  She met a subject online who said he was also 
a teenager from N.J. and he went by the screen name of 
Lovs2playDoctr.  After several weeks of chatting online and 
making secret phone calls they became online buddies and 
Lovs2playDoctr began sending her lewd pictures and talking about 
sex.  This is the grooming process that predators often do to make 
their victims feel more comfortable talking to them.  One day 
Nicole's mother came home early and saw some disturbing chat 
conversations and called the Kenilworth Police Dept.  The PD 
called my office and I later met with Nicole and her mother and 
they agreed to allow me to take over Nicole's screen name so I 
could continue chatting with the subject.  I later found out through 
a subpoena that Lovs2playDoctr was actually Michael Jasinski, a 
31 year old male from Newark, Delaware, who had a criminal 
record.  I then went in an undercover capacity online acting as if I 
was Nicole, by using her screen name I continued chatting with 
Lovs2playDoctr until he made plans to meet Nicole for a sexual 
encounter.  I contacted the Delaware State Police through ICAC 
and we eventually arrested Jasinski and executed a search warrant 
at his house in Newark, Delaware.  This case that I just reviewed 
with you is a scenario that often happens involving our children 
when they are home alone.  They usually will feel safe on their 
computers chatting with strangers even though they know it is not 
the right thing to do. Jasinski is serving 10 years in a Delaware 
State prison.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

The second scenario I want to talk about involves the popular web 
site called MySpace.  MySpace is a virtual meeting place on the 
Internet where children and adults can create free accounts to 
express their creativity and leave journal entries, also called blogs, 
on each others pages.  This popular web site is awesome 
technology to many users, however it can be a nightmare to some 
people who fall prey to the predators and evil doers who seek to 
lure innocent victims.  A recent case in Union County that ended in 
a tragic death involved a 14 year old female named Judy Cajuste.  
The victim had a MySpace account filled with many pictures and 
blog entries from her friends that revealed personal information.  
The investigation is still ongoing and we believe there may be a 
link to her MySpace web page that led to her death.  Other 
MySpace problems occur when parents don't know there children 
even have a MySpace account or when schoolmates use MySpace 
to Cyberbully other children.  I speak to parents all the time at our 
lectures and also receive phone calls from disturbed parents about 
harassment that their children are confronted with on MySpace.  
This is not only restricted to MySpace.com there are many other 
webblog Internet sites out there that suspects use to lure and stalk 
victims as well.  I'm highlighting MySpace because it is the most 
popular.  One of the things I always tell parents is to become 
familiar with this technology and see what their children are doing.  
One incident I like to tell parents about is when a very upset parent 
called my office complaining about people posting bad messages 
on her daughters MySpace web page.  I advised her about the 
proper way to file a complaint at her local police department, but I 
also educated her about the web site.  I asked her if she knew about 
the security settings that MySpace put into place to block 
unwanted comments and she didn't know.  I then talked her 
through the steps to block certain users and to prevent blog entries 
with out permission.  After showing her and many others how to 
activate this feature it often solves the problem.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 


How Parents can block users and prevent unwanted postings 
before they happen. 

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

              This is the evil side of MySpace

A good portion of my job at the Union County Prosecutor's Office 
is community awareness through training classes and lectures on 
Internet safety.  Many parents are clueless when it comes to 
navigating around on the Information Super Highway.  That is why 
my office has taken an aggressive approach to community 
awareness by having Saturday classes called "The Internet and 
Your Child" where parents can come and sit down at a computer 
terminal and learn what their kids already know about the Internet.  
We have also started the first "Train the Trainer" program in the 
state through ISafe, where members of our office and the Union 
County High Tech Task Force teach educators and law 
enforcement personnel how to give informative lectures to citizens 
in their communities.  I believe this approach we have taken has 
educated a good portion of the population and has prevented more 
tragedies from occurring in Union County.

	MR. WHITFIELD.  Well, Mr. Banks, thank you and I appreciate 
the testimony of the entire panel.  I am going to ask one question 
and then I am going to have to participate in a conference call, and 
so I am going to ask Congressman Ferguson to chair the hearing 
until I get back.
	But, Mr. Forrest, in your testimony, although you didn't talk 
about it in your oral testimony, but in your written testimony you 
made reference to a case, a gentleman named James Nafus, Jr., 
who was a teacher at, I think, Far Hills Country Day School, and 
he was involved in some pornographic material and so forth.  And 
my recollection was that the testimony, that he paid a fined and 
was probated and yet he was a teacher.  I was wondering if you 
could just give us an update on that case, what actually happened 
to Mr. Nafus and so forth.
	MR. FORREST.  As you said, he was a teacher in probably one 
of the most exclusive private schools in all of New Jersey, Far 
Hills Country Day School.  He had a personal laptop computer that 
he was having some problems wtih.  He turned it over to someone 
and asked them to see if they could fix it.  And as that person was 
attempting to fix the laptop, that person noticed child pornography, 
what he believed to be child pornography.  He called the police.  
They called our computer crimes unit.  We went down and got the 
computer through legal process, got into the computer and 
discovered that he was in possession of child pornography.  In 
New Jersey, our legislature makes the mere possession of child 
pornography a fourth degree crime.  We have first degree being the 
highest, fourth the lowest.  We don't have felonies and 
misdemeanors.  He pled guilty to a fourth degree crime without a 
record.  There is a legislative presumption for third and fourth 
degree crimes against incarceration, and he was given a sentence 
of a probationary term and a thousand dollars fine.
	MR. WHITFIELD.  And is he teaching now?
	MR. FORREST.  I do not know that.
	MR. WHITFIELD.  But there was a misdemeanor charge?
	MR. FORREST.  Well, we don't have misdemeanors here, but it 
was a fourth degree, which is the lowest level of crime.
	MR. WHITFIELD.  Okay.
	MR. FORREST.  First degree being the highest, fourth being the 
lowest.
	MR. WHITFIELD.  Yes.  Okay.  At this time, I am going to turn 
it over to Congressman Ferguson and I will be back as soon as I do 
this call.
	MR. FERGUSON.  [Presiding]  Thank you, Mr. Chairman.  Mr. 
Forrest, just following up on that particular case.  Is there any 
provision in our New Jersey law for multiple offenders of 
possession or other child pornography?  I don't know what the law 
says, in terms of what our State law says on possession of child 
pornography.  You said that a first-time offender is a fourth degree 
offense?
	MR. FORREST.  Well, it depends on what the crime is.  And yes, 
there are provisions in our laws for repeat offenders for all crimes.  
Again, we have been doing this for about 9 years.  We have not yet 
seen--and I guess that is a good thing and the State Police have 
more experience and obviously the Feds do than we do in little 
Somerset County.  But we have not seen repeat offenders as of yet 
in our county.  The profile that we have seen again are affluent 
businessmen, professionals, police officers, school teachers.  We 
have not seen where they have re-offended in our county where we 
prosecuted them for any crime, let alone a crime involving the 
Internet or sexual assault or pornography.  Now, but to answer 
your question, yes, if we have a repeat offender, that could enhance 
the punishment.
	MR. FERGUSON.  Whether they are a first-time offender or not, 
are there any provisions with regard to probation or other 
provisions in the law that, particularly if they are someone who 
works with children, this fellow is a teacher.
	MR. FORREST.  Yes.
	MR. FERGUSON.  Are there any provisions that say they are no 
longer able to participate in certain environments or jobs?  I mean, 
obviously, a school, somebody would have to have their head 
examined for him to be hired back after being convicted of a child 
pornography crime.  But are there any provisions in the law which 
say what someone who is convicted of these crimes is able to do or 
how--perhaps they have to stay away from children?
	MR. FORREST.  Yes and no.  Clearly the court can impose 
conditions during the term of probation, although that will end 
when probation ends.  In addition, if you are an employee in a 
public position, there is a provision for forfeiture for office and a 
bar from public office forever.  That doesn't apply to a private 
school, which is the case here.  David Livingston is our county 
superintendent of schools.  He and I formed a partnership 9 years 
ago that I thought it was one of the most important partnerships I 
had ever formed with anyone, because I think where we can fight 
the war the best from our local level is to educate parents and 
children, more so parents.  Because I know from my own 
perspective as a parent, 9 years ago my kids knew more about the 
Internet than I did, and I found out what I was missing, that is 
scary.  Just last night we went on the Internet, my kids looking for 
a piece of sporting equipment and we went on one of our local 
sporting goods Internet stores, and based on the name of this chain 
of sporting goods store, my son types it in and clicks it, it came 
back to a pornographic site, and so you have to be very careful on 
what words you want--what you are going to put into that Internet 
site.  So as far as teachers go, most, obviously, are public school 
teachers and the penalty was obviously greater, because we do 
have a disbarment for life if you are convicted.  With private 
school teachers, as in the case with Far Hills Country Day, that 
wouldn't apply.
	MR. FERGUSON.  You had mentioned Pat Barnes was here--
	MR. FORREST.  Yes, Prosecutor Barnes from Hunterdon 
County.
	MR. FERGUSON.  --who is a Hunterdon County prosecutor.  I 
just wanted to say hello and recognize him and thank him for being 
here today and for your work in Hunterdon County.
	MR. FORREST.  Which, if I may add, is important because, for 
the same reasons that people said to me, Somerset County, why are 
you so concerned about that?  We are not in one of the biggest 
counties in the State, like Union County, for example.  Well, I 
don't know if Mr. Banks can tell us how many residents of Union 
County have two and three and four computers and laptops in their 
homes, children that is, but we all do.  And you go to Far Hills, 
where they are sending their children who--a very prestigious 
private school--these children have computers and they have them, 
unfortunately, in all the wrong places.  And so working with David 
Livingston, the educational component that we put together, I think 
is one of the most important services we are providing, because 
parents are coming up to us all the time and say, I never thought of 
that and you are right, and my kid is kicking and screaming, but we 
are taking that computer out of their bedroom and putting in the 
kitchen or the family room or something like that, and something 
that small is that important.
	MR. FERGUSON.  Mr. Rodgers, you had actually referenced 
Rick Fuentes, who is the superintendent of our State Police--
	MR. RODGERS.  Yes, sir.
	MR. FERGUSON.  --who I also want to recognize.  He is an 
outstanding superintendent of the State Police we have in New 
Jersey and we are very fortunate to have him, and I appreciate your 
work and all the work of the State Police.  Could you comment, 
and could all of you take a moment to comment on this issue of 
data retention by Internet service providers?  A couple of you 
referenced in it in your oral testimony and some of you have 
referenced it in your written testimony as well.  This is an issue 
which is coming up now, and if some consensus is not reached on 
this, it may require legislative action to kind of bridge this divide.  
We have law enforcement who are asking for longer, at least 2 
years of data retention, and some privacy organizations and ISPs 
themselves that have some issues with that.  Can you comment on 
that specifically, and would you each take a moment to comment 
on that?
	MR. RODGERS.  I am going to speak in general terms, Mr. 
Congressman.
	MR. FERGUSON.  Could you just turn to the microphone to face 
you?
	MR. RODGERS.  And I am going to turn my time over to my 
lieutenant, Tony Ritter.  It is a problem for us.  The business 
relationship that we maintain with these ISPs, their ability to turn 
information around to us in a timely fashion, the length of time that 
they retain that data in order for us to move forward with effective 
investigations and prosecutions, is critical.  And any manner that 
we could see that memorialized better in legislation to encourage 
these ISPs to assist us in doing what I believe to be God's work is 
critical.  If I may, I will turn it over to Tony to speak more in 
depth.
	MR. RITTER.  Congressman, one of the cases Lieutenant 
Colonel Rodgers spoke of was the Guardian case, where we 
arrested 39 individuals.  We actually received a hundred and ten 
referrals.  Seventy of those were lost as a result of us not having 
the ability to retrieve records.
	MR. FERGUSON.  So there are 70 folks out there who you have 
a referral to perhaps prosecute, but you couldn't do it because you 
didn't have the information because it wasn't retained by the ISPs, 
is that correct?
	MR. RITTER.  That is correct.
	MR. FERGUSON.  Okay.
	MR. RITTER.  And when we ask for you to stand behind 
CALEA, changes in CALEA, we are not asking for anything more 
than we get now.  We are just asking that it apply to the emerging 
communications technologies.
	MR. FERGUSON.  Are there any particular ISPs that you feel are 
particularly troublesome in dealing with or not as cooperative as 
others?  Is everyone cooperative?
	MR. RITTER.  We have had issues with all of them on occasion.  
I don't want to point the finger at any particular one, but we have 
had, at times, issues with Comcast.  I know they have increased 
their data retention schedule, I believe, to 180 days.  I am not sure 
of the timeframe.  We have had issues with AOL.  AOL is one of 
the companies that does not take our legal documents.  They have 
to be rewritten down in Virginia before they are processed.  So you 
know, that adds a little bit of time to the process as well.  There are 
some ISPs, some of the smaller ones, that don't retain records at all 
for dynamic IP addressing.  So I think everyone, including 
ourselves, need to step it up.
	MR. FORREST.  This has to be done a Federal level.  Obviously 
we can't and it has to require Federal legislation nationally.  Even 
that won't solve the problem, but the bottom line is, U.S. Attorney 
Christie said it, most of these people think they are in the privacy 
of their own home; they are not going to get caught.  Most of them 
are right.  However, when we do catch them, that is what we hear 
from them.  Oh, I didn't think I was doing anything wrong.  Or, oh, 
I never thought you were going to find out.  And the reason they 
think that is because either the ISPs don't keep the data for a long 
enough period of time.  We have a hard time getting it from them.  
Earlier, somebody talked about following the money.  We need 
cooperation there.  So in order to make a meaningful step in 
fighting this most challenging crime that I have ever had 
experience with, everybody has to cooperate, and everybody 
means whoever all the players are today or whoever may join the 
team later as a player tomorrow.  And that has to be mandated by 
Federal legislation.  There is no other way around it.  We can't do 
it in New Jersey and with State legislation, we can't do it, clearly, 
in Somerset County.
	And this is not my area of expertise.  All I know is that the 
obvious is before us.  This is going on internationally and people 
that are doing business in the United States of America have to 
abide by certain regulations, which now don't exist, and they have 
to--and that would make our job easier.  I think it would prevent 
people through deterrence, because most of the people that we 
have arrested in Somerset County, if I were to march them in here 
now, they are not public enemy number one.  They are successful 
and liked school teachers, a police officer who is well thought of, 
other professionals.  And we may be able to prevent them from 
doing something that they think they could otherwise do and get 
away with.
	MR. BANKS.  I would just like to echo what Lieutenant Ritter 
said.  We have had a lot of cases where I am sending subpoenas 
out on a daily basis, over a hundred subpoenas in a year, and I 
would say about 25 to 50 percent of those subpoenas come back 
nothing because the ISPs don't keep the records.  That is a big 
problem, whether it is--
	MR. FERGUSON.  How many?
	MR. BANKS.  I would say about 50 percent of our subpoenas 
sometimes come back with no records, and mainly because we are 
dealing with a lot of theft cases, credit card cases, and a lot of 
victims would wait and call beyond 30 days.  So the police officer 
would take the report and try and act on his investigation, but he 
would call me requesting a subpoena and we would send it out and 
the record would be not available.
	MR. FERGUSON.  You had mentioned you thought 2 years was 
a minimum of how long you thought ISPs should have to retain 
data, is that correct?
	MR. RITTER.  That is correct.
	MR. FERGUSON.  What is your thought?
	MR. BANKS.  I would say 2 years would be excellent.  That 
would be good.
	MR. FERGUSON.  Any other thoughts from the panel?
	MR. RITTER.  Sir, we find sometimes that leads that we develop 
extend the length of the investigation, many leads on these 
computers, and by the time we say, oh, we have got somewhere we 
need to go, there is nothing to go to.
	MR. FERGUSON.  In this operation that you had mentioned 
before, you had 39 folks that you got, 70 who you couldn't get.
	MR. RITTER.  Couldn't get records on.
	MR. FERGUSON.  Because you couldn't get records.  And you 
are saying that 50 percent of the subpoenas that you send out on 
this topic, on this issue, can't be responded to because--
	MR. BANKS.  Because the record is not available.
	MR. FERGUSON.  --the records don't exist.  That is right?
	MR. BANKS.  And it is basically a dead end on that 
investigation.  There is nothing else the detective can do.
	MR. FERGUSON.  Can we talk about ICAC for a little bit?  
Everyone seems to feel like ICAC is really moving the ball 
forward, and the cooperation that exists is very positive.  The 
success of the operation is very good, but you have all heard about 
resources being stretched.  Would you each talk about your 
involvement with the ICAC here in New Jersey?  I know you 
talked about you have the opportunity to lead ICAC at the State 
Police.  Talk about it, if you would, in terms of resources, what 
you do with the money you get through the ICAC funding, what 
you would do with more ICAC funding, if you had it, and because 
you have certain personnel assigned to ICAC, what would they be 
doing were they not on ICAC, and what is the trade-off?  Do you 
see what I am saying?
	MR. RODGERS.  Yes, sir.  I would like to begin by saying 
ICAC, to me, really embodies the two principal recommendations 
in a national intelligence sharing plan and in the 9/11 Report, unity 
of effort and true intelligence sharing.  That is what happens every 
day with the folks that are assigned to the task force.  Would it not 
be for the funding that is provided to us through ICAC specifically 
for training, we would not be able to keep our people up to speed 
with the technology advancements that are out there every day.  
Mr. Christie made reference to it before with his U.S. attorneys 
making light of the fact that he has one that has remained 
consistent and he moves the others through there, and they do so 
for good reason.  The type of work that is being conducted by these 
investigators and prosecutors is very difficult, and I will leave it at 
that.  It is not something that I would want to expose our personnel 
to for an extended period of time; yet the skill sets that they 
develop through the ICAC training become very difficult to 
replicate and become invaluable to moving these cases forward.  
Our ability to continue to get additional folks trained and move 
them for the couple years to develop the skill sets and then 
ultimately apply those skill sets and then move them out and bring 
new people in so that we don't burn them out doing this type of 
work is critical.  That is very difficult to do though, even with the 
resources that are provided to us today through ICAC.  We need 
more.  We need to train more people.  We need to move people 
through here.  As Mr. Forrest has said, in his career--and I can 
certainly second that, I have seen nothing like this, the 
advancements of this type of criminal activity.  It is unprecedented.  
We need to bring more people into the fold that have these skill 
sets, and the only way we are going to be able to do that is through 
ICAC.
	MR. FERGUSON.  So the ICAC funding you receive goes 
specifically to what?
	MR. RODGERS.  To training our people and develop the skill 
sets to do this type of technical work.  It also helps us network with 
our allied partners and train the community through different 
educational associations and law enforcement associations.
	MR. FERGUSON.  And if you had more funding, you would use 
it for?
	MR. RODGERS.  Well, we would be able to enlighten that many 
more officers in our organization and in others to do this type of 
work.  Again, it is unique work, not your typical police work.  And 
it is not something where you can train people up and leave them 
in there indefinitely.  To do so you are really neglecting those 
individuals personally.  And we make it a point to ensure they go 
through our counseling program on a regular basis.  But to simply 
extend that benefit to them and leave them there in perpetuity 
would be negligent on our part.  So we have to continue to move 
people through this, and to do so we need continued training and 
resources.
	MR. FERGUSON.  Does anyone have anything they want to add 
to that, because I want to move to a different topic.
	MR. RITTER.  Yes, sir, if I could, briefly.  A large part of the 
mission is to expand this task force.  Everyone acknowledges the 
need.  So what we are trying to do is get task force members to 
sign up for a minimum of 6 months, preferably a year.  We feel it 
takes a full 2 years of doing this work to even be comfortable, and 
even then you are not really comfortable.  And in those 6 months, 
we try to get them basic computer training so they understand the 
technology of computers.  We try to get them basic Internet 
investigative skills.  We try to get them basic forensic skills so they 
know how to analyze things in the field.  That is a lot for 6 months, 
while they are shoulder to shoulder with our best detectives, going 
case after case.  And then should they leave in 6 months or 12 
months, we try and send them with some hardware.  If they don't 
have the resource back in their agency, we help to send them back 
with the hardware and software tools so that they can continue 
working as an arm of our task force.
	MR. BANKS.  If I can just add.  We received a $45,000 ICAC 
grant back in--I believe it was 2001, and that money was very, very 
helpful to our task force members.  When they came to our office 
for 3 to 4 months of training they received good training.  And if 
the money was continuous after the 2 years, we could have 
continued with the training and just like Lieutenant Ritter said, 
send some equipment back with them to their department.  And 
once that funding ended, it was kind of slow getting members to 
continue coming back and working in the task force.
	MR. FERGUSON.  I want to move to a different topic.  Now, Mr. 
Forrest, you had talked about, in your testimony, this term 
"grooming," this process that happens with a potential predator and 
a potential victim.  That is a term we have heard in our hearings.  
Can you describe a little bit more of what you have seen and what 
your team has seen in terms of how this "grooming" process takes 
place?  What happens?
	MR. FORREST.  Actually, he could probably do it better than I.  
He has probably been "groomed" when he portrays a victim, by 
some of these pedophiles.  You may be better to do that.
	MR. FERGUSON.  Mr. Banks, would you mind?
	MR. BANKS.  Sure.  The "grooming" process is almost like a 
text book that these predators read on how to talk to children.  First 
of all, the suspects do their homework.  They will go onto AOL's 
database and they will search the database for people that may 
interest them, children.  So once they find several kids that interest 
them, they may be 13 or 14 years old, the kids that reveal so much 
information.
	MR. FERGUSON.  I am sorry.  What database are you talking 
about?
	MR. BANKS.  AOL's.  AOL has an online database for 
members to search other members to associate.
	MR. FERGUSON.  So you can just go in?  I have not done that.
	MR. BANKS.  Yes.
	MR. FERGUSON.  You can go in and search for other members 
in AOL's database that they provide to their members?
	MR. BANKS.  Exactly, yes.  If you are an AOL member, you 
can log on and search--
	MR. FERGUSON.  And look at other people's profiles?
	MR. BANKS.  Exactly.  So once these predators do their 
homework, they will find the kids that they want to put on their 
friends list, their buddies list, and they will start chatting with 
them.  Now, they may start out slow.  They will start out--they will 
find out from the kid's buddy list, from their profile--excuse me--
what their interests are.  Once they find out what the interests are, 
they will start chatting with them and talk about those same 
interests.  And they will eventually start to send pictures.  They 
may send pictures of clothed people, and then they will send 
pictures of some partially removed clothing or they will start 
talking about sex, and this victim will feel comfortable with talking 
with this predator, because they are talking about things that their 
parents don't talk to them about, sex.  And they are curious and 
this intrigues their interest and that is how the grooming process 
starts, and it ends with a sexual encounter most times.
	MR. FERGUSON.  Would you talk a little bit more about--we 
have heard a little bit that there is--these predators are teachers or 
law enforcement, police officer I think you said.  Two things.  Is 
there a description of a typical predator?  And also, is there a 
profile of a typical victim?  Is there a certain age group?  Is there a 
certain type of young person who ends up being the victim more 
often than not, or that is particularly targeted by these predators?
	MR. BANKS.  I would say that there is no particular profile of 
the predator.  We haven't determined that.  There is no profile.  A 
predator could be any background.  That is number one.  And we 
have not determined if there is a profile for a predator.  The 
victims, I would say, from conducting these investigations with 
partners in law enforcement, I would say most victims would be 
shy children that may not have many friends in school, they are out 
of the social norm, and they are more subject to having online 
buddies, because the people at school may not become their 
friends.  So they want to seek friends online, and that is where 
MySpace comes into play, the social Web portals, and a lot of the 
online programs.
	MR. FORREST.  What we have seen, Congressman, in Somerset 
County is the people that walk into the 7-Elevens and come from 
other counties, more urban areas, come here in a stolen car and 
stick up the 7-Eleven, is not the same person that now has a 
sophisticated computer in their private home, because they don't 
have a home and they don't have a computer.  The profile of the 
defendants that we have arrested, and I have given to you in the 
written statement, are people generally in their forties, generally 
affluent, generally successful, generally married, generally with 
children, and that is just for us.  You know, we are just a 
microcosm here, and maybe throughout the State, the State Police 
can say they have seen something completely different.  But that is 
what we have seen in our county.
	And similarly with the victims, we have seen mostly females, 
although we have had male victims.  They are mostly people who 
do not have their parents looking over their shoulders day and 
night.  They are mostly young men and women who do not have 
the computer in the kitchen, in the family room, where there is a 
lot of traffic.  There are a lot of children that are home alone.  
Predators know a good time to speak to them would be between 
getting out of school and before dinner when the parents get home 
and they may be home alone.  Typically, when we have actually 
seen the children ourselves, it is generally not the cheerleader on 
the team or the captain of a team.  It is someone, as Detective 
Banks was saying, that may be a little bit more looking for 
friendship and that is why they are on a computer, and that is why 
they are more susceptible to being "groomed" and more 
susceptible to going to the Bridgewater Mall, the Bridgewater 
Sports Arena, to meet this person.  Like in Wahler's case, who, if I 
recall correctly, initially told the victim that he was around 14, 15 
years old.  Then he said, well, I am really 17 years old, and all of 
this that takes place, takes place.  But it turned out that he was in 
his 40s, maybe like 48, and then sexually assaulted her.  So we 
have seen a group of defendants who fit into general characteristics 
that I think is telling.  Now again, I have no familiarity with what 
goes elsewhere in the State, but that is what we have seen here.
	MR. FERGUSON.  I have covered a lot of ground, Mr. Chairman.  
I yield back.
	MR. WHITFIELD.  Okay.  Thank you, Congressman Ferguson.  
Mr. Banks, you did mention in your testimony about a young lady 
named Judy.  What was that last name, Cajuste?
	MR. BANKS.  Yes, sir.
	MR. WHITFIELD.  And she lived in Union County?
	MR. BANKS.  Yes, sir.
	MR. WHITFIELD.  And she was 14 years old?
	MR. BANKS.  Yes.
	MR. WHITFIELD.  And she was actually murdered, is that 
correct?
	MR. BANKS.  Yes.
	MR. WHITFIELD.  And is that an ongoing investigation?
	MR. BANKS.  Yes, it is.  I can't reveal too much information 
about the case.  It is ongoing.
	MR. WHITFIELD.  But she did have a MySpace account?
	MR. BANKS.  Yes.
	MR. WHITFIELD.  Okay.  Now, you also mentioned and I 
believe Mr. Rodgers mentioned briefly your efforts to provide 
some educational opportunities for programs for schools and 
students, and I was wondering if you all could elaborate on that 
just a little bit, and do you work at all with i-MENTOR or 
WiredSafety, or is that something that you are not really involved 
in with those programs?
	MR. RODGERS.  May I defer to Lieutenant Ritter?  Tony?
	MR. BANKS.  The two programs that we are involved with, the 
first program is the Internet and Your Child.  That program was 
created by Leann Shirey.  She is a sergeant at Seattle P.D.  She 
received a Federal grant several years ago and that program is 
designed to have parents come into a computer lab, sit down 
behind a terminal, and learn what their kids know about the 
Internet.  It is a 4-day course.  It is free.  They receive a three-ring 
binder with a bunch of material, and learn about the in-semester 
programs, MySpace and what have you.  That is the first program 
and we have been doing that since early--I think it was around 
2002 we started that program.  The other program is i-SAFE, 
which you all know about i-SAFE, which is an awesome program 
geared for law enforcement, educators, and concerned parents to 
be trained.  It is an online training program.  It also is geared for 
detectives or educators to educate people at lecture settings at PTA 
groups, meetings and things like that.
	MR. WHITFIELD.  And you do a lot of that?
	MR. RITTER.  Yes, we do.
	MR. WHITFIELD.  And Mr. Rodgers, you all--
	MR. RODGERS.  We have trained over 30,000 around the State 
of New Jersey in the last number of years, and it is from the 
different educational associations and law enforcement 
associations.  The specific programs, I would have to defer to 
Lieutenant Ritter to speak to.
	MR. RITTER.  My understanding is there are about two million 
children in the State of New Jersey, so reaching 30,000 is not a lot, 
although we think it is a lot.  The ICAC Task Force does partner 
with NetSafe and they do endorse i-SAFE, and they both provide a 
great deal of very positive materials.
	MR. WHITFIELD.  Well, you don't have any sort of a hotline in 
the event that some young child feels like that maybe they are 
talking to someone that is not who they think they are?  Do you 
have any sort of hotline?
	MR. RITTER.  Hotlines are hard to find on the Internet.
	MR. WHITFIELD.  Are what?
	MR. RITTER.  They are hard to find on the Internet.
	MR. WHITFIELD.  Okay.
	MR. RITTER.  We do have a 24-hour capability.
	MR. WHITFIELD.  Right.
	MR. RITTER.  However, if you have ever searched the Internet 
and you have come across anything, there isn't a magic button to 
press to take you to law enforcement, or even to report it.  And 
many times, if you go to websites and look for online safety 
materials, it takes a concerted effort to get there.
	MR. WHITFIELD.  And that would be a useful tool to have, I 
would think.  I know, in Great Britain, they do have a program like 
that, where you can go to a red button and touch and give the 
information, but I don't think we have a national program like that 
in the United States.
	MR. RODGERS.  If I may, Mr. Chairman?  To put in perspective 
here with cyber tips, we also--our high tech folks do that type of 
work, and how many did we receive last year, cyber tips?  Sixty-
five thousand, I believe.
	MR. WHITFIELD.  Sixty-five thousand.
	MR. RODGERS.  That is cyber fraud.  And as Tony had just 
testified to, we are the largest game in town and we only have 10 
folks assigned full time to doing that.  So they are doing both the 
Internet predator work and also cyber fraud.
	MR. WHITFIELD.  So everybody needs more funds and more 
manpower, really, to deal with this.
	MR. RODGERS.  It is a huge problem.
	MR. FORREST.  While you were out, Mr. Chairman, I had 
mentioned to Congressman Ferguson that one of the most 
important things we do is training for parents and children.  In your 
packet, you were given a total of 80 slides.  It is a PowerPoint 
presentation that we present to our various schools and parent 
organizations.  And this is also on our website.  And you were 
asking about a hotline.  We have an Internet hotline on our website 
and then we also have a toll-free number as well.  We have 
brochures such as this, which is also--and we will give you copies 
of all of this which we give out to parents, we give out to students, 
and then we put these in the schools and we also give them the 
programs for the parents and the students to take home.  It is a 
mouse pad, obviously.  And it gives the rules of the Internet.  We 
tell the parents to go over this with the children.  And when they 
are fighting with their kids about moving the computer out of the 
room they will blame it on us.  And we will say, well, the 
prosecutor's office told us we had to do it, so your parents aren't 
the mean people, it is the prosecutor's office, which is fine.  So it is 
important to educate the public.  We try to do that.  We try to make 
it a priority.  We get a number of tips over our Internet line, our 
website, and we also get a number of tips over our toll-free 
telephone line as well.
	MR. WHITFIELD.  Well, I want to thank all of you for the great 
work that you are doing and the leadership that you are providing, 
and we genuinely appreciate the insights that you gave us and we 
look forward to working with you as we continue our efforts in this 
arena.  So thank you very much.
	MR. FERGUSON.  Thank you.
	MR. RITTER.  Thank you.
	MR. BANKS.  Thank you.
	MR. WHITFIELD.  At this time, I would like to call up the fourth 
panel, and that is Mr. David S. Livingston, who is the 
Superintendent of Schools for Somerset County, New Jersey, and 
he is going to be accompanied by Mr. Mike Herrera, who is the 
Vice Principal of the Somerset County Vocational and Technical 
High School.
	MR. FERGUSON.  I think there is another--there is more to the 
panel.
	MR. WHITFIELD.  Oh, there is more?  Okay.  I thought we had a 
separate panel, but we are going to call up some other witnesses to 
be a part of your panel, Mr. Livingston.  I am also going to ask Ms. 
Parry Aftab, who is the Executive Director of WiredSafety, who is 
from Irvington-on-Hudson, New York.  And then Ms. Shannon 
Sullivan, who is a Teen Angel with WiredSafety, and also from 
Irvington-on-Hudson, New York.  And then Ms. Samantha Hahn, 
who is i-MENTOR, i-SAFE America, from here in New Jersey.  
So if you all would all come up and hopefully, do we have enough 
room for everybody?
	MR. FERGUSON.  Sure.
	MR. WHITFIELD.  And do we have nameplates for everybody?
	MR. FERGUSON.  I am just getting them out now.
	MR. WHITFIELD.  He is getting them out.  All right.  And if you 
all would remain standing, as you know, we like to take testimony 
under oath with Oversight and Investigations, and I know some of 
you have been before our committee before.  So if you would raise 
your right hand?
	[Witnesses sworn]
	MR. WHITFIELD.  Thank you.  Well, you are sworn in now and, 
Mr. Livingston, we will begin with you and we will recognize you 
for 5 minutes for your opening statement.

STATEMENTS OF DAVID S. LIVINGSTON, SUPERINTENDENT OF SCHOOLS, SOMERSET 
COUNTY, NEW JERSEY, ACCOMPANIED BY MIKE HERRERA, VICE PRINCIPAL, SOMERSET 
COUNTY VOCATIONAL AND TECHNICAL HIGH SCHOOL; PARRY AFTAB, EXECUTIVE DIRECTOR, 
WIREDSAFETY; SHANNON SULLIVAN, TEEN ANGEL, WIREDSAFETY; AND SAMANTHA HAHN, 
i-MENTOR, i-SAFE AMERICA

        MR. LIVINGSTON.  Thank you very much, Congressman.  I am 
pleased to be here and present information.
	MR. WHITFIELD.  And if you all would move the microphone 
over to Mr. Livingston, I would appreciate that.
	MR. LIVINGSTON.  Okay.  Can you hear me now?
	MR. WHITFIELD.  Yes, sir.
	MR. LIVINGSTON.  I work as a representative of the 
Commissioner of Education in this county, and we have about 
55,000 students, 79 schools, and 19 districts, and each has its own 
chief school administrator or superintendent, business 
administrator as well curriculum coordinators, and principals.  I 
also work with them on a regular basis.  On monthly meetings, we 
meet and do trainings and so on, and my office gets involved in 
many things.  We are generally doing--all kinds of issues come up 
that we get involved with.  Of course, Internet issues and safety are 
one of those issues that keep cropping up and have been around for 
a long time.
	In each of our districts there are technology coordinators.  It is 
their job to assure that the hardware and software is up to date, is 
working, and that servers and systems are secure from misuse or 
abuse of policy.  Each district requires every student to sign a 
contract, stating that they will not violate school policy and restrict 
the use of Internet to approved websites.  Any violation will result 
in the loss of access to the Internet.  And each student has his own 
ID number that tracks all use.  There is an elaborate software 
system that blocks sites such as MySpace and Photobucket and all 
other kinds of sites that they consider obscene or in violation of 
board policy.
	I have also attached to the testimony a copy of a letter that 
went out from one of our superintendents and it was shared with all 
the rest who did the same thing, in which they note--the major 
problem that I hear from them is a lack of monitoring by parents of 
their minor children's activities on cell phones, personal Web 
pages, and the Internet at home.  They do not indicate there is a 
problem with pedophiles at the school level.  Now that is not a 
sample of every superintendent, but at the meetings we have talked 
about this and it has been clear that that is not the major issue that 
they face at the school level, given the fact that students know that 
it is being monitored.
	As the prosecutor mentioned to you, Prosecutor Forrest, I have 
been in the county also 9 years, I have been in education 38 years, 
and we have done a lot of trainings together over various issues, 
whether it be weapons, harassment, bullying, and one of the 
trainings that we are going to be doing in the fall with the 
prosecutor's office is Internet safety.  That has cropped up because 
of what you are hearing today, in an attempt to bring to focus 
conscious-level thinking what superintendents, principals, all kinds 
of technology people and teachers are dealing with and how to deal 
better with problems of Internet safety at the school level and also 
in terms of students--and better educate students in terms of 
Internet safety.
	So not only will I be doing Internet safety, but bullying and 
harassment and other abuses are also going to be covered in this 
workshop, because there are requirements in New Jersey for 
bullying policies and implementation of trainings for all teachers.  
There were also memoranda of agreements that are annually 
updated and reinforced between law enforcement and school 
officials that every New Jersey district must implement.  These 
contain agreements and protocols between law enforcement and 
educators so as to create better understanding of how to deal with 
an arrest or how to deal with a violation or possibly how to 
cooperate in apprehending criminal behavior.
	In short, the recommendations that in the short time I had to 
research, were that we make available training lessons on Internet 
safety protocols for parents and school districts to use with 
teaching staff.  And as I mentioned, we are planning to do that this 
fall with the prosecutor's office.  They are well trained and well 
equipped, as you heard, and have been working with parents for a 
number of years on this problem.  Also, one of the things that I 
guess I don't know if you can do anything about, but I hear it over 
and over again, is to make parents and guardians responsible for 
monitoring minor children's Web pages and e-mail 
correspondence in their homes.  It is very easy to say; it is not very 
easy to do.  And one of the things that isn't mentioned here but is, 
unfortunately, in these trainings that do occur, whether it be done 
by the prosecutor's office or by the school, very few parents turn 
out for those trainings, and so they are unaware.  In many cases 
you are preaching to the choir of those people that come out to do 
it.  Some districts are doing this on back-to-school nights in an 
effort to get at the audience, a bigger audience, if they can and they 
will include it in that setting and that is not a bad idea.
	The other thing that I hear a lot about are freedom of speech 
concerns raised by such groups as the ACLU.  And parents having 
easy access to sites their children may be abusing.  Restrictions on 
access do hamper some police investigations as well.  We hear 
that.  The problem of monitoring proxy sites in the school setting is 
ongoing, also, I am told by technology coordinators.  Students use 
a proxy server such as vtunnel.com and can gain access to sites not 
picked up or filtered by the district's software.  So as a result, 
technology coordinators nightly are updating their filters with new 
words, new words that may be very innocuous, that you would 
never think would lead to an obscene website.
	So coordinators and school officials I talk with really have no 
recommended legislation other than to require districts to have 
signed contracts between parents, guardians, minors and the 
school, agreeing not to violate school policy, and such contracts 
should be routinely collected annually from all students using the 
school Internet services.  And I have attached newspaper articles, 
also.  The headlines talk about "Kids: Site Only As Dangerous As 
The User," and that is a recent article, May 14, talking about the 
problems with MySpace; and a second one which is two different 
people from Howell Township, a rather large district in Mercer 
County.  Tom Letson mentions that students--he says the problem 
is when kids have access to the Internet without any supervision, 
you get abuses.  And if you are not going to monitor the computer, 
he says, then don't let youngsters have their own access.  Of course 
the other person mentioned in the article is a technology manager 
in that district, and he says it all comes back to mom and dad or the 
guardians.  Don't permit the computer to be located in the 
bedroom.  Don't allow pictures to be posted.
	So I think, from our standpoint, we are really aggressively 
going to look at training and what we can do with training in terms 
of our administrators and teachers and principals using the 
partnership with the prosecutor's office, because they are much 
more expert in terms of all of the problems that occur.  Thank you.
	[The prepared statement of David S. Livingston follows:]

PREPARED STATEMENT OF DAVIS S. LIVINGSTON, SUPERINTENDENT 
OF SCHOOLS, SOMERSET COUNTY, NEW JERSEY

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

        MR. WHITFIELD.  Thank you, Mr. Livingston.  And Mr. Herrera, I 
understand that you are not going to give an opening statement, is 
that correct?
	MR. HERRERA.  I can if--
	MR. WHITFIELD.  Okay.  And keep in the 5 minutes because we 
are running out of time.
	MR. HERRERA.  Okay.
Members of the committee, my name is Mike Herrera, 
Assistant Principal of Somerset County Vocational and Technical 
High School and father of three children.  I graduated from Seton 
Hall University through the Seton Worldwide Program in 
Educational Leadership.  Seton Worldwide is an online program 
that provided me with the opportunity to learn anytime, anywhere.  
My cohorts included educators from Georgia, New Jersey, 
Pennsylvania, and Rome, Italy.  As a school administrator, I am 
familiar with the paradigm of removing the walls of the classroom 
while setting up barriers to protect my students.
	I would like to talk about how our district views our role as 
surrogate parents.  Students are provided with a proactive, 
therapeutic approach to the Internet and bullying and harassment.  
The Somerset County Vocational High School is fortunate to have 
a school-based onsite program that includes various community 
services such as a conflict resolution specialist through Richard 
Hall Mental Health Community Center, and a school resource 
officer through the sheriff's departments, and various other 
community resources.  We have taken advantage of the State 
Police's high-tech crimes unit on Internet safety.  We chose to 
focus on our instructors for the initial presentation.  It is my belief 
and hope that our close-knit faculty can positively influence the 
behavior and character of our students.  It has been my experience 
that a majority of parents are not spending enough meaningful 
conversation with their children, as Mr. Rodgers referenced earlier.  
Most of the information is coming from peer-to-peer or over the 
social network sites.  We hope to combat this problem with 
members of our close-knit faculty.
	Prosecutor Forrest discussed grooming earlier of students in 
negative terms.  The Somerset County Vocational and Technical 
High School faculty is proactive in identifying students to groom 
in such areas as confidence, conflict resolution, and 
encouragement.
        MR. WHITFIELD.  Thanks so much, Mr. Herrera.  And Ms. 
Aftab, you are recognized for 5 minutes.
        MS. AFTAB.  Thank you very much, Mr. Chairman, and 
welcome to the State of New Jersey.  I appreciate the opportunity 
to testify again before the subcommittee and it is nice to do it from 
home.  We were identified as being from Irvington-on-Hudson, 
that is our legal address for WiredSafety, but we actually operate 
out of New Jersey.  And when I used to earn money as an Internet 
privacy and security lawyer, I used to be able to afford to live in 
Hunderdon County.  Now I can't, so I live in Bergen, which is an 
interesting State.  I am an Internet privacy and security lawyer.  I 
have dedicated the last almost 10 years of my life to protecting 
children online.  It started when I saw an image of a three and a 
half year old being raped; it changed my life.  I describe it often as 
having a branding iron applied to your brain.  After I vomited and 
cried for a while, I ended up selling a very expensive home and 
emptying my bank accounts and my retirement accounts, thinking 
that the corporations that used to hire me, Yahoo, AOL, Disney, 
would happily take our advice for free.  I have 11,000 volunteers in 
WiredSafety.  We are all unpaid.  We are in 76 countries around 
the world, but most of my volunteers, the ones I rely on the most to 
operate are here in New Jersey, because I see them.  You will be 
meeting Shannon again.  Shannon is one of our Teen Angels.  I 
have Teen Angels in your district, Mr. Ferguson, but they are on 
vacation this week, so you have a substitute Teen Angel here.
	The problem here in New Jersey is not a new one.  The first 
case that we followed on prosecution here in New Jersey was the 
Paul Brown case in 1996, where the U.S. Attorney, the Department 
of Justice prosecuted a man from Ohio who was in his 40s.  He 
weighed about 400 pounds; he was an out-of-work postal worker; 
he lived in the basement of his ex-wife's house.  He had found a 
young girl from Cedar Grove, New Jersey, which is in Essex 
County, met her online and promised her special access to 
celebrities.  It was a boy band at the time and actually it was 
probably NSYNC, and some earlier issue, none of us knew what 
NSYNC was at that time.  But he said he knew this boy band and if 
she would send him pictures, he would get it to the boy band.  She 
did.  He asked for sexier ones and they became sexier and sexier.  
Her mother, ironically, was a teacher.  She was a single parent, 
which is a classic, classic profile of a typical victim.  When she 
found out who he was, this was turned over and he was prosecuted 
and went to jail.  It was one of the very first cases reported 
anywhere in the United States; that was 10 years ago, and it started 
here in New Jersey.
	We actually recognized over the years--I have been doing this 
for a very long time--that an awful lot of the cases come from New 
Jersey.  We are wired.  We live in a world where parents have two 
jobs, either because they are fortunate enough or because they have 
to.  The kids have easy access to superhighways.  People can get in 
and out of the State very easily.  These are all things that can lead 
to trouble.  When you had asked previously about a typical profile 
of a victim, actually there are two profiles.  The profile that had 
been testified to is--the wonderful man from Union County--about 
the loner is the typical profile we thought existed until 4 years ago.  
Those are the cases that are reported, and the big problem here is, 
as we are looking at these issues, we really don't know anything 
more than what is reported.  It is all anecdotal.  Even the brilliant 
work done by National Center for Missing and Exploited Children, 
or the ICACs, or Innocent Images.  None of us really know.  We 
only know what the kids have reported.  So the kids who report are 
11 and a half to 15.  Now that has aged up a little bit because of 
social networks.  Now it is 11 and a half to 16.  They are the 
loners.  They come from dysfunctional homes, although that seems 
to be most of the households in the United States these days.  Often 
single-family homes or broken homes, even if the parent has 
remarried.  They are wired somewhere at home.  They engage in 
communications, sometimes thinking it is a cute 14-year-old boy, 
sometimes knowing that they are dealing with an adult.  Those are 
the kids who, when something bad happens, report it.
	The other kids surprised us.  Four years ago, in May, a young 
girl named Christina Long was killed.  It was the first confirmed 
death by an Internet sexual predator in the United States.  She was 
from Danbury, Connecticut; she was 13; she was co-captain of the 
cheerleading squad; she was a National Honor Society member; 
very dysfunctional family, not a very good family life at all.  She 
was now living with her aunt, who was trying to get things worked 
out, but she was not classically the victim.  People Magazine called 
and asked me to be the expert on the piece and I said, I don't 
understand it.  We have been talking about the victim being these 
loners and telling the parents, if your kids aren't the loners, you 
can relax.  And now what have we done wrong?  What we found is 
that those kids who are high-risk, they may also come from a 
dysfunctional family.  But those who are high-risk are drinking too 
much, taking too many drugs, driving too fast, doing high-risk 
activities, and Internet sexual predator communications are just 
one of those high-risk activities, and those kids don't report unless 
they are killed or kidnapped.
	So as we look at all of these issues, it is important that we 
recognize the important and crucial work that this committee has 
done.  I have to tell you that I have learned as much as I have tried 
to share.  And in New Jersey, here the committee can learn that we 
have one of the best cyber crime units.  The New Jersey State 
Police is one of the best and one of the first in the world that has 
done this.  They will be recognized in our hearing at First Today 
with our Wired Cops award.  And this committee, and you are 
hearing this for the first time today, will be receiving our Internet 
Superheroes award, which will be given to you by Spiderman in 
the fall, because you have done incredible--
	MR. WHITFIELD.  Well, we look forward to it.  I have never met 
Spiderman.
	MR. FERGUSON.  I have never met Spiderman, either.
	MS. AFTAB.  Well, you will now.  And he is a real marvel, 
Spiderman.  But as we look at these issues, we all have to work 
together.  And I am here in New Jersey and I want everyone in the 
audience that is going to hear this to remember that.  The 201 area 
code is New Jersey, not Washington.  So we are here to help.
	[The prepared statement of Parry Aftab follows:]

PREPARED STATEMENT OF PARRY AFTAB, EXECUTIVE DIRECTOR, 
WIREDSAFETY

SUMMARY 
        Our children are online. They do their homework, entertain 
themselves, communicate with each other and us, research things, 
buy and compare prices online. They need the Internet for their 
education, their careers and for their future. Of all the risks our 
children face online, only one is certain. If we deny our children 
access to these technologies, we have guarantees that they are hurt. 
All other risks are avoidable through a combination of awareness, 
supervision and parental control and other technologies. More and 
more children being lured and stalked by online predators who 
gather information about them from chatrooms, instant messaging, 
e-mails, websites and the like and use this information to become 
close to them.
        With our children walking around with Internet access in their 
backpacks and pocketbooks, we can no longer rely on parents 
watching whatever they do from a central location computer. Our 
children need to learn to use the "filter between their ears" and 
"ThinkB4TheyClick." This requires that we get them involved in 
framing solutions and educating each other. It also requires that we 
find new ways of building good cyber-citizenship and helping the 
kids and parents spot risks in new technologies and protect 
themselves online.
        But we also need to recognize that in most cases our children 
are putting themselves in harm's way. They are intentionally 
sharing risky information online in profiles, blogs and on websites. 
They post their cell numbers on their public away messages when 
using IM technologies. And even when they are careful about 
protecting their own privacy, their close friends may expose 
personal information about them by posting photos and 
information on their profiles. They are also, in greater and greater 
numbers meeting people offline that they met online. Family PC 
Magazine reported that 24% of the teen girls they polled and 16% 
of the teen boys they polled admitted to meeting Internet strangers 
in real life. Our children go willingly to offline meetings with these 
people. They may think they are meeting a cute fourteen year old 
boy, but find that they are meeting a 47- year old child molester 
instead.  This has to stop.
        Smart kids are sharing sexual images online with people they 
don't know, or e-mailing them to others they have a crush on and 
hope to entice. And with the newer video-chats and technologies, 
the predators have moved to luring our kids into posing and 
engaging in sexually explicit activities.
        Yet, the actual statistics are lacking. Everything we know is 
largely anecdotal. In 1999, the FBI's Innocent Images (charged 
with investigating crimes against children online) opened 1500 
new cases of suspects who were attempting to lure a child into an 
offline meeting for the purposes of sex. Based upon my estimates, 
about the same number of cases were opened by state and local law 
enforcement agencies that year. The same year, approximately 25 
million minors used the Internet in the U.S., Now, with more than 
75 million young Internet users in the U.S. we don't know if the 
number of instances have increased, decreased or remain flat, 
given the growth. The crime reporting forms don't collect 
information about the use of the Internet is child sexual 
exploitation crimes, or any other crimes. That has to change.
        We also need to recognize the real risks and what is hype. 
Notwithstanding media reports to the contrary, to my knowledge, 
law enforcement is not aware of anyone who is using the 
information children provide online to seek them out offline, by 
hiding behind a bush or grabbing them on their way home from 
school. They currently agree to meetings (even if they don't admit 
it to the police when things go wrong.) But it's only a matter of 
time before this happens, since universal access to the Internet 
means that even violent sexual offenders who are online can use it 
for their own horrible purposes. 
        WiredSafety.org operates from the computers of its volunteers, 
but its offices are maintained in New Jersey. Our programs began 
here and our deepest roots run here. Sadly, one of the first cases of 
Internet sexual predators also arose here, with a young victim from 
Cedar Grove communicating with a 46 year old predator from 
Ohio. One of the few deaths linked to Internet sexual predators 
also has occurred in New Jersey.  As a lifetime resident of New 
Jersey and a longtime resident of Oldwick, testifying here today 
means more than any other hearing I have attended. With a state of 
children who are wired at home, at school and in their backpacks, 
it is essential that we deliver education and innovative programs to 
families and young people themselves. Let's start here. 


OPENING STATEMENT

SNAPSHOT OF U.S. MINORS ONLINE, IN NEW JERSEY AND 
HOW PREDATORS REACH THEM
        It is estimated that approximately 75 million minors in the 
Unites States access the Internet either from home, schools, 
community centers and libraries or from some newer Internet-
capable device. This is up more than ten-fold since 1996, when 
only 6 million U.S. minors were online. Now our children are 
using cell phones with Internet and text-capability, interactive 
gaming devices (such as X-Box Live and Sony Playstation 
Network) with voice over Internet and live chat features, handheld 
devices with Bluetooth and other remote-communication 
technology (such as PSP gaming devices and mobile phones) and 
social networking profiles (such as MySpace, Facebook, Bebo, 
YFly and others) where they can advertise their favorite things, 
where they live and pictures of themselves and their friends to 
anyone who wants to see them.
        Ten years ago, when I first wrote my safety tips telling parents 
to put the computer in a central location, that made sense. It was a 
central point, where parents could get involved and supervise their 
children's interactive communications and surfing activities. Now, 
where they take their communication technologies with them in 
their pockets, backpacks, and purses, it is not longer as relevant as 
it once was. Now, instead of expecting parents to watch everything 
their children are doing online from the comfort of their 
familyrooms, or kitchen counter, we have to do more. Now, we 
have to teach our children to use the "filter between their ears" and 
exercise good judgment and care when using any interactive 
device. While teaching parents how to supervise their children 
online was a challenge (I have written the leading books, 
worldwide, for parents on Internet safety), teaching children to 
"ThinkB4uClick" is much harder.
        When I was growing up (in the days before electricity and 
indoor plumbing, when we had to walk up hill, both ways!, in 
blizzards to get to school ), parents used to blame us for not 
behaving.  We were disciplinary problems. Now pediatric neuro-
psychologists tell us that preteens and young teens are hardwired, 
through immature brain development, to be unable to control their 
impulses at this age.  Either way, we recognize that preteens and 
teens take risks, don't appreciate the consequences of their actions 
and act before they think. When their audience was their school 
friends, family and neighbors, the risks were containable. When 
they act out where 700 million Internet users can see, it takes on a 
much deeper significance.

Putting Their Heads into the Lion's Mouth
        Now, I will share something very controversial. While 
educators and child psychologists understand this, most parents 
will be shocked at the suggestion that their preteens and teens are 
in control of their safety online and putting themselves at risk, 
often intentionally. But unless we accept this, and direct our 
attentions at solutions aimed at this reality, we are all wasting our 
time. We will focus on the much smaller segments of preteens and 
teens who are being victimized through not fault of their own - 
those who are targeted at random. All others need to change their 
online behaviors. And that's where we need to devote all our 
attentions.
        For this to happen, you need to understand the truth. For years 
we have told parents and minors not to share too much personal 
information online. "You can be tracked down in real life," we told 
them. But, notwithstanding anything to the contrary reported in the 
media and by some local law enforcement officers, to my 
knowledge, to this date, no preteen or teen has been sexually-
exploited by someone who tracked them down from information 
they posted online. In each and every case, to my knowledge, to 
teens and preteens have gone willingly to meet their molester. 
They may have thought they were meeting someone other than the 
46 year old who is posing as a teen, but they knew they didn't 
know this person in real life. They are willingly agreeing to meet 
strangers offline.
        What does this mean? It means we can do something about 
this. It means we can educate teens and preteens about the realities 
of meeting people in real life they only know in cyberspace. It 
means we can create solutions. It means that this is, at least for the 
time being, 100% preventable. It means that what we do today will 
have an immediate impact on the safety of our youth. It means we 
have to join together and work on things that are effective and 
abandon those that are not.
        But we have to act quickly. When I testified before the U.S. 
House Of Representatives, Committee On Commerce, 
Subcommittee On Telecommunications, Trade, And Consumer 
Protection on October 11, 2000, I cautioned:
        Law enforcement is not aware of anyone who is using the 
information children provide online to seek them out offline, 
by hiding behind a bush or grabbing them on their way home 
from school. But it's only a matter of time before this happens, 
since universal access to the Internet means that even violent 
sexual offenders who are online can use it for their own 
horrible purposes. (See Testimony of Parry Aftab, Esq. U.S. 
House Of Representatives, Committee On Commerce, 
Subcommittee On Telecommunications, Trade, And Consumer 
Protection on October 11, 2000.)
        Luckily, while our young people are sharing much more 
information online than ever before, to my knowledge, predators 
aren't using it to hunt down our children offline. They are like 
vampires. They need to be invited in. Sadly, our teens and preteens 
are too often doing just that. They are inviting them to offline 
meetings, phone calls and videochats. But, as an expert in 
cyberrisk management, I can tell you that this is good news. 
Because we have a single point of risk - our children, preteens and 
teens. If we stop their risky and unsafe behaviors, and teach them 
when to reach out for help, we can manage this risk. We can keep 
our children safe.
        Our children are mainly at risk because of their own actions.  
Some are intentional. Others are inadvertent. They may willingly 
engage in communications with people they don't know in real life 
"RL," agree to meet them offline or send them sexually-
provocative images or perform sex acts on webcams they share 
with people they encounter online. They cyberbully each other by 
advertising their victims for sexual services, posting real or 
manufactured sexually explicit  images of them online or by 
passing online rumors able their sexual preferences or activities.
        Preteens and Teens at Risk: Most of the high risk preteens and 
teens fall into three categories: those who are naive and looking for 
love and affection (typically the "loners" and "shy" preteens and 
teens), those who already engage in other high risks activities, such 
as drug and alcohol abuse, driving too fast or doing risky things for 
the thrill of it (often the student leaders, athletes, cheerleaders and 
very competitive teens, the risks takers and thrill seekers looking to 
let off steam or impress their peers) and those who don't realize 
that what they do online is real, the ones who are looking to appear 
older, cooler, more fun and more popular (most of the teens and 
especially preteens fall into this category at least once). Sadly, 
most of our preteens and teens fit one of these categories. Sadder 
still is the fact that in recent years we have learned that most 
preteens and teens are potential victims. 
        Naive, loners and socially-shy preteens and teens: Some 
believe that they are communicating with a cute 14 year old boy, 
who they later discover isn't cute, isn't fourteen and isn't a boy. 
Most of the reported cases fall into this category, and until the 
death of Christina Long four years ago this May, experts all 
believed that all victims fell into this category. They are conned, 
and easy to spot online. Predators can seek them out, and find their 
vulnerabilities. They are groomed with care, and often fall in love 
with their molesters. Sadly, when the molestation finally occurs, 
not only are their bodies broken, their hearts and trust are too.
        They need to understand how the predators work online. Too 
often they tell me that they can "tell" how old someone is online. 
They can't. No one can. Many predators spend years cultivating the 
right tone and language to look like a fellow teen online. 
        These preteens and teens are sitting ducks. While they may 
have learned not to fall for the "help me find my puppy" ploy 
offline, they need to learn how that same ploy (appeal for 
assistance) works online. They need to know how to spot the risks 
and the predators, when online everyone can look like a cute 14 
year old boy. They need to learn that romance shouldn't occur only 
in cyberspace, and that parents can get involved to help them meet 
their soul-mate, assuming they really are. So, if they aren't, and 
turn out to be a 46 year old child molester, they can come home 
safely and help put that molester behind bars where they deserve.
        Risk-takers, Thrill-seeking preteens and teens: Some preteens 
and teens (mainly teens) are looking for the thrills and challenge of 
engaging in a relationship (or at least prolonged communication) 
with an adult. They "play games" with the adult, and are 
intentionally extra sexually-provocative. They think they are smart 
enough to do this without getting hurt.  They see this as a game, 
without realizing the consequences of their actions. And crossing 
the sexual line isn't as frightening online as it would be in real life. 
The problem is that the consequences are not as apparent, the 
realities not as immediate. They take risks. And they think they can 
handle them. (They don't often understand the consequences, 
though.) They often willingly engage in sexual communications 
with men they know are adults. That's part of the thrill. They are 
also often willing to engage in sexual activities with the adult, but 
don't realize what that can mean when things go very wrong. We 
rarely hear about these kinds of victims, because they never report 
it when things go wrong. They feel as though they "asked for it," 
or are to blame. When we hear of these cases, it's because they are 
killed or kidnapped. (Christina Long was in this category. She was 
the first confirmed murder victim of an Internet sexual predator in 
the U.S. and died four years ago this May.)
        Friends are the answer here. If we can get friends too help 
watch out for each other, it is less likely that they will meet adults 
in real life, or if they do, got alone. Also, finding cool 
spokespeople, like Nick Lachey, to explain that it isn't cool to be 
stupid and campaigns such as our "Don't Be Stupid" help. So do 
real life stories from victims themselves about how they got caught 
and advice from the trenches. Kateisplace.org has sections 
specifically directed at this type of victim. And Teen People is an 
important partner of ours in spreading the word.
        Not really a drunken slut, just playing one online:  We've all 
been reading about this new trend in the news (often with me as 
the expert). Good, respectful, otherwise well-mannered preteens 
and teens acting out in cyberspace.  In profiles, blogs, on social 
networking sites and their away messages on IM, on their websites 
and interactive gaming bios, they act out. They pose in their bras, 
or worse. They simulate sexual activities (and in some cases post 
images of actual sexual activities). They pretend to be someone or 
something other than what they really are. And this alter-ego may 
be a sexually promiscuous teen "up for anything." 
        They don't think it is cool to tell others they were home 
coloring with their five year old niece last weekend. Instead they 
claim to have snuck out after everyone was asleep to get drunk at a 
wild party. To them it isn't real. They lie. They pose. They do thing 
online they would never dream of doing in RL. They aren't really 
drunken sluts - they are just playing one online. (Shannon, one of 
our award-winning Teenangels, will share insight into why teens 
and preteens are doing this, during her testimony today.)

The Anatomy of a Cyberpredator: 
        There have been many cases recently where pedophiles and 
other adults have lured children into offline meetings and molested 
them. Luckily, there are even more cases when such attempts to 
lure a child have brought about the attention of law-enforcement 
groups. I debated whether I should discuss any of these cases, 
because I did not want to sensationalize them. But if explaining the 
methods used by offenders might make parents more aware, and 
their children safer, it's worth it.
        Cyberpredators, just like their offline counterparts, usually 
aren't the scary, hairy monsters in trench coats we imagine 
standing on a dark street corner. Many are the kind of person you 
would be inviting to your home as a guest, and often have. They 
are pediatricians, teachers, lawyers, clergy, vice cops, welfare 
workers, journalists, Boy Scout leaders, baseball coaches, 
scientists, etc. They are almost always men. (Sometimes women 
are accomplices, but rarely are women the molesters.) They are 
often articulate and well-educated. They come in all shapes, sizes, 
and colors, and they can be very rich or out of work. But they have 
one thing in common: they want your child. 
        Most of us are sickened at the thought of an adult having 
sexual relations with a child, but to be able to protect our children, 
we must get into the mind of the predator. First of all, predators 
often don't see themselves as predators. They see themselves as 
loving partners with the children they molest. To them this isn't 
rape, it's a seduction. And, as with any seduction, it's a slow and 
painstaking process. (Predators have been known to wait more than 
two years, collecting data on a particular child, before striking.) 
That's what makes them hard to detect. They don't appear to your 
child to be dangerous. 
        An FBI agent who shared a panel with me recently said it best: 
"Before the Internet, these people had to get physically close to 
your children. They had to lurk near schoolyards, or playgrounds. 
Kids would see them. Adults would see them. It was a dangerous 
situation to be in for them, because everyone would notice an adult 
male lurking around children. They often had to take jobs and 
volunteer positions that allowed them to work with children in a 
position of trust in order to reach their victims. Now, however, the 
personal risks the pedophiles had to expose themselves to in order 
to be around children are gone. Now they can be 'one of the kids' 
and hang out with your kids online without exposing themselves. 
As long as they don't say or do something in the public room that 
makes them stand out, they can stay there forever, taking notes."
        And, many of them do. They have been known to create large 
databases on children. They track the children's likes and dislikes. 
They track information such as whose parents are divorced, who 
doesn't like their father's new girlfriend or their mother's 
boyfriend, or who likes computer games or a particular rock group. 
Kids often share personal information about their lives in 
chatrooms or on profiles. This is one reason why they shouldn't. 
The more the predator knows about your child, the more easily 
they can "groom" them or appear to be their soulmate.
        Some cyberpredators (known as "travelers" to law 
enforcement) seek out the good kids, the smart ones, the ones who 
are not street-smart and are from sheltered suburban or rural 
families. Many of our children match that profile perfectly. Others, 
however, target (or are targeted by) popular, super achiever, risk 
preferring teens. It took the death of a young teen from 
Connecticut, Christina Long, before we realized that many of the 
incidents involved teens who did not fit the loner profile. What we 
learned was that these kids never report any attacks or exploitation. 
The only time we hear of these cases is when the teen is kidnapped 
or killed. 
        So who is a typical victim of an Internet sexual predator? 
Anyone between 11-1/2 and 15. All are vulnerable.

It Doesn't Take Torture for Them to Spill Their Guts
        Here's a mock chatroom discussion that my law-enforcement 
friends and I agree is pretty realistic. Imagine a predatorial 
pedophile sitting and taking notes on this child, and using this 
information to lure them later. Would your child fall for this? 
Most, unfortunately, would. This one is more typical of a boy 
victim and predator communication than a girl victim 
communication.

Child: I hate my mom! I know it's her fault that my parents are 
getting divorced.
Predator: I know. My parents are getting divorced, too.
Child: We never have any money anymore, either. Every time 
I need something, she says the same thing: "We can't afford 
it." When my parents were together, I could buy things. Now I 
can't.
Predator: Me too. I hate that!
Child: I waited for six months for the new computer game to 
come out. My mom promised to buy it for me when it came 
out. She promised! Now it's out. Can I buy it? Nope. "We 
don't have enough money!" I hate my mom!
Predator: Oh! I'm so sorry! I got it! I have this really kewl 
uncle who buys me things all the time. He's really rich.
Child: You're sooooo lucky. I wish I had a rich and kewl 
uncle.
Predator: Hey! I got an idea! I'll ask my uncle if he'll buy you 
one too....I told you he's really kewl. I bet he'd say yes.
Child: Really!? Thanks!!
Predator: BRB [cybertalk for "be right back"]... I'll go and call 
him.
- - -
Predator: Guess what? He said okay. He's gonna buy you the 
game!
Child: Wow, really? Thanks. I can't believe it!!!
Predator: Where do you live?
Child: I live in NJ. What about you?
Predator: I live in New York. So does my uncle. New Jersey 
isn't far.
Child: Great!
Predator: Is there a mall near you? We can meet there.
Child: Okay. I live near the GSP Mall.
Predator: I've heard of that. No prob. What about Saturday?
Child: Kewl.
Predator: We can go to McDonald's too if you want. We'll 
meet you there at noon.
Child: Okay. Where?
Predator: In front of the computer game store. Oh! My uncle's 
name is George. He's really kewl.
Child: Great... thanks, I really appreciate it. You're so lucky to 
have a rich and kewl uncle.

        Saturday arrives, and the child goes to the mall and meets an 
adult outside the computer game store. He identifies himself as 
"Uncle George" and explains that his nephew is already at the 
McDonald's waiting for them. The child is uncomfortable, but the 
uncle walks into the store and buys the $100 game. He comes out 
and hands it to the child, who is immediately neutralized and 
delighted. Stranger-danger warnings are not applicable. This isn't a 
stranger-he's "Uncle George," and if any proof was needed, the 
computer game is it. He gets into Uncle George's car without 
hesitation to meet his friend at McDonald's. The rest is reported on 
the 6 o'clock news.

        It's disgusting. It makes us sick to our stomachs, but it 
happens. Not very often, but often enough that you need to be 
forewarned. (Several thousand cyberpredator cases are opened 
each year by law enforcement agents in the United States.) But no 
matter how often it happens, even once is too often. Knowing how 
they operate and the tricks of the trade will help us teach our child 
how to avoid being victimized. Each case differs, but the predators 
tend to use the same general tactics. Aside from the "bait and 
switch" scam discussed above, they often attempt to seduce a 
child. They want the child to "want" them. 

The Script-How They Operate Online 
        They begin by striking up a conversation with the child, trying 
to create a relationship of trust and friendship. They often 
masquerade as another child or teenager, typically of the opposite 
sex, unless the child has indicated homosexual interests. (The child 
may or may not know the "seducer's" real age by the time they 
meet face-to-face.) Phone calls usually start at this point. 
Sometimes gifts are sent to the child as well, which may include a 
Polaroid camera and film. Once they have broken down barriers of 
caution, they begin introducing sexual topics gradually, often with 
the use of child pornography to give the child the impression that 
other children are regularly involved in sexual activities. 
        Then they begin to approach the child's own sexuality and 
curiosity, by asking questions and giving them "assignments," like 
wearing special underwear, sending sexually suggestive photos of 
themselves to the pedophile, or performing certain sexual acts. 
These assignments eventually broaden to the exchange of sexually 
explicit photographs (using the Polaroid, cell phone camera or 
digital camera) or videos of the child. Finally, the pedophile 
attempts to arrange a face-to-face meeting. (He may also have 
divulged his true age or an age closer to his actual age at this 
point.) 

Why It Works
        All the lectures we have given our children from the time they 
are very young about not talking to strangers aren't applicable 
online, where everyone is a stranger. A large part of the fun online 
is talking to people you've never met. In addition, our children's 
stranger-danger defenses are not triggered when other kids are 
involved. The warnings apply only to adult strangers, not to other 
children. 
        If any of us walked up to a child in a playground and tried to 
strike up a conversation, they would ignore us and probably run 
away. But if an unknown eleven-year-old came up to another 
eleven-year-old in the same playground, they'd be playing in ten 
seconds flat! That's how the pedophiles get in under our kids' 
stranger-danger radar-they pretend to be other kids. And children 
often believe what they read and hear. They "know" things about 
the predator because they believe what he told them. They also 
believe what they read about him in his "staged" profile, which 
supports what he told them. So it's not just true, it's confirmed. 
        There are many stages at which the pedophile can be thwarted 
by an observant parent. In addition, children with healthy 
friendships and a strong, open, and trusting relationship with their 
parents are less likely to fall victim to pedophiles online. 
Pedophiles typically prey on a child's loneliness. They feed the 
child's complaints about her home life-creating an "us-versus-
them" atmosphere. "Your mom is so mean to you! I don't know 
why she won't let you _____." (Fill in the blank with whatever we 
try and limit: makeup, malls, concerts, etc.) 
        This atmosphere does two things: It creates a distance between 
the child and her parents, at the same time bringing the child into a 
special secret alliance with the pedophile. (You should know that 
boys are almost as often the victims of Internet sexual exploitation 
as girls are, but they report it less frequently.) 
        I have followed many cases over the last few years. In my role 
as WiredSafety executive director, I've also been responsible for 
reporting several of these to law enforcement and for helping many 
families through the pain of prosecution. Sometimes we just help 
the families survive what the molestation has done to them. (The 
child isn't the only victim-entire families are torn apart in the 
aftermath of a molestation.) Parents feel guilty for not having 
protected their child, siblings don't know how to treat their fellow 
sibling-the pain can continue for a lifetime, and even more. And, 
in addition to being hurt physically, the young victim's heart is 
broken by the betrayal of trust. 

Anatomy of a Real and Early Case
        One case I reviewed many years ago involved a New Jersey 
teenager and an Ohio adult predator. It was one of the earliest 
reported cases of cyber-predatorial conduct, discovered in 1996. 
Luckily, the liaison was discovered before the girl met the man 
face-to-face. But it had gone on for a year and a half before being 
discovered by the girl's mother. As you read the details, think 
about what could have been done to discover the situation earlier 
and how you can use these precautions to protect your children.
        Paul Brown, Jr., an Ohio resident, was forty-six years old. He 
was also unemployed, weighed over four hundred pounds, and 
lived in a basement. He had accounts with several ISPs. Mary (a 
hypothetical name for the young girl involved) was twelve when 
her mother, a schoolteacher, bought her a computer, reportedly 
because Mary was having problems making friends. When she got 
online, Mary posted a message on an online service, in the spring 
of 1995, looking for a pen pal. In her message she described 
herself as a teenage girl. Paul Brown, Jr,. responded to the 
message, using his real name (something they often do, 
surprisingly) but identifying himself as a fifteen-year-old boy.
        Brown and Mary maintained an e-mail and telephone 
relationship for several months. As the relationship became more 
involved, they began writing letters, and Mary sent Brown a 
photograph. He told her that he was living at home with his mother 
and was hoping to find a girlfriend. In early August, Brown asked 
Mary for a "favor." "If I sent you a roll of film, could you get one 
of your friends to take pictures of you in different outfits and 
maybe hairstyles? Makeup if you use any, and different poses. 
Some sexy, if possible. Please. Baby for me. Thanx. You're the 
best. Love Ya."
        Mary complied. For the next eight months, they continued to 
converse and correspond, and Mary sent additional photos. Brown 
encouraged her with juvenile antics, such as using stickers in his 
letters to her saying things like "Getting better all the time!" In 
May 1996, Brown sent Mary a special love note. "Saying I love 
you... seems to be an understatement. At the age of 14 you have 
captured my heart and made it sing... I love everything about 
you.." 
        Shortly thereafter, Brown confessed to being in his twenties. 
He also suggested that Mary videotape herself in sexually 
provocative poses. She did. After Brown had reviewed her 
videotape, he returned it to her with instructions to redo the tape 
and include views of her genitalia and breasts. He later admitted to 
being divorced and in his thirties. He reportedly also sent her small 
gifts from time to time. 
        A few months later, in response to Brown's promise to pass 
copies of the tape to four members of a rock band Mary admired, 
she sent additional videotapes to Brown. (Brown told Mary that he 
knew the band members very well.) Each tape sent to Brown was 
designated for a different member of the band and contained 
sexually explicit conduct. Brown apparently had also sent her his 
size 48 underwear. When her mother discovered the underwear, 
the authorities were notified. Tracing Brown through phone 
records, special agents of the FBI in Cleveland seized the 
videotapes and photos of Mary and of more than ten other teenage 
girls from across the country.
        Mary was fourteen when this was all discovered. Brown pled 
guilty to enticing a minor to produce sexually explicit photos and 
videos and was sentenced to a little less than five years in prison 
(the maximum penalty for a first offense). In a written statement to 
Brown following all of this, Mary said, "I trusted you. I thought 
you were my friend." 
        There are several things that stand out in this case. One, 
interstate phone calls were made by Mary. Parents should always 
be reviewing long-distance bills for suspicious calls. Two, Mary 
was lonely. These kinds of children are often the most vulnerable; 
a parent should be involved in their online friendships, and monitor 
their online lives. And, three, as hard as it is to know what our kids 
are doing when we're not  around, especially if you are a single 
parent, a year and a half is a long time for a relationship to be 
going on undiscovered. You should spend time learning who your 
children's friends are, online and off. But Monday-morning 
quarterbacking is always easier than playing the game in real time. 
We may look at the situation and say that could never happen to 
one of our kids. However, there but for the grace of God go all of 
us....
        Knowing your child is lonely and has problems making friends 
is the first sign that the child may fall prey to a pedophile or cyber- 
predator. Predators can spot lonely children. They can also spot 
kids who are new online and may not yet know all the rules. Most 
teens, when surveyed, admit to having been propositioned online. 
But what may be obvious to a cyberstreetsmart kid may not be so 
obvious to a child not yet familiar with cyberspace. Pedophiles 
befriend these kids and patiently build trust and a relationship-
looking toward the day when they can meet face-to-face. 
        Encourage your children to make online friends, but learning 
about their online friends is an important way to avoid these secret 
relationships. Education is important in avoiding this danger, too. 
(Had Mary been forewarned about how pedophiles operate online, 
she may have been more attentive to how old Brown sounded on 
the phone, and been more aware of his classic tactics.) So is 
control over incoming and outgoing information when younger 
children are involved, using technology blockers, monitors, and 
filters. These kinds of situations can be avoided if you plan ahead, 
educate and communicate with your children, and keep your eyes 
open.

Getting in Under Your Radar: 
        Even when parents are watching, bad things can happen.
        I included the Paul Brown case in my first book, A Parents' 
Guide to the Internet. (He was sentenced in 1997, when I wrote the 
book.) I included it because it was a good example of how 
cyberpredators typically operate, and suggested that if the mother 
had been a bit more attentive, it might have been discovered 
earlier. I was right about how cyberpredators operate. I was wrong 
about how being attentive might have avoided the sexual 
exploitation. It takes more. It takes both an attentive parent and a 
teenager who has been taught how these pedophiles operate online.
        In November 1998, I met a mother who did everything right. 
She was attentive and inquisitive about her daughter's online 
relationships. She asked the right questions. She had a good 
relationship with her daughter, and yet Charles Hatch, a child 
molester from Utah, got in under everyone's radar and sexually 
exploited her thirteen-year-old daughter. 
        Jennifer (not her real name) was eleven and a half when she 
first met "Charlie" online. She thought he was a few years older, 
and was intrigued about befriending a slightly older teenage boy. 
Jennifer was an honors student and had already been taking 
advanced college courses while still in middle school. She lived in 
a loving and warm household with her mother and father. She also 
had siblings and half siblings from her father's previous marriage. 
They were all close. 
        Jennifer's mother, Sharry (also not her real name), talked to 
Jennifer about her online friend, Charlie. She insisted on talking to 
Charlie himself, by phone, once he and Jennifer had started calling 
each other. He passed the phone call test, and Sharry was 
convinced that he really was the teenage boy he professed to be. 
Either he had manipulated his voice to sound younger or he had a 
younger person make the call. Charlie even called and spoke to 
Jennifer's brothers, talking about when he would be their brother-
in-law someday, after he and Jennifer were married. He pleaded 
with Jennifer to come and visit him in Utah. Sharry invited him to 
visit them instead. But Charlie always had a reason he couldn't 
come. 
        As things progressed, Sharry insisted on talking to Charlie's 
mother. He first avoided it by saying she was sick, later that her 
sickness had become cancer, and that eventually she died from the 
cancer. The family fell for this, hook, line, and sinker. Most caring 
families would. Although the "relationship" progressed for almost 
two years, it remained relatively tame. Charlie was romantic rather 
than predatorial, and he sent her expensive gifts, including a 
Polaroid camera. (Remember the Polaroid camera Paul Brown 
sent?)
        Jennifer was inexperienced with boys and dating, and Charlie 
seemed to know not to push her too fast. But about a year and a 
half after they met online, Charlie sent her sexually explicit photos 
of himself from the neck down. She became very uncomfortable 
and pulled back. But several tragedies occurred around the same 
time, which made Jennifer easier prey. Her father was hospitalized 
with a serious illness, and her sixteen-year-old half brother died of 
a brain hemorrhage. 
        Charlie, like all good predators, knew when to strike. He told 
Jennifer that she owed him sexually explicit photos of herself, 
since he had sent those of himself. When she refused, he told her 
that she would be left alone, since her family was dying or would 
die-and he threatened to leave her.  Reluctantly, after fighting 
against it as hard as she could, she acquiesced and sent him 
sexually explicit photos of herself. 
        When Sharry was cleaning Jennifer's room, she discovered a 
letter in which Charlie had set forth the sexual poses he wanted 
Jennifer to photograph. Sharry sent him a letter, confronting him. 
She said that he didn't sound like a teenager in the letter. She told 
him that if he ever contacted her daughter again, she would inform 
the police. He never replied, and Jennifer was not permitted to use 
the Internet for months.
        One day, just when Jennifer and Sharry thought that the whole 
episode was past them, the phone rang. It was a detective from 
Utah, who informed Sharry that Jennifer's photos had been 
discovered in Hatch's day planner by a coworker. He wasn't 
sixteen-he was thirty-six. He was a former teacher who had been 
dismissed by the school after having been accused by a student of 
sexual abuse. (The school hadn't taken any other action.) He was 
currently employed by the welfare office in Utah, and was married 
with children and step-children. 
        Six months later, Charles Hatch was convicted of sexual 
exploitation in a Utah federal court. He began his six-and-a-half 
year sentence in early June 1999. As a condition of his plea, he 
will not be permitted to use the Internet. This mother has become a 
dear friend of mine, after seeking WiredSafety' help in getting 
through this. She was the first parent to speak out publicly about 
her child being targeted by a sexual predator online.
        Unfortunately, the predators are willing to try many different 
ploys until one finally works.

Using Celebrity's Names
        I was having lunch in Los Angeles with one of my girlfriends 
when Nick Lachey walked into the restaurant. She pointed him out 
to me and I immediately grabbed my business card and approached 
his table (to the utter embarrassment of my friend). I introduced 
myself and told him I needed his help. I explained that predators 
were using his name and the name of other celebrities to lure kids 
into meetings and unsafe activities. They find teens who post their 
favorite celebrities on their profiles, websites or other online 
communications. Then they create a profile claiming to be a close 
personal friend of that celebrity. They offer to forward a pic of the 
teen to the celebrity, and seek sexier and sexier pics as time goes 
on, ultimately ending with an offer to introduce the teen to their 
favorite celebrity in real life. Years ago, Justin Timberlake was the 
most popular of these celebrity lures. Nick is now. He listened 
intently and turned white when he realized people where using his 
name to hurt his young fans. He offered his help. 
        When I left his table, he has agreed to do a public service 
announcement to help teens understand that is anyone claims to be 
a close personal friend of a celebrity, they aren't. Or won't be for 
long. I was very excited, but not as excited as I was two weeks 
later when someone from Nick's office called asking me to help 
them create a safer teen-only social networking site called 
YFly.com. I agreed and YFly.com became a reality with the 
financial assistance of Tom Petters (and the Petters Group), and the 
creativity and energy of its founders, Drew Levin and Daniel 
Perkins. I joined the team to set up a safer network and create the 
most advanced educational and awareness content online, just for 
teen users. The young users can click on "Report the Creep" if they 
suspect someone is an adult posing as a teen.
        It's a beginning. Finding safer technologies and services is part 
of the solution. So is awareness using teenspeak.

Delivering Teen-Designed Messages Using their Media
        For the first time, other than at our summit on social 
networking last month, we are showing our "You Never Know..." 
animation series. Designed by teens for teens and preteens they 
help bring home the point that you never know who is pretending 
to be that cute 14-yr old boy or girl. These tiny animations are 
designed to be cell phone friendly and easily sent from preteens 
and teens to each other. The more we can get them to think about 
who they might be communicating with, the safer they will be.
        Shannon, one of our Teenangels is 14 years old. She was 
selected by Teen People as one of the twenty teens who will make 
a difference. She has gone them one better...she is already making 
a difference. It is with pride that I introduce Shannon Sullivan, one 
of my Teenangels.


APPENDIXES:

               Appendix 1:  Overview of WiredSafety.org

        WiredSafety.org is a 501(c) (3) charity and the largest and 
oldest online safety, education, and help group in the world. It 
consists of thousands of volunteers from more than 76 countries 
around the world, all working online with the mission of 
promoting a safer and more responsible Internet and wireless 
experience for everyone. 

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        Originating in 1995 as a group of volunteers rating websites, it 
now provides one-to-one help, extensive information, and 
education to cyberspace users of all ages and members of the 
Internet industry on a myriad of Internet and interactive technology 
safety issues. These services are offered through a worldwide 
organization comprised entirely of volunteers who administer 
specialized websites and programs. WiredSafety.org volunteers 
range in age from 18 to 80 and run the gamut from TV 
personalities, teachers, law enforcement officers, PhD's, writers 
and librarians to stay-at-home moms, retired persons, and students. 
WiredSafety.org's founder and Executive Director, cyberlawyer 
Parry Aftab, is also an unpaid volunteer. With the exception of its 
TeenAngels, outreach and speaking programs, all work and help is 
provided online and free of charge. 
        WiredSafety.org's work falls into four major areas, all 
designed to help promote a safer and more responsible digital 
experience for everyone:
        <bullet> Assistance for victims of cyberabuse and harassment and 
others who need help online, including parents, teens and 
educators. 
	<bullet> Advice, Training and Help for law enforcement worldwide on 
preventing, spotting and investigating cybercrimes and for 
members of the Internet and interactive digital industries in 
designing safer technologies and adopting and implementing 
best practices.
	<bullet> Education for children, parents, communities, law 
enforcement, abuse and customer help staff within the Internet industry and 
professional development for educators.
	<bullet> Information and Awareness on all aspects of online safety, 
privacy, responsible use and security wired, wireless and as 
new technologies are developed.

Our target audiences include:
	<bullet> Parents, grandparents and caregivers (including aunts, 
uncles and older siblings);
	<bullet> Pre-reader lap-surfers, kids, preteens, teens and college 
students;
	<bullet> Members of the Internet, wireless and interactive 
technology industries;
	<bullet> Law enforcement, community policing agencies and school 
resource officers, legislators, the judicial community and 
regulatory agencies; and
	<bullet> Schools and other educational institutions.

        Originally formed in 1995 (under another name) to provide 
help and protection for Internet users of all ages, in recent years, 
Wiredsafety.org's work has increasingly focused on the safety and 
good cybercitizenship of children, tweens, and teens. It serves as 
the umbrella organization for TeenAngels.org, WiredKids.org, 
WiredCops.org and WiredTeens.org. WiredSafety.org is dedicated 
to protecting children in cyberspace from cybercrimes and abuse, 
including from each other. This involves protecting them 
from cyberbullying, hacking, sexual harassment and identity (ID) 
theft. It also includes protecting children everywhere from 
Internet-related sexual exploitation. WiredSafety.org helps protect 
them from risks posed by adults, by each other and more recently 
from themselves, as their reputations and future college and job 
opportunities are impacted by what they post on their MySpace 
and other profiles. The package of programs designed for young 
users with the assistance of our teen and preteen volunteers is 
called "ThinkB4uClick," teaching them the consequences of their 
cyberactivities.
        Marvel Entertainment, Inc. has also joined forces with 
WiredSafety.org to provide superhero assistance in educating our 
children and families on safer online practices. The first Internet 
safety comic, Internet Super Heroes meet the Internet Villains, 
teaches how Internet predators can infiltrate anyone's computer 
and wreck havoc on their lives by stealing their identity and posing 
as them online. Published under its exclusive license with Marvel, 
and sponsored by Microsoft, this first comic will help teach the 
250,000 readers how to be smarter and safer online using Spider-
Man, The Incredible Hulk and Dr. Doom, among others to bring 
the message to life.
        WiredSafety.org also provides information and resources to 
help educate and guide law enforcement officers on Internet safety 
issues, crime prevention and investigation of cybercrimes. It has 
created a special website just for law enforcement officers, 
Cyberlawenforcement.org, also known as WiredCops.org. As part 
of the Wiredcops.org initiative, specially trained volunteers assist 
law enforcement in the investigation and prevention of trafficking 
of children, child pornography, child molestation, and 
cyberstalkers. Recently, at the request of leading law enforcement 
agencies, WiredSafety.org has begun using its teen volunteers to 
provide information that will assist undercover law enforcement 
officers in creating credible profiles of preteens and teens to help 
them become more effective when operating undercover online. 
        In addition to assisting law enforcement agencies, 
WiredSafety.org offers one-to-one assistance for victims of 
cyberabuse that may not arise to the level of a cybercrime and is 
not handled by law enforcement. WiredSafety's cyberhelpline 
gives "netizens" access to free help when they need it via the 
Internet. Its special team of helpline volunteers is assigned to cases 
and works one-to-one online to help resolve individual problems 
and get victims help when they need it. WiredSafety.org assists 
more cases of cyberharassment than any other organization in the 
world, helping thousands each month through its site and report 
line. Cyberbullying cases can be reported to the report line as well. 
        But when dealing with preteens and teens, the challenge has 
always been getting them engaged. Their "selective hearing" can 
get in the way of their learning safer and more responsible 
behavior online, just as it may at home. When approached, teens 
told us that we had to approach them with things that they consider 
important, using their language. So, WiredSafety.org recruited 
teens and preteens who help us do that. These expert Teenangels, 
13 to 18 year olds, (and now their younger version, Tweenangels, 
from 9 - 12 years of age) deliver the message of safe, private, and 
responsible technology use to their peers. These youth-based 
programs were formed in 1999 to provide special perspectives and 
insight into how young people are using the new technologies and 
how to better prepare them to handle the risks they encounter. 
        Teenangels have been recognized and honored by Congress, 
Parliament, John Walsh, Time for Kids and recently, Teen People 
Magazine, among others. Their training is extensive and takes 
almost one year to complete. When they receive their "wings", 
however, they are true experts. It is the only Internet expert youth 
program in the world. And, once trained, these special teens and 
tweens help develop safer technologies, by providing expertise for 
and advising members of the Internet and entertainment industries, 
media and governmental agencies around the world.
        Too often disconnected from the immediate consequences of 
their actions online, many "good" kids and teens find themselves 
doing things online they would never dream of doing in real life. 
This needs to change.  The youth programs created by 
WiredSafety.org focus on cyberwellness and cyberethics which fits 
perfectly within its mission and expertise. To keep our children 
safe online, they need to understand the norms and rules of 
operating online. They must also recognize that they will be held 
accountable for what they do in cyberspace and that what they post 
online has ramifications beyond the momentary click. Teaching 
responsible technology use is crucial.
        WiredSafety.org also offers a wide variety of educational and 
help services to the Internet community at large. Companies such 
as Disney, the Motion Picture Association of America, the 
National Sheriff's Association, Yahoo, Verizon Foundation, 
Marvel Comics, MySpace, Xanga, Johnson & Johnson, Google, 
Oracle, Facebook, Microsoft and AOL support and turn to Parry 
Aftab and WiredSafety.org for guidance and advice in dealing with 
Internet safety issues. Teenangels and Parry have testified before 
leading governmental and legislative bodies worldwide, including 
the U.S. Congress and the U.K. Parliament. Regulatory agencies, 
such as Singapore's Media Development Authority, the U.S. FTC 
and California's consumer protection arm have sought 
WiredSafety's and Parry's help. Their collaborative efforts with 
schools, community organizations, prosecutorial officers, local 
executive branch and law enforcement agencies, such as Alaska's 
Campfire USA, the Baltimore County public schools, Ohio's 
Wayne County Sheriff's office, the San Francisco DA, and 
Westchester County, NY's County Executive Spano, have affected 
hundreds of thousands of families worldwide. Using its unique 
expertise in the field, the charity also assists important trade 
associations, such as the CTIA (the wireless trade association) and 
the U.S. Sheriff's Association. WiredSafety.org also acts as a 
watchdog within most of the social networking websites, to help 
provide their users safety information and help when things go 
wrong.
        Select volunteers find and review family-friendly Web sites, 
filtering software products, and Internet services. Some of the 
outreach team volunteers run programs, summits and also speak at 
local community groups and schools around the world teaching 
Internet safety, privacy and responsible use.
        However, its work is not limited to the Internet alone. 
WiredSafety focuses on all aspects of interactive technology use 
and abuse. Its expertise includes cell phone safety and security, 
interactive gaming, social networking (mobile and online) and 
text-messaging products, as well as any new interactive 
technologies as they are developed. Its long years of working with 
Internet users and handling cybercrimes and abuse have created a 
flexible and knowledgeable volunteer force. If you can view 
content, communicate with others, spend money, or buy things 
using the technology, WiredSafety.org can help.
        WiredSafety.org is headed by Parry Aftab, a mom, 
international cyberspace privacy and security lawyer and children's 
advocate. Parry is the author of the first book written for parents 
about Internet safety - The Parents Guide to the Internet 
(considered the bible of online safety and published in 1997) as 
well as The Parent's Guide to Protecting Your Children in 
Cyberspace (McGraw-Hill, 2000), which has been adapted and 
translated around the world. Her most recent books have been 
especially written and adapted for and published in England, 
China, Spain and Singapore. Her new book, Internet Safety 1-2-3, 
was released in December 2005 in Spain and will be released next 
year in the United States. And her new "Stop Cyberbullying!" 
guide launched in Spain in May 2006.
        WiredSafety is proud of its reputation as the one-stop-shop for 
all cyberspace safety, privacy, security, and help needs. It is even 
prouder of the fact that all this can be accomplished without large 
government funding or money wasted on administration costs. No 
one is paid within WiredSafety.org. They are all unpaid volunteers 
- including Parry herself. This all-volunteer workforce has been 
estimated at providing more than $3 million in unpaid services 
every year. Using a popular website and series of special topic 
sites, the organization has reached millions of Internet users since 
its inception and addresses more than 5000 children, teens and 
tweens and 1000 parents in person every month, on average.
        WiredSafety.org mobilizes people of all ages who want to help 
others, and puts them to work doing just that. It is intent on its 
mission to "Take Back the Net!"


               Appendix 2: Parry Aftab's Bio and CV:

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

Updated July 2006
Parry Aftab
Bio

        Parry Aftab is a security, privacy and cyberspace lawyer, as 
well as an author, columnist and child advocate. A substantial 
portion of her time is donated to Internet issues involving children, 
from equitable access, to privacy, to safety, to helping develop 
quality and reliable content for children. She has also legally 
represented or acted as a consultant to most of the children's 
Internet industry, helping them comply with the law, while 
improving the Internet experience for children. When children and 
the Internet are concerned, Ms. Aftab's name is the first mentioned. 
        Parry Aftab is a worldwide leader in the area of online safety 
and parent and child Internet education. As Executive Director of 
WiredSafety.org, the oldest and largest online safety and 
educational program in cyberspace, Ms. Aftab helps prevent and 
assist law enforcement agencies in investigating cybercrime 
against children and families. Under its former name, her group 
was awarded the President's Service Award in October 1998 from 
the White House and Points of Light Foundation. Ms Aftab also 
works closely with law enforcement around the world to prevent 
cybercrimes and police the Internet and is part of the Home Office 
Cybercrime Task Force in the UK. She was recently appointed a 
Special Deputy Sheriff by Wayne County, Ohio's Sheriff, Thomas 
Maurer.
        In 1999, Ms. Aftab was appointed by UNESCO to head up its 
child Internet sexual exploitation project for the U.S. She has also 
written the leading books for parents on Internet safety since her 
first book was published on the topic in December 1997.
        Although her vocation was Internet security and privacy law, 
her avocation is children online - helping them become good 
cybercitizens and keeping them safe, private and secure online. 
She is dedicated to helping curb Internet-related crimes against 
children and assisting law enforcement in bringing the child 
predators to justice. Everyone who encounters Ms. Aftab is 
impressed with her passion and energy when children's Internet 
issues are involved. 
        While her passion is for protecting children from Internet 
sexual exploitation, she is also devoted to empowering them 
through access to the wonders of the Internet. She hopes to help all 
children become better informed and responsible cybercitizens, 
controlling the technologies instead of being controlled by them. 
Her programs are designed to teach them safe, private and 
responsible technology use, which includes teaching them good 
netiquette and respect for each other and the rights of others, 
including intellectual property rights of the music, movie, gaming 
and software industries.
        Ms. Aftab was among the first in the world to devote her 
talents to keeping children safe online. She has helped design 
programs for parents and children in a wide range of Internet-
related issues for ten years. Her work has been recognized by 
leading technology influencers, such as Family PC Magazine, 
when she was awarded Internet Pioneer of the Year in 2001. And 
child protection agencies have recognized her as well, when Child 
Abuse Prevention Services presented her with their 20th 
anniversary Community Leadership Award in 2005. (Past 
recipients of this award include Senator Clinton, Linda Fairstein, 
Judy Collins, Dr. Joyce Brothers and the "God Squad.")
        Parry Aftab also provides parent Internet education and online 
safety content for such diverse sites as Nickelodeon, Children's 
Television Workshop, Disney, Microsoft, AOL, Yahoo!, Google, 
AT&T and MSNBC. She is a regular keynote speaker, and 
resource on camera for the media on diverse cybercrime, safety, 
privacy and cyberlaw issues. She writes The Privacy Lawyer 
columnist for Information Week Magazine where she writes on a 
range of topics that affect technology, policy and privacy. Her 
expertise is especially in demand on children's Internet issues, 
because no one knows more about children online than Parry 
Aftab.
 	While she is devoted to protecting children online, Ms. Aftab 
seeks to empower children and their parents, not the censors. Her 
common sense approach to technology risks and solutions works 
as well anywhere in the world as it does in the United States. But 
what really makes her special is her ability to tap into the caring 
and creativity of young people to craft solutions that are written in 
their language and designed for their needs.
        She is a frequent and respected resource for news programming 
and print journalists around the world. Her expertise has been 
featured nationally and internationally in online and print 
publications, including Readers Digest, Playboy, TV Guide 
Magazine, Cosmopolitan, People Magazine, Redbook, Biography, 
USA Today, Information Week, Working Women, Teen People, 
U.S. News & World Report, Family Circle, Newsweek, Ladies 
Home Journal, Smart Money Magazine, PC Magazine, Good 
Housekeeping, Better Homes & Gardens, Family PC Magazine, 
Yahoo! Internet Life, Information Week, CIO Magazine, The Wall 
Street Journal, The New York Times, The LA Times, most 
regional newspapers in the United States, The London Times 
Magazine, The Strait Times (Singapore), The South China 
Morning Post Sunday Magazine (Hong Kong), and more. As a 
result of her work online with children, Ms. Aftab was selected as 
a charter member of Children Television Workshop's Advisory 
Board, as well as appointed to The National Urban League's 
Technology Advisory Committee. In 2003 she was elected to 
TRUSTe's Board of Directors. She served on the advisory board 
for the Ad Council for two terms.
        Parry Aftab has spoken to many governmental agencies and 
groups worldwide, conducted briefings for the U.S. Senate, 
testifies regularly before Congress, and has been a key speaker at 
the White House Summit on Online Content, the sole Internet-
related expert speaking at the 2002 White House summit on 
Missing and Exploited Children and testified before leading 
legislative committees and The House of Lords, all with the same 
message: The Internet is a wonderful resource for families, and 
once parents understand the online risks, they can use common 
sense (and perhaps some filtering tools) to help their children enjoy 
cyberspace safely. 
        As one of the first lawyers in the world to specialize in Internet 
legal issues, Parry Aftab is admitted to practice law in New York 
and New Jersey. She attended law school at NYU School of Law 
where she received her J.D. degree. She received her B.A. degree 
as Valedictorian of Hunter College (having completed her full 
undergraduate degree in less than two years), where she was 
inducted into Phi Beta Kappa.
        She resides in the New York metropolitan area and is a mother 
of two. Ms. Aftab can be reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f6f5e4d4d467f7e594b5e5d115c505211">[email&#160;protected]</a>


                             Parry Aftab

                    Professional Curriculum Vitae
                         Phone: 201-463-8663
                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1060716262695071766471723e737f7d">[email&#160;protected]</a>

___________________________________________________________________________ 
Internet privacy and security lawyer, licensed to practice law in NY and NJ, 
    The Privacy Lawyer columnist, author, consultant and public speaker 
                    Executive Director of WiredSafety.org

AREAS OF EXPERTISE:   Worldwide Cybercrime Protection and 
Prevention/Identity Theft/ Privacy, Data Collection and Security / 
Workplace Risk Management and Security/ Consumer Protection, 
Advertising and the Internet / E-Commerce/ Cyberstalking and 
Harassment/ Child Exploitation and Child Pornography, Children 
Online, Online Marketing, Cyber-workplace issues, Privacy 
training and coaching

___________________________________________________________________________ 

CURRENT POSITIONS	President/CEO - Aftab Cyber-
Consulting
						Executive Director, WiredSafety.org (a 
501c-3 corporation)
						The Privacy Lawyer columnist for 
Information Week
___________________________________________________________________________ 

EDUCATION		City University of New York		B.A., 1981
				Hunter College				Valedictorian
				(Completed 4 yr degree in 2 yrs)	Phi Beta Kappa 
(Nu Chapter)

				New York University			J.D., 1984
				School of Law

SELECT HONORS	Community Leadership Award, 2005
	        				Awarded by Child Abuse Prevention 
Services

American Society of Business Publication 
Editors Award "Gold"    Original Web 
Commentary
Informationweek.com for Parry Aftab's 
"Patriotism, Compliance and 
Confidentiality" article 

					Activist of the Year Award, 2002	
						Awarded by Media Ecology Association

					Internet Pioneer of the Year, 2001
						Awarded by Family PC Magazine

					Home Office, U.K.
Child Protection, Criminal Laws and Law 
Enforcement Task Forces

	
ORGANIZATIONS	TRUSTe
						Member- Board of Directors (Elected 
December 2002)

					Ad Council
						Advisory Committee member (1999 - 2003)
					Children's Television Workshop Online 
(Sesame Workshop)
						Advisory Board (1998 - present)
	
					UNESCO
President, U.S. National Action Committee, 
Innocence in Danger (appointed 1999)1998-
present)
	
					The Internet Society
Elected Chair, Internet Societal Task Force 
and Societal 			Steering Group 
(worldwide, 2001)
						Member of Public Policy Committee ISOC 
(2001-present)
	Chair, Privacy and Security Working 
Group of The 			Internet Society Task 
Force (2000-2001) appointed 		
	member since 1999

WiredSafety (wiredsafety.org) the world's 
largest Internet safety and help group, formerly 
functioned as "Cyberangels," recipient of 
President's Service Award, 1998,
						Executive Director (1998-present)

					The National Urban League
						Technology Advisory Committee (1997 - 
present)


AUTHORSHIPS AND	
RELATED ACTIVITIES	

     Author, selected books

Cyberbullying Guide (Spanish and English guide on 
preventing and 	dealing with cyberbullying) 
				Spain 2006
	
			Internet con los menores Riesgos (Spanish guide for 
parents on Internet 					safety, especially written for 
Spain and South and Central America)   
				Spain 2005

			Children and the Internet (official Chinese Internet 
safety guide)
China 2004
	
			The Parent's Guide to Protecting Your Children in 
Cyberspace, McGraw-				Hill, 
(U.S. edition, January 2000; UK edition, March 
2000; Singapore edition May 2000 and Spanish 
language US edition November 2000)

			A Parents' Guide to the Internet, SC Press (October 
1997)

     Contributor, selected books
	
			Child Abuse on the Internet.... Ending the Silence 
(2001) Carlos A. Arnaldo, Editor 
			Chapter 21: The Technical Response: Blocking, 
Filtering
			And Rating The Internet - by Parry Aftab
The Best In E-Commerce Law 
	    			(2001) Warren E. Agin, Editor
			Children's Online Privacy Law

      Selected Speaking Engagements

WiredSafety's Social Networking Summit, June 2006

US Congress, Commerce Committee, Sub-Committee 
Investigations and Oversight, opening day hearings April 4, 2006

National Association of Independent School Annual Conference, 
March 2006

Stonybrook Cyberbullying Summit, September 2005

FDIC Conference on Security Online, August 2005  
 
The Westchester County Cyberbullying Summit, February 8, 2005

The US Copyright Office - Luncheon Speaker (LA and SF events) 
February 2005

Child Abuse Prevention Service 20th Anniversary Luncheon 
Speaker, April 2005

FTC Workshop on P2P, December 2004

House of Commons - Parliamentary Briefing on Internet Safety, 
October 2004

IAPP (International Association of Privacy Professionals), June 11, 
2004 

EU- Safer Internet - Warsaw, March 2004

Media Development Authority- Singapore, Family Internet Week - 
March 15, 2004

Western Attorneys General Conference, July 29, 2003

Domain Day, Milan, Italy, November 5th, 2002

Wired Kids Summit, Washington D.C., October 15th, 2002 
(Mediator and Host of the event at the Russell Senate Building)

White House Conference on Missing and Exploited Children, 
October 2nd, 2002 (Only panel speaker selected to discuss Internet 
issues). Other speakers included President George W. Bush, Colin 
Powell, John Ashcroft, Rod Paige and many distinguished others.

Council of Europe, Children's Online Safety, Belgium, November 
2001

Microsoft, Privacy and Security Summit, Privacy Speaker, San 
Francisco, November 2001

Intellectual Property Organization, Featured Speaker on Internet 
Law, Privacy and Digital Rights, New York, November, 2001

SCOPE, Keynote Speaker, Cyber-terrorism, New York, October 
2001

Rappateour, E.U. Online Content Regulation, Luxembourg, June 
2001

Bertelsmann Foundation, Experts Meeting, Singapore, February 
2001

Microsoft, Privacy and Security Summit, Speaker (only female 
speaker), 	Seattle, November 2000

Keynote Speaker, House of Lords, Kids Helping Kids, London 
(April 2000)

Keynote Speaker, Singapore Broadcasting Authority and Ministry 
of Information Conference, Children Online, Regulatory Issues, 
Singapore (November 1999, May 2000, February 2001)

Panelist, FTC Hearings on COPPA Regulations, Washington (June 
1999)

Keynote Speaker, White House Summit, Online Content, Los 
Angeles (June 1998)

Keynote Speaker, C.A.R.U., Conference On Children's Online 
Privacy 
		(September 1998)

Featured Speaker, Littleton Town Meeting hosted by Tom Brokaw 
and Jane Pauley, MSNBC (April 1999)


              Appendix 3: Parenting Online (from WiredSafety.org)

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

Parenting Online

        What do we do when our eight-year-old knows more than we 
do about cyberspace? How do we guide our children safely 
through this new world? How do we set the rules when we don't 
even understand the risks? The childproof locks, seatbelts and 
helmets we use to help keep them safe in everyday life won't 
protect them in cyberspace. There we need new and different 
gadgets and safety tips.
        Welcome to the new world of parenting online! It's your 
newest challenge. But don't worry...it's not as hard as you think and 
it's well worth the effort.
        Parenthood is never easy and the ground rules are always 
changing. We go from playing the role of confidante, to co-
conspirator, to police chief, to teacher, to playmate and back...all in 
the same day. We barely have the chance to catch our breath!
        The things we do to make sure our children stay safe are 
constantly changing too. When they crawl, we learn how to keep 
things off the floor. Then, they pull themselves upright, we have to 
keep them safe from the new dangers at eye level. Training wheels 
have to be removed, and we have to watch while they pedal away 
(generally into the nearest tree). We watch their sugar intake, make 
sure they take their vitamins and keep small items out of their 
mouths.
        That's our job, as parents. So the tried and true warnings, 
passed down from generation to generation, are repeated... "don't 
talk to strangers...," "come straight home from school...," "don't 
provoke fights...," "don't tell anyone personal information about 
yourself..." and "we need to meet your friends..." This is familiar 
territory after all. We know the dangers our kids face in the street 
or at the mall or in the school yard, because we faced them.
        As in any large community, there are dangers our children 
encounter in cyberspace, too. But, since our children know more 
than we do about cyberspace, we worry about how we can teach 
them to avoid those dangers. Don't panic... those dangers can be 
managed using the same old warnings we've always used.
        We just need to translate them into cyberspace terms...
        And there are wonders around every cyber-corner too...
        The Internet is the largest collection of information in the 
world, always available without a charge and delivered to your 
home computer. Every question you might have can be answered 
online. When your child asks you how deep the ocean is or why 
the sky is blue, you can "ask the Internet," together.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        You and your children can communicate with others too, 
worldwide and in every language, with the click of your mouse. 
Their artwork can be displayed, their news reporting published and 
their poems posted on the largest "refrigerator door" in the 
universe, where 700 million people can appreciate them.
        You can research your family tree and build a family Web site. 
And, best of all...the most complicated homework assignment can 
be researched online (even last-minute on the Sunday night before 
it's due).
        You can search online for just about anything and any 
information you want. The easiest way to do that is by using search 
engines. You can type your search into one of the search engines 
and often will find what you are seeking. Just as often, though, you 
will find sites that are trying to get your or your children's 
attention. Pornographers are the most frequent abusers of search 
engines, registering and coding their sites to trick people into 
visiting them, thinking they are Disney, Pokemon or even the 
White House.
        Most of the search engines now have filtering options. By 
selecting one of these options, most inappropriate content is 
filtered out and the search results are typically kid-friendly. Two 
commercial search engines were designed just for kids, though, 
and are wonderful places to begin your child's search online. 
Yahooligans!, Yahoo! kid-sized search engine hand-selects the 
sites, making sure nothing slips through. It is best for younger 
children, ten and under. Ask Jeeves for Kids is Ask Jeeves kid-
sized search engine. Although not as scrubbed clean as 
Yahooligans! hand-selected sites, it contains many more sites 
which make it perfect for slightly older children. I recommend it 
for children ten and older.
        In addition, most full-size search engines have a filtered option 
you can select. But remember that even if you use a search engine 
filter, if the kids search for images, the can find things you wish 
they hadn't. That's when using a filtering product that can block 
images too might come in handy.
        In addition to kid-sized search engines, there are many 
wonderful family-friendly site lists. WiredKids has one of its own, 
where the sites are selected and reviewed by our specially-trained 
volunteers. You can even recommend your favorite sites to be 
added.
        There are some entertaining sites that teach children online 
safety, as well. Although we prefer our WiredKids.org, 
StopCyberbullying.org and InternetSuperHeroes.org the best, (she 
says modestly...) another very special one we want to point out. 
Disney's Surfswellisland.com teaches online safety Disney-style. 
Mickey Mouse, Donald Duck, Minnie Mouse and Goofy all find 
themselves involved in tropical island cyber-challenges relating to 
viruses, privacy, netiquette (cyber-etiquette) and responsible 
surfing. Lesson plans, online safety worksheets and other 
wonderful resources are all available without charge at the site. 
        Looking for homework help? Check out Discovery.com, 
Nationalgeographic.org, PBSkids.org and The National Gallery of 
Art kids page www.nga.gov/kids/kids.htm. And ask your school 
librarian or the librarian at your public library for sites they 
recommend. Librarians and library media specialists are the guides 
to valuable and safe online resources for children. And if you need 
something you can't find, send me an email at "Ask Parry," ( 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e786948c978695959ea7908e95828394868182939ec9889580">[email&#160;protected]</a> ) my Internet-syndicated online safety 
column. Drop by WiredKids.org or WiredSafety.org to find out 
how to submit a question.


CyberSense
...translating common sense for cyberspace

        <bullet> Don't talk to or accept anything from strangers. That's the 
first one we learn while growing up, and the first one we teach our 
children. The problem in cyberspace though is teaching 
"stranger danger." Online, it's hard to spot the strangers. 
        The people they chat with enter your home using your 
computer. Our kids feel safe with us seated nearby. Their 
"stranger" alerts aren't functioning in this setting. Unless they 
know them in real life, the person is a stranger no matter how 
long they have chatted online. Period. You need to remind 
them that these people are strangers, and that all of the 
standard stranger rules apply.
        You also must teach them that anyone can masquerade as 
anyone else online. The "12-year-old" girl they have been 
talking to may prove to be forty-five year old man. It's easy for 
our children to spot an adult in a schoolyard, but not as easy to 
do the same in cyberspace.
        <bullet> Come straight home after school. Parents over the generations 
have always known that children can get into trouble when 
they wander around after school. Wandering aimlessly online 
isn't any different. Parents need to know their children are safe, 
and doing something productive, like homework. Allowing 
your children to spend unlimited time online, surfing aimlessly, 
is asking for trouble.
        Make sure there's a reason they're online. If they are just 
surfing randomly, set a time limit. You want them to come 
home after they're done, to human interaction and family 
activities (and homework).
        <bullet> Don't provoke fights. Trying to provoke someone in 
cyberspace is called "flaming." It often violates the "terms of 
service" of your online service provider and will certainly get a 
reaction from other people online. 
        Flaming matches can be heated, long and extended battles, 
moving from a chat room or discussion group to e-mail 
quickly. If your child feels that someone is flaming them, they 
should tell you and the sysop (system operator, pronounced sis-
op) or moderator in charge right away and get offline or surf 
another area. They shouldn't try to defend themselves or get 
involved in retaliation. It's a battle they can never win.
        <bullet> Don't take candy from strangers. While we don't take candy 
form people online, we do often accept attachments. And just 
like the offline candy that might be laced with drugs or 
poisons, a seemingly innocent attachment can destroy your 
computer files, pose as you and destroy your friends or spy on 
you without you even knowing it. Use a good anti-virus, update 
it often and try one of the new spyware blockers. You can get a 
list of the ones we recommend at WiredSafety.org. Practice 
safe computing!

        <bullet> Don't tell people personal things about yourself. You never 
really know who you're talking to online. And even if you 
think you know who you are talking to, there could be 
strangers lurking and reading your posts without letting you 
know that they are there. Don't let your children put personal 
information on profiles. It's like writing your personal diary on 
a billboard.
        With children especially, sharing personal information puts 
them at risk. Make sure your children understand what you 
consider personal information, and agree to keep it confidential 
online and everywhere else. Also teach them not to give away 
information at Web sites, in order to register or enter a contest, 
unless they ask your permission first. And, before you give 
your permission, make sure you have read the web site's 
privacy policy, and that they have agreed to treat your personal 
information, and your child's, responsibly.
	<bullet> We need to get to know your friends. Get to know their online 
friends, just as you would get to know their friends in everyday 
life. Talk to your children about where they go online, and who 
they talk to. 
	<bullet> R-E-S-P-E-C-T. We all know the golden rule. We have a 
special one for cyberspace. Don't do anything online you 
wouldn't do offline. If you teach your child to respect others 
online and to follow the rules of netiquette they are less likely 
to be cyberbullied, become involved in online harassment or be 
hacked online. You can learn more about the ways to combat 
cyberbullying at our new website, StopCyberbullying.org or at 
WiredSafety.org's cyberstalking and harassment section. 
Remember that it is just as likely that your child is a cyberbully 
(sometimes by accident) as a victim of one. Let them know 
they can trust you not to make matters worse. You have to be 
the one they come to when bad things happen. Be worthy of 
that trust.

        Remember that the new handheld and interactive gaming 
devices you buy have real risks to. Your children can send and 
receive text-messages from anyone on their cell phones or text-
messaging devices and interactive games allow them to chat, on 
Internet phone, to anyone who wants to talk with them. The new 
Bluetooth devices let your child receive messages form anyone in a 
300 foot range, and could be a problem if they play the new 
Bluetooth handheld games in a mall. Think about the features you 
are buying when you buy new devices for your children. Check 
into privacy and security settings. Our Teenangels (teenangels.org) 
are working on new guides for parents and other teens on what to 
look for and think about before you buy a new interactive device. 
Look for them at your local retailer or on the WiredSafety.org and 
Teenangels.org websites. 
        Don't just set up the computer in the corner of their bedroom, 
and leave them to surf alone. Take a look at their computer 
monitor every once in awhile, it keeps them honest. Sit at their side 
while they compute when you can. It will help you set rules that 
make sense for your child. It also gives you an unexpected 
benefit...you'll get a personal computing lesson from the most 
affordable computer expert you know!
        And it's worth the effort. When our children surf the Internet, 
they are learning skills that they will need for their future. They 
become explorers in cyberspace, where they explore ideas and 
discover new information.
        Also, because there is no race, gender or disability online, the 
Internet is the one place where our children can be judged by the 
quality of their ideas, rather than their physical attributes.

        What Tech Tools Are Out There?
        Blocking, filtering and monitoring...when you need a little help
        There are many tools available to help parents control and 
monitor where their children surf online. Some even help regulate 
how much time a child spends playing computer games, or prevent 
their accessing the Internet during certain preset times.
        I've listed the type of protections that are available. But, most 
of the popular brands now offer all of these features, so you don't 
have to choose. Recently, given parents' concerns about strangers 
communicating with their children online, monitoring software has 
gained in popularity. Although it might have its place in protecting 
a troubled child, it feels more like "spyware" than child protection. 
But it's ultimately your choice as a parent. The newest trend is to 
use products supplied by your ISP called parental controls. AOL's 
parental controls were the first of these to be developed and used. 
MSN 8.0 launched the first set of parental controls for MSN. To 
read more about the various products and services we have 
reviewed, visit WiredKids.org and WiredSafety.org.

Blocking Software
        Blocking software is software that uses a "bad site" list. It 
blocks access to sites on that list. They may also have a "good site" 
list, which prevents your child from accessing any site not on that 
list. Some of the software companies allow you to customize the 
lists, by adding or removing sites from the lists. I recommend you 
only consider software that allows you to customize the list, and 
lets you know which sites are on the lists.

Filtering
        Filtering software uses certain keywords to block sites or 
sections of sites on-the-fly. Since there is no way any product can 
keep up with all the sites online, this can help block all the sites 
which haven't yet been reviewed. The software blocks sites 
containing these keywords, alone or in context with other 
keywords.
        Some companies allow you to select certain types of sites to 
block, such as those relating to sex, drugs or hate. This feature 
engages special lists of keywords that match that category. As with 
the "bad site" lists, the lists of keywords used by the filtering 
software should be customizable by the parent, and every parent 
should be able to see which terms are filtered.

Outgoing Filtering
        No... this doesn't mean your software had a sparkling 
personality :-) (that's cyberspace talk for "grin" and means you're 
supposed to smile at my brilliant humor, and if you want to learn 
more about this stuff...you need to read my Ms. Parry's Guide to 
Correct Online Behavior). It means that your child won't be able to 
share certain personal information with others online. Information 
such as your child's name, address or telephone number can be 
programmed into the software, and every time they try to send it to 
someone online, it merely shows up as "XXXs." Even with kids 
who know and follow your rules, this is a terrific feature, since 
sometimes, even the most well-intentioned kids forget the rules.

Monitoring and Tracking
        Some software allows parents to track where their children go 
online, how much time they spend online, how much time they 
spend on the computer (such as when they are playing games) and 
even allows parents to control what times of day their children can 
use the computer. This is particularly helpful when both parents 
are working outside of the home, or with working single-parents, 
who want to make sure their children aren't spending all of their 
time on the computer. Many parents who don't like the thought of 
filtering or blocking, especially with older children and teens, find 
monitoring and tracking satisfy their safety concerns. They can 
know, for sure, whether their children are following their rules.
        We particularly recommend using a monitoring software and 
then forgetting it's installed. Think of it as the security video 
camera in the corner of the bank. No one views the tapes until the 
bank is robbed. If something bad happens, you can play back the 
monitoring log and see exactly what occurred, and who said what, 
and in dire situations, where your child went to meet an adult 
offline. We particularly like Spectorsoft.com, because their 
products can monitor all instant messaging platforms, which is key 
to keeping your children safe online.
        Parents have to remember, though, that these tools are not 
cyber-babysitters. They are just another safety tool, like a seat belt 
or child safety caps. They are not a substitute for good parenting. 
You have to teach your children to be aware and careful in 
cyberspace. Even if you use every technology protection available, 
unless your children know what to expect and how to react when 
they run into something undesirable online, they are at risk. 
Arming them well means teaching them well.

Your Online Safety "Cheatsheet"
Some Basic Rules for You to Remember as a Parent . . .
	<bullet> Make sure your child doesn't spend all of her time on the 
computer. People, not computers, should be their best 
friends and companions.
	<bullet> Keep the computer in a family room, kitchen or living 
room, not in your child's bedroom. Remember that this tip 
isn't very helpful when your children have handheld and 
mobile Internet and text-messaging devices. You can't 
make them keep their cell phones in a central location. So 
make sure that the "filter between their ears" is working at 
all times.
	<bullet> Learn enough about computers so you can enjoy them 
together with your kids.
	<bullet> Teach them never to meet an online friend offline unless 
you are with them.
	<bullet> Watch your children when they're online and see where 
they go.
	<bullet> Make sure that your children feel comfortable coming to 
you with questions and don't over react if things go wrong.
	<bullet> Keep kids out of chat rooms or IRC unless they are 
monitored.
	<bullet> Encourage discussions between you and your child about 
what they enjoy online.
	<bullet> Discuss these rules, get your children to agree to adhere to 
them, and post them near the computer as a reminder.
	<bullet> Find out what e-mail and instant messaging accounts they 
have and (while agreeing not to spy on them) ask them for 
their passwords for those accounts.
	<bullet> "Google" your children (and yourself) often and set alerts 
for your child's contact information. The alerts will e-mail 
you when any of the searched terms are spotted online. It's 
an early warning system for cyberbullying posts, and can 
help you spot ways in which your child's personal 
information may be exposed to strangers online. To learn 
how to "Google" them, visit InternetSuperHeroes.org.
	<bullet> Teach them what information they can share with others 
online and what they can't (like telephone numbers, 
address, their full name, cell numbers and school).
	<bullet> Check your children's profiles, blogs and any social-
networking posts. Social-networking websites include 
myspace.com, facebook.com and xanga.com. (We work 
closely with MySpace and Facebook to help keep their 
users safer.)  Social networks, generally, shouldn't be used 
by preteens and should be only carefully used by teens. 
Yfly.com is a new teen-only social network that is designed 
from top to bottom to keep teens safer and teach them 
about more responsible behaviors.
	<bullet> For those of you with preteens and young teens, read the 
Safer Social Networking guide at WiredSafety.org.
	<bullet> Get to know their "online friends" just as you get to know 
all of their other friends.
	<bullet> Warn them that people may not be what they seem to be 
and that people they chat with are not their friends, they are 
just people they chat with.
	<bullet> If they insist on meeting their online friend in real life, 
consider going with them. When they think they have 
found their soul mate, it is unlikely that your telling them 
"no" will make a difference. Offering to go with them 
keeps them safe.
	<bullet> Look into the new safer cell phones and cell phone features 
that give you greater control over what your children can 
access from their phone and how can contact them.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        Once you understand enough about cyberspace and how your 
children surf the Internet, you can set your own rules. These are the 
basic rules, even though you may want to add some of your own.
        Some kids like setting the rules out clearly in an agreement. 
Here's one you can use, and post near your computer to help them 
remember how to surf safely. (Note that while the tips may work 
for teens, the contract is designed for preteens and younger.)
        I want to use our computer and the Internet. I know that there 
are certain rules about what I should do online. I agree to follow 
these rules and my parents agree to help me follow these rules:

1. I will not give my name, address, telephone number, school, or 
my parents' names, address, or telephone number, to anyone I 
meet online.
2. I understand that some people online pretend to be someone 
else. Sometimes they pretend to be kids, when they're really 
grown ups. I will tell my parents about people I meet online. I 
will also tell my parents before I answer any e-mails I get from 
or send e-mails to new people I meet online.
3. I will not buy or order anything online without asking my 
parents or give out any credit card information.
4. I will not fill out any form online that asks me for any 
information about myself or my family without asking my 
parents first.
5. I will not get into arguments or fights online. If someone tries 
to start an argument or fight with me, I won't answer him or her 
and will tell my parents.
6. If I see something I do not like or that I know my parents don't 
want me to see, I will click on the "back" button or log off.
7. If I see people doing things or saying things to other kids 
online I know they're not supposed to do or say, I'll tell my 
parents.
8. I won't keep online secrets from my parents.
9. If someone sends me any pictures or any e-mails using bad 
language, I will tell my parents.
10. If someone asks me to do something I am not supposed to do, I 
will tell my parents.
11. I will not call anyone I met online, in person, unless my parents 
say it's okay.
12. I will never meet in person anyone I met online, unless my 
parents say it's okay.
13. I will never send anything to anyone I met online, unless my 
parents say it's okay.
14. If anyone I met online sends me anything, I will tell my 
parents.
15. I will not use something I found online and pretend it's mine.
16. I won't say bad things about people online, and I will practice 
good netiquette.
17. I won't use bad language online.
18. I know that my parents want to make sure I'm safe online, and I 
will listen to them when they ask me not to do something.
19. I will help teach my parents more about computers and the 
Internet.
20. I will practice safe computing, and check for viruses whenever 
I borrow a disk from someone or download something from the 
Internet.
21. I won't post my cell number on my away message, and will 
check with someone before posting something personal about 
me on my blog or on a networking site.
22. I will Stop, Block and Tell! If I am harassed online or 
cyberbullied.
23. I will Take 5! before reacting to something that upsets me or 
makes me angry online.
24. I will practice responsible "thinkB4Uclick" rules. (I know I can 
find out more about these things at InterentSuperHeroes.org 
and StopCyberbullying.org.)
25. I will learn how to be a good cybercitizen and control the 
technology, instead of being controlled by it.


_________________________________________________
I promise to follow these rules. (signed by the child)


________________________________________________
I promise to help my child follow these rules and not to over react 
if my child tells me about bad things in cyberspace (signed by 
parent).


From Parry:

        I am asked questions about kids online safety at least a hundred 
times a day. Is the Internet a dangerous place? Are there predators 
out there looking to set up a meeting with my child? How can we 
find good and reliable content online? How can I supervise my 
child's surfing when I can't even turn on the computer?
        These any other question like these fill my inbox daily. (If you 
have a question of your own, visit WiredKids.org or 
WiredSafety.org and click on "Ask Parry." Here is the one simple 
answer:
        The single greatest risk our children face in connection with the 
Internet is being denied access. We have solutions for every other 
risk.
        That bears repeating, over and over, especially when we hear 
about Internet sexual predators, hate, sex and violence online. But 
our children need the Internet for their education, careers and their 
future. 
        Happily, most of the risks are easily confined. In each and 
every case when children encounter Internet sexual predators 
offline, they go willing to the meeting. They may think the person 
is a cute fourteen year old girl or boy, but they know they are 
meeting someone they don't know in real life. That means we can 
prevent 100% of these crimes. Merely teach our children not to 
meet Internet strangers offline. If they are set on meeting that 
person anyway, go with them. That way, if the person turns out to 
be a cute fourteen year old, you are the hero. And if they aren't, 
you're an even bigger hero.
        Our WiredKids, WiredTeens and Teenangels programs, in 
addition to being fun and educational sites, are also volunteer 
programs where children and teens are taught online safety and 
privacy and responsible surfing. They then use these skills to help 
other children and teens learn to surf safely, as well. Talk to your 
children about what they do online (and offline also), and let them 
know you are there to help if things go wrong. You will note that 
in our safe surfing agreement parents have to promise only one 
thing...not to overreact if their children come to them for help. 
Earn their trust, and be worthy of it. Register your children at 
WiredKids.org, our children's online safety site, and we will make 
sure they learn what they need to know about enjoying the Internet 
safely and privately. It's not about technology at all...it's about 
communication and good parenting.
        Remember, we're all in this together!

Parry
Parry Aftab, Esq.
Executive Director
WiredSafety.org and its family of sites and programs, including 
Teenangels.org, WiredKids.org and CyberLawEnforcement.org

WiredSafety is a 501c-3 non-profit organization formed under the 
laws of the State of New York. (Its legal name is "Wired Kids, 
Inc.") This publication is copyrighted to Parry Aftab, Esq. All 
rights reserved. For permission to duplicate this publication, 
contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f3839281818ab39295879291dd909c9edd">[email&#160;protected]</a>


Appendix 3 and Appendix 4 
WiredSafety.org's Print PSAs

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

	MR. WHITFIELD.  Thank you.  Thank you so much, Ms. Aftab.  
And Ms. Sullivan?
        MS. SULLIVAN.  Thank you, Mr. Chairman.  Good afternoon.  
My name is Shannon Sullivan.  I am 14 years old and I will be 
entering tenth grade in the fall.  Teenangels is a group of 13 to 18-
year-old volunteers that have been specially trained by the local 
law enforcement and many other safety experts in all aspects of 
online safety, privacy and security.  We go through extensive 
training by Parry Aftab, Executive Director of WiredSafety.org.  
Teenangels was founded in 1999 in New Jersey, and I have been a 
part of the program since I was 13.  We are more than just teens 
who learn how to use the Internet and other interactive 
technologies safely.  We are experts who advise many leading 
corporations.  It is a great program because it is not teachers or 
parents just telling you another thing you shouldn't be doing.  It is 
your friends, another teen, someone who is in the same situation 
you are and understands the trends and what all teens want to do.
	An interesting fact about Teenangels is that there are more 
Teenangels in the State of New Jersey than any other State in the 
country or any other place in the world.  More of us means more 
teens being taught about Internet safety, more parents aware of the 
dangers of the Internet, and a lot more teachers and schools 
involved in our fight for a safer Internet for people of all ages.  The 
fact is, kids do stupid stuff on the Internet.  They pose in 
appropriate pictures, post personal information, and speak to 
people they do not really know.  But the answer is not getting rid 
of social networking.  Social networking is here to stay.  I am sure 
it has become a part of your teens, or teens you know, lives and an 
essential communication for people of all ages.
	WiredSafety is working with websites, law enforcement, 
parents, and schools to help create a total solution.  We do not 
want to get rid of social networking, but there are so many ways to 
make it safer and more kid and teen-orientated to protect our 
children.  There is not one answer to solving the problems of social 
networking.  Everyone needs to work together in order to solve the 
problem and to make sure social networking has more benefits 
than dangers.  One answer is teaching.  It is our job as Teenangels, 
and your job as elected officials, teachers, and parents, to inform 
all kids of what not to do and what they are allowed to do on the 
Internet.  We explain the dangers and the consequences of posting 
personal information, posing in inappropriate pictures, and 
speaking to people they do not know in real life, the teens, then 
they will be a lot of safer on the Internet.
	The problem is, not enough teens understand the dangers.  
They do not believe it will ever happen to them.  But the fact is, it 
can happen to anyone.  And a lot of parents are unaware and are 
almost afraid of finding out what their kids are doing.  They feel 
very uncomfortable when using a computer.  Parents need to know 
what their kids are doing on the Internet.  Now, when a parent tells 
a teenager, or my mom tells me something to do, I am not 
necessarily going to listen or take it as seriously as when my peer 
or another teen tells me what to do.
	Learning from your mistakes.  When I was in eighth grade my 
friend set me up with a profile on myspace.com.  All my friends 
have profiles and I figured it would be a good way to connect with 
my friends.  So on my page I had my picture, my first and last 
name, my age and school I attended and what year I was 
graduating.  I had no idea that it wasn't just my friends looking at 
my pages; anyone who wanted to.  Any predator who was looking 
for a 13-year-old girl from Woodbridge, New Jersey, could easily 
find one.  I learned from my mistake and I understand that 
anything posted on the Internet can be seen by anyone at any time.  
But teens need to learn from my mistake.  As we get teens to come 
out and tell their stories, either about how they have gotten in 
trouble on the Internet or about the mistakes they have made, then 
other teens would learn from what they did and not make the same 
mistake.
	So what do we need to do?  As well-informed teens, elected 
officials, teachers, and parents, it is our job to teach kids and teens 
about the dangers of the Internet, inform parents about what their 
children are doing on the computer, and give teachers and schools 
options about how to deal with social networking and each coming 
trend on the computer.  The Internet is a great learning tool and it 
is great for people of all ages to use.  But if not used properly, it 
can become extremely dangerous and hazardous to our children's 
lives.  So if we all come together and work to make the Internet 
safer and teach today's teens and tweens how to be safer, then the 
Internet will stay as a great learning tool and a vital part of our 
lives.  Thank you.
	[The prepared statement of Shannon Sullivan follows:]

PREPARED STATEMENT OF SHANNON SULLIVAN, TEEN ANGEL, WIREDSAFETY

Opening Statement:

        Thank you for inviting me here today to share information 
about Teenangels, WiredSafety.org and how we can protect 
everyone online. My name is Shannon Sullivan, and I am 14 years 
old from New Jersey. I will begin 10th grade in the fall. I have been 
a Teenangel for one year. I became one after my mother found out 
I had a MySpace. I had the opportunity of testifying before this 
sub-committee on the opening day of the hearings in Washington, 
following the testimony of Justin Berry.
        I have recently been honored by Teen People Magazine as a 
representative of Teenangels for our role in helping change the 
world. That is a big challenge. But it is one that teens can live up 
to.
        Teenangels are more than teens who learn how to use the 
Internet and other interactive technologies more safely. They are 
experts who advise many leading corporations.  They have become 
well-known for their special insight into technology from a teen's 
perspective. Teenangels now advise major corporations on Internet 
and technology uses, including Disney, the CTIA, Microsoft, 
AOL, Yahoo!, Marvel and others. They assist law enforcement 
agencies in designing more effective undercover investigation 
methods. They work with large industry groups, such as the 
Motion Picture Association of America, in building educational 
programs and public service messages.
        They have helped create safer interactive gaming technologies, 
safer cell phone features and more secure social networking 
programs. They have hosted briefings at the House of Parliament, 
conducted training for law enforcement agencies and written 
articles for leading magazines. They do presentations within their 
community for parents, students and senior citizens on safe use of 
the Internet and new interactive technologies. They spend a great 
deal of time on Internet sexual predators issues, anti-piracy and 
cyberbullying. We teach good cybercitizenship and responsible 
technology use, not only safety and privacy.
        Teenangels are 13-18 year olds who train in all aspects of 
Internet and interactive technology safety, security and responsible 
use. (Tweenangels is the younger and lighter version of 
Teenangels, comprised of 9 to 12 year olds.) Once we are trained 
by Parry Aftab, leading law enforcement agencies and industry 
leaders around the world, these special teen experts create their 
own programs to teach safe and responsible technology use.
        Some Teenangels are technological experts, creating 
animations, Flash applications, videos and computer games that 
help deliver their messages. Others concentrate on law and policy. 
Many have good public speaking, research or writing skills. The 
best thing about Teenangels is that it helps young people develop 
their own talents and help others at the same time.
        We challenge teens and preteens, "Think you know more than 
most adults about the Internet? Share what you know, and learn 
more from the experts. Be part of the solution. Be a Teenangel!"
        It is important that we teach young people that being safe isn't 
lame. That it's not cool to pretend you were out drinking all 
weekend, or to pose in your bra online. Many teens and preteens 
are lying about their ages to use social networking websites. And 
when they are there, they are often doing high risk things. But, it's 
important that parents understand that most teens and preteens are 
using the technology safely and responsibly. We just need to 
address them in our own language.
        Recently, Teenangels began working with Nick Lachey. When 
Parry wasn't able to attend a luncheon with Teen People 
introducing me (she was in Spain launching her new book), Nick 
came instead. He learned that Internet sexual predators were using 
his name to lure teens into sending sexual pics online. Since he 
first met Parry he has donated his time to helping us keep kids 
safer. He is even helping us with public service announcements 
and a fun new animated educational series we are producing using 
        Teenangels to teach safer and more responsible technology use.
Teenangels is now working with Nick's new site, YFly.com, to 
help create a safer teen social networking site. We helped create 
Don't Be Stupid to teach teens that engaging in reckless behavior 
online is stupid, not cool.
        As Teenangels, we have the mission of helping make the 
Internet safer. We need your help to do that. First I would like to 
thank you for helping us by providing funding. We just received an 
earmark from Congress, through the Department of Justice, for 
$50,000. Since Teenangels hold bake sales and wash cars to raise 
money for our programs, this will change our world. We cannot 
thank you enough!
        Next, I would like to share thoughts about what we can all do 
to help keep young people safer online.....
Why Teenangels works and how teens can help keep each 
other and themelves safer online:
	<bullet> We are more than just teens who learn how to use the 
Internet and other interactive technologies safely.  We are 
experts who advise many leading corporations
	<bullet> It is a great program because its not teachers or parents 
just telling you another thing you shouldn't be doing, instead 
it's your friend, another teen, someone who is in the same 
situation you are and understands the trends and what all 
teens want to do.  
	<bullet> And an important part about TeenAngels is that there are 
more TeenAngels in state of New Jersey than any other 
state in country, or any other place in world
	<bullet> More of us means more teens being taught about internet 
safety, more parents aware of the dangers of the internet, 
and a lot more teachers and schools involved in our fight 
for a safer internet for people of all ages

        Kids do stupid things on the internet, we need to recognize that 
if we are going to try and address the problem:
	<bullet> Pose in inappropriate pictures
	<bullet> Post personal information
	<bullet> Speak to people they don't really know

        The answer is not getting rid of Social Networking
	<bullet> Social Networking is here to stay
	<bullet> I'm sure it has become a part of your teen's or teens you 
know lives
	<bullet> It is the central communication for people of all ages
                o Bands posting when shows are
 
        How Wiredsafety can help...
	<bullet> WiredSafety is working with websites, law enforcements, 
parents, and schools to help create a total solution
	<bullet> We don't want to get rid of social networking but there are 
so many ways to make it safer and more kid and teen 
orientated to protect our children
	<bullet> There is not one answer to solving the problems with social 
networking
	<bullet> Everyone needs to work together in order to solve the 
problems and to make sure social networking has more 
benefits than dangers
	<bullet> And our Executive Director lives here in NJ too!

        One answer is teaching kids and teens to thinkb4uclick!
	<bullet> It is our job as TeenAngels and your job as elected 
officials, teachers, and parents to inform all kids of what 
not to do and what they are allowed to do on the internet
	<bullet> If we explain the dangers and the consequences of posting 
personal information, posing in inappropriate picture, and 
speaking to people they do not know in real life to teens 
they would change their behavior and be a lot safer on the 
internet
	<bullet> The problem not enough teens understand the dangers, they 
don't believe it will ever happen to them, but the fact is it 
can happen to anyone
	<bullet> And a lot of parents are unaware and are almost afraid of 
finding out what their kids are doing.  They feel very 
uncomfortable when using the computer.  Parents to know 
what their kids are doing on the internet.
	<bullet> Now when a parent tells a teenager or my mom tells me 
something to do I'm not necessarily going to listen or care 
as much as when my peer or another teen tells me to do 
something.

        Learning from your mistakes
	<bullet> When I was in 8th grade my friend set me up with a profile 
on myspace.com (tell story)
	<bullet> I learned from my mistake and I understand that anything 
posted on the internet can be seen by anyone at anytime but 
teens need to learn from my mistake
	<bullet> If we got teens to come out and tell their stories either 
about how they got in trouble on the internet or about the 
mistakes they've made then other teens would learn from 
what they did.

        So what we need to do
	<bullet> As well informed teens, elected officials, teachers, and 
parents its our job to teach kids and teens about the dangers 
of the internet, inform parents about what their children are 
doing on the computer, and give teachers and schools 
options about how to deal with social networking and each 
coming trend on the computer

        Closing
	<bullet> The internet is great learning tool and is great for people 
of all ages to use but if not used properly it can become 
extremely dangerous and hazardous to your children's 
lives.  So if we all come together and work to make the 
internet safer and teach today's teens and tweens how to be 
safer than the internet will stay as a great learning tool for 
people of all ages.

        Thank you for your time and caring enough to hold this 
hearing. And thank you for taking the time to listen to teens. It's 
nice to be included. And I will remember this day forever. On 
behalf of all my fellow Teenangels and Tweenangels, thank you.

Shannon Sullivan, age 14
New Jersey
Teenangels.org


Appendixes 

Appendix A: (from Teenangels.org)

Safety Tips From the Mouths of Teenangels                     
                    

(The Real Experts)... 

        While we have more extensive safety tip lists in Parry's book, 
here is a summarized version of the tips we thought were most 
important! 
        As Teenangels, safety is our biggest concern. So here are some 
tips and ideas that we and others have to share. Some of the best 
suggestions come from TEENS, just like you! 
        If you have a safety tip or story of something that has happened 
to you and how you handled it, please send it to us. We would love 
to hear from you! Email Teenangels.
        Thoughts for Parents, Teens & Kids from the Teenangels 
        Parents... Don't be afraid of the Internet. It's an extremely 
useful tool & can't be dismissed because it is new & sometimes 
confusing. The Internet can be an excellent way for you & your 
children to bond & share a common interest. Be open with your 
kids & get involved. Most of all, learn all that you can about being 
safe, keeping your child safe, & taking advantage of the Internet's 
myriad uses. Tell your children not to be afraid to come to you 
with problems of any kind. 
        Teenagers...Although the Internet is a great way to meet new 
people, do research, and chat with friends, there are dangers. Be 
aware of these dangers. Always use common sense. Although you 
may think that bad things won't happen to you, they most certainly 
can. Be open with your parents about what you do online. Don't 
meet people offline that you met online! Make sure a site is secure 
and trustworthy before giving in your personal information. Obey 
the law and don't steal music, motion pictures and software! 
Balance the time you spend online and offline. Remember your 
friends in real life and don't take them for granted. Go outside & 
enjoy life beyond cyberspace. 
        Kids... While it's great to chat with people in kid-safe chat 
rooms online, you should spend time with friends in real life. 
School, family, & friends should always come before the Internet. 
Always tell your parents about what you do online. Let them sit 
with you, & teach them about the Internet. When they do sit with 
you, don't get mad at them. Just know they care about you & don't 
want to see you hurt in any way. Always remember that people 
online don't always tell the truth. Don't give out a lot of 
information about yourself. If anything bad ever happens to you on 
the Internet, always tell your parents or someone you trust. Always 
remember that it's never your fault.


Appendix B: Don't Be Stupid!

For Teens:

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

Don't Be Stupid! 

What you need to know about cyberdating and staying safe

The Downers:
        You never really know who someone is online. They may 
sound hot and their pic may be even hotter, but they could be 
someone you don't expect. They could be your little brother's 
snotty 12-year old friends having fun at your expense. Or three 15-
year old mean girls posing as a heart throb to set you up for 
humiliation. Or they could be some 47 year old pervert. Either 
way, who needs it?
        And even if it is a cute 16-year old guy or girl, there is no 
guarantee that when things are over, that sexy pic you shared with 
them won't end up on some website or profile somewhere. Or they 
could use the password you shared with them to change your 
profile, pose as you and harass your friends or even lock you out of 
your own account. Or they could cyberbully, flame, cyber-harass 
or cyberstalk you or your friends.When you breakup, all bets are 
off!
 
The Buck Stops Here...You Need to Protect Yourself Online
        Smart teens have been fooled by slimy adults posing as teens. 
There is no safe way to meet someone you only know online, (with 
maybe from a few phone calls to help), in RL. If you're thinking 
about meeting someone, think again. Talk to your friends. Check 
out Katiesplace.org and learn about how others have been hurt by 
adults posing as teens. Smart teens like you. Don't do it!
        We can't emphasize this enough! But, we also know that if you 
are convinced that this is a cute 16 year old boy or girl is the love 
of your life and destined for you from birth, you may ignore this 
advice and plan on meeting them in RL. If you are intent on taking 
this risk, do what you can to minimize it. Make sure you follow 
these Don't Be Stupid tips:
        1. Don't disclose too much personal info. Start by assuming 
that the person on the other end is a predator. That means no full 
names, street addresses, RL schedules or telephone numbers that 
can be reverse searched (check it out online or where you work, or 
similar info about your friends that can be used to find you offline. 
It's always a good idea to use a disposable e-mail address or IM 
account, something you set up just for this and that you can drop if 
things start going downhill (like yahoo, hotmail or MSN.) Make 
sure that this new screen name doesn't give away any information 
about who you are in RL either (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f2a69b9494c3cbcbc3b2">[email&#160;protected]</a>[fill in the blank]). 
        2. Play detective. Photos can give away more information than 
you ever intended. Things in the background of the photo, like the 
license plate on your car, your house, the store where you work, 
the school or camp sweatshirt you're wearing or a pic with you in 
front of your school can be risky. So can photos posted by your 
friends. While you may be very careful about what you are sharing 
online, they may not be as careful. If you link to their profile and 
haven't told anyone where you live, but they post their best friends 
(including you), everyone can now figure out what town you live 
in and where you go to school. They just need to cross-reference a 
bit. The same thing happens with everything you or your friends 
post. Look over your profile and the profile of your friends. If you 
were a detective for Law & Order, could you find yourself in RL? 
If so, change whatever is giving too many clues away. Password 
protect it and guard your password, and ask your friends to do the 
same. Start a rule - never post info about a friend or their pic 
without asking first. 
        3. Say Cheese! There are three issues about pics online - 
posting something you'll regret, shooting a lame pic or posting a 
pic that can be abused or misused by others. Sometimes to get 
attention, teens pose in provocative ways or snap a pic when they 
are doing things their parents would not want to see. 
Unfortunately, parents do see them. And so do principals and 
predators (and shortly college admission staff).
        We all know that lame "MySpace" pose - bad lighting, cheeks 
sucked in, lips pursed, head tilted up, with a flash in the mirror. :-) 
Is that really how you want to be remembered? 
        Putting your best foot forward and using a good pic or a fun 
one is much better than doing the "I am so hot I can't stand it" 
pose. Boys posing shirtless and trying to make their pecs look 
bigger by crossing their arms underneath them, or girls posing in a 
bikini top (or worse) or very low cut pants will get you attention. 
But not the attention you may want. And cyberharassment where 
an innocent G-rated pic is manipulated and used to make you look 
bad or to morph your head on someone else's naked body is 
commonplace. You can avoid that by using photo-editing software 
to pixilate or blur the image, turn it into a sketch or cartoon, sepia 
or black and white. This makes your photos harder to abuse and 
less attractive to the harasser or a predator. 
        Our new Best Food Forward (BFF) tips teach you how to make 
the impression you want to make, without being lame or stupid. 
You can read about them at Teenangels.org or at our Don't Be 
Stupid tips at YFly.com. These will help you come across the way 
you want to online.
        4. Look for the red flags. Beware of others online who:
        	<bullet> ask too many questions
	        <bullet> post things that don't make sense
	        <bullet> move too fast
	        <bullet> promise you ridiculous things (if it seems too good 
                        to be true, it's not true!)
	        <bullet> like everything that you like, exactly the way you 
                        like it
                <bullet> know too much about you
	        <bullet> engage in cybersex
	        <bullet> just don't feel right or make you uncomfortable
                <bullet> are evasive
	        <bullet> can't keep their story straight 
	        <bullet> initiate sexual conversation or innuendo
	        <bullet> don't know the things most teens know (just know the 
                experienced predators make it their business to know these 
                things)
	        <bullet> pressure you to send sexy pics or meet in RL 
	        <bullet> give you the creeps
        5. ThinkB4UClick. It's so easy to do things online that you 
would never do in RL. You don't have to look the other person in 
the eye. No one else is there to tell you to cool it. You are stronger, 
smarter, more empowered and braver online. You may not like 
your coach, principal or former best friend or boy or girl friend. 
        You take their pic and morph it onto someone else's naked 
body. You post sex ads using their name and contact info. Maybe 
you take a pic of them with your cell phone in a locker room, 
bathroom, at a slumber party or in the changing room at the Gap. 
You build a profile telling everyone what a slut they are, or post 
these pics online anonymously. Or you send sexual images of 
yourself to someone you like, thinking they will want to go out 
with you if they see how sexy you are. They don't, but share the 
pic with their fifty nearest and dearest friends - who show it to 
their friends and so on and so forth....
        You think no one can find you, trace you or figure out who you 
are (you're wrong!). There is nothing between your impulse and 
your click...no time to think about it, no time to calm down. No 
time to use the "filter between your ears." 
        You are also typing fast and aren't proofreading your text-
messages, IM or posts, and often send it to the wrong person on 
your buddy list or misspell their screen name. You may forget to 
type in "jk" or the word "not." You may find yourself in trouble 
without knowing why. Think R-E-S-P-E-C-T! (Now do it like 
Aretha, with lots of style!) Taking that extra second to make sure 
you send it to the right person, aren't misunderstood and are 
willing to be accountable for what you are doing and saying online 
is crucial. It will save you lots of grief later!


Appendix C 

For Teens:

Finding Love in all the Cyberplaces...Don't Be Stupid! 

        If you decide to meet someone in-person, and ignore 
everything we taught you -- at least follow these tips and trust your 
gut. If something feels wrong, get out of there and report it. And 
remember that about 30% of the victims are boys. They just don't 
report it. So be careful!
        1. Go public. Find out what they will be wearing and arrange 
for a place to meet. Then get there early and stake things out. The 
idea is to spot them before they spot you. Make sure that you meet 
in a well-lighted public place. It should be big and public enough 
so you can he help if you needed it, but not so big, crowded and 
noisy that you wouldn't be heard or couldn't get help. Don't meet in 
an amusement park, where screaming is part of the scenery. A mall 
is a good choice, but sit back and watch and see who shows up. If 
they are not what was promised, run...do not walk...home, to the 
security office or to the local police department. Make sure 
someone calls the police. 
        Never meet at your place or theirs. Never get in a car with 
them. Go with lots of friends (preferably Sumo wrestlers). Ignoring 
these tips could cost you your life. Really. Several smart teens 
have been killed in the US over the last four years by people they 
met online. Don't become a victim.
        2. Bring backup. If you are going to meet, bring a lots of 
friends (preferably big ones :-)), and someone where you are 
going. Leave information about the person you are meeting. The 
bad guys will try and get you to erase the e-mails or bring your 
laptop or hard drive with you, so they can destroy the evidence. 
Best case scenario, trust your parents or another adult family 
member. This has saved more than one teen from being kidnapped, 
raped or killed.
        3. Find your own ride. Don't accept a ride from them or offer a 
ride to them...even if they appear to be cute and cuddly. Stay in 
control of where you go and how you are going to get there and 
back. Bring a cell phone and make sure it's charged. Have others 
check in on you too.
        4. Take it slow. Even if that's not your style, make it your style 
for any cyberdating situations. Just because they have told you 
their favorite bands, movies and food doesn't mean you have any 
idea who they really are. Treat it like a first date. It will feel weird 
at first. You feel closer than you would on a first date. They will 
know lots of things about you that you have shared. Often very 
personal things. But start from scratch. Don't move faster than you 
are comfortable doing and don't feel pressured. Keep others around 
for awhile as you get to know each other and trust your instincts.
        5. Rat on the Creep! Your parents will kill you if they found 
out you met someone from the Internet in RL. But if you don't 
report it to someone, this creep may kill some teen in reality! Most 
of the time when police arrest an Internet sexual predator, they find 
lots of e-mails on their computer threatening to call the police if 
they bothered the teen one more time. Had someone actually called 
the police, another teen might have been saved. Even if you won't 
tell your parents, find a way to report the creep. Check out 
Katiesplace.org for ways you can do that and more safety tips and 
real stories about real teens.

copyright 2006, Parry Aftab, all rights reserved. For permission to 
reprint this, contact Parry at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="db8bbaa9a9a29bacb2a9bebfa8babdbeafa2f5b4a9bcf5">[email&#160;protected]</a> 


Appendix D

For Teens:

Finding a Better Faith

        A fictional account. 
        I thought I had met my dream guy. I really did. Now, I see 
where my mistake was, sure. It was in believing what I saw in the 
movies and on television. Believing what I read in magazines 
about true love and soul mates. I believed in the Madison Avenue 
picture of love, romance and happily ever after, and glossy views 
of happiness and popularity. I was taught these things my whole 
life by my everyone I knew and from books, movies, and songs. I 
was told that if I were good enough, thin enough, charming 
enough, pretty enough, and exciting enough my life would be 
fulfilling, happy and exciting. But no one ever tells you how 
dangerous this blind belief can be.
        When I was a freshman in high school, I was miserable. I lived 
in one of those towns where the same kids are in your grade all the 
way through school, so everyone gets to know each other pretty 
well. They knew me in middle school when I had acne and bad 
clothing and was shy and self-conscious. And then I grew out of 
that, but no one much noticed. I know I was pretty in the year or 
two before I died because people started noticing me - people who 
didn't go to my school, who didn't remember how I used to be 
awkward. 
        And it felt good. I felt different and happy and hopeful. I 
thought to myself that maybe now I would have a boyfriend. 
Maybe he just couldn't find me before because I was shy and 
awkward, and it'll definitely happen now that I'm in high school 
and all the older boys can see how pretty I had become in the last 
few years. But it didn't. No one looked at me any differently than 
they ever had and I got depressed. I thought to myself that high 
school might just be middle school again - that maybe nothing 
would be different and I would have to go through three more 
years of being lonely and waiting until something better happened. 
For a while, I got resigned myself to this fate and then something 
changed and I got up one morning and said no. I think I said it out 
loud, actually, it's kind of funny to think of now. I decided that I 
would say no to this fate - that I wouldn't be alone and I wouldn't 
be miserable - not anymore. I decided that I would meet someone 
and I would have a boyfriend within a month or two - do or die - 
that I would take my life into my own hands. And that I did. 
        I started going online and searching for people to talk to - 
people who would be more mature and would understand me. I 
sorted through people's profiles on Friendster and Xanga.com and 
set up my own. And then I met someone, and it was just as easy as 
I ever dreamed it could be. We IMed for hours, about everything 
and I felt, for the first time, that someone really understood me. 
Sounds pretty silly now. We talked about our families, our dreams, 
books that had changed us - everything. I thought I was falling in 
love. I knew I had found "the one." I was the lucky one, and had 
found my soul mate early.
        When he asked me if I wanted to meet, at first I said no, that I 
didn't know him well enough. He didn't push it, and instead, we 
started talking on the phone. He had a very deep voice, which 
didn't surprise me because he said he was 18, but it probably 
should have. Anyway, a month later he said he had to meet me. He 
said he couldn't' stand it anymore - that he loved me - and said 
that if I wouldn't meet him he would come find me because if he 
didn't see me he'd die. In the end, it didn't quite work that way, 
though.  
        I realized that my parents would kill me if a random guy 
showed up at the house looking for me. I couldn't have that 
happen, so I agreed to meet him. It was stupid, I know, but I was 
told more time than one that it's okay to do stupid things when 
you're in love.
        I met him at the mall, in the food court. He was 37, not 18. I 
started crying and told him that he lied to me and I never wanted to 
see him again. I felt betrayed, and confused. He handed me the 
rose he had brought and a book of poems. I just stared at them, 
having problems separating the 18 year old I knew so well, form 
this man standing in front of me with tears rolling down his 
cheeks.
        While he cried quietly, he told me that he loved me so much - 
that he knew I would never date him if I knew how old he was, 
which is true. I worked up the courage to leave. But he started 
making a big scene - pleading with me not to leave him. Telling 
me how much he loved and appreciated me, when no one else did. 
I was afraid someone I knew or who my family knew might see so 
I agreed - his last request - to go outside to talk. 
        He said he had a present for me in his car, and could he just 
give it to me. I said ok, probably the stupidest thing anyone's ever 
done. He clamped his hand over my mouth so no one could hear 
the screams. Then he pushed me in his car, throwing a blanket over 
me and holding me down so no one could see. He poured some 
smelly chemical over the blanket near my face. At first I held my 
breath, but finally had to take a breath. I knew I was in trouble, and 
felt dizzy immediately. I must have passed out. I don't know how 
long it was before I woke up, and realized this wasn't a horrible 
dream. It was real. He took me someplace in the woods, dragged 
me from the car and tied me up. He beat me, while he raped me, 
crying and telling me he loved me the whole time.  I felt like my 
insides were being ripped out. That was how I lost my virginity. 
And my innocence. And more.
        I still feel like its all my fault. Why did I believe him? Why did 
I believe that anybody normal could be that into me? Even after all 
this time, the only answer I can come up with is that I had believed 
in make-believe. If I hadn't wanted to fall in love so badly, if I 
hadn't needed someone wanting me to validate how I felt about 
myself, I wouldn't have let my judgment get clouded. I would 
probably be alone in my room, depressed, but I'd be better off than 
I am now.
        So believe in happily ever after, but reality too. It's okay to be 
hopeful because life would be too hard without it. But don't let it 
cloud your better judgment. Have faith in yourself and don't waste 
it on people who may or may not love you or save you or complete 
you. And don't trust people - at least for a while, at least till you 
know who they really are and what they are capable of. And never 
just because you talk with them online and on the phone and think 
you know them. Love and loneliness don't excuse stupid behavior, 
and they certainly don't buy you another chance to fix it. 
        I will never know what could have happened in my life - who I 
could have met or what I might have done, because he killed me 
before leaving my body for some hikers to find weeks later.  I was 
almost unrecognizable. My parents had to identify me, and the 
hair, clothes and complexion I worked so hard to make perfect 
weren't even identifiable anymore. I was ashamed that I had done 
this to my parents, and my little sister, and most of all to myself.
My friends didn't envy my "kewl" new life. They, instead, 
mourned me, and even my dearest friends talked about how 
"stupid" I was. 
        My little sister couldn't stop sobbing. She held my hand, and 
clung to the casket when they tried to take it out of the church. I 
tried to hold her hand back, but nothing happened. I wanted to 
reach out and comfort her. But from now on, she wouldn't have a 
big sister to do that anymore. She couldn't climb into my bed and 
tell me about her kitten and why she wanted to be "just like me" 
when she grew up. 
        I hope she wouldn't be just like me. I hope she is smarter than I 
was, and not as trusting. Not as naive
        I wish I had a second chance. I wish I could warn others about 
this kind of thing. But I can't. I'm dead. 
        This "love of my life", my "soul mate" didn't only rob me of 
my innocence and any chance at happiness - I'll never know if I 
could have made it. I never got a fair shot. If you're in the same 
situation I was in, I can't say if it'll ever get better, or if you'll ever 
be successful, or rich, or pretty, or lose the weight, or get the guy, 
but I can say you better hang around and try, because I'd do just 
about anything for the second chance. A chance to find someone 
real. A chance to know if I could have been happy. 


Appendix E

About Teenangels from a school technology director in Wisconsin:

        About 5 years ago, I got a phone call from one of the parents in 
our school district asking that her daughter's Internet and email 
privileges be revoked.  She decided that her daughter would no 
longer be allowed to be part of the "Cyber World."
        When I spoke more with this parent, I learned that the daughter 
had been harassed online.  She had given out personal information 
and was now receiving inappropriate emails and phone calls at her 
home.
        I immediately looked for resources online to help this family.  
The Internet is such an incredible resource - I wanted to find a way 
to convince the family that education regarding Internet use was a 
better solution than instituting a complete ban for their high school 
daughter.
        As a result of my searches, I happened on information about 
Parry - I contacted her and she agreed to speak at a school 
assembly with a parent information meeting to follow.  After 
Parry's talk, I literally had a line of students in my office - these 
students wanted to help other teens to be safe online.  From that 
group, our TeenAngel chapter was started.
        The Teens devoted an entire Spring Break to intensive training 
and the rest is history.  Our TeenAngel chapter works to educate 
Teens (and parents) about online safety.  We have a "Tech" 
division that works on programming and helps community 
members with problems ranging from P.C. trouble to instructions 
on virus removal.
        Our teens are highly motivated and highly technologically 
savvy.  Among other things, our group has attended the Wired 
Kids Summit in Washington D.C. working with legislators and 
corporate executives to help make the Internet a safer place for 
kids.  One of our teens was featured on "The John Walsh Show" in 
their "Hometown Hero" segment.  Locally, our teens have 
presented to numerous school, church, and parent groups as well as 
presented at state conferences focusing on issues relevant to Teens.
        This is a great program.  In our high school, it has become a 
place and program for our "Tech" guys to devote their energy and 
talent.  



Appendix F

        From Katiesplace.org, written by one of our Teenangels who 
wants to teach others how to avoid being victimized in the way she 
had been.

When Your Mentor Becomes Your Tormentor - Alicia's Story 
        You never notice yourself growing. It's so gradual, so smooth a 
process that the daily or even monthly changes are simply 
undetectable. Mirrors don't help - its only in comparing 
photographs, in seeing yourself at different stages, that one can 
notice the differences. 
        My relationship online with Mac grew just that slowly. When 
we were first introduced online, he was courteous and interested 
and subtle, none of those childish IMs which are so common, 
among young teens, flaunting their new-found sexuality like so 
many new toys. He didn't try to have cyber sex with me, didn't 
make crude comments or ask me to go on the webcam. It doesn't 
work like that. He was thoughtful and gentle and nice, and, of 
course, entirely deceptive, and so we became friends. Just friends. 
And it was all very innocent - for a time. 
        It was in the slowest, least noticeable way that he eased me into 
a more intimate relationship online. He was an expert, but, of 
course, I didn't know that at the time. The way the conversation 
moved into more personal territory never felt threatening because 
it moved so slowly. We would talk for a few minutes more each 
day, about something a little more personal each day, and some 
days we could talk about nothing personal at all. He never pushed, 
never insisted and so convinced me that I wanted to tell him 
personal things, or 'parrot' those things that he so wanted to hear 
from me. And I did. 
        So we talked about everything - not just the sexual stuff. He 
was interested in me, as a person - my thoughts, my goals, my 
relationships with friends and family members. He gave me adult 
advice and always took my side. He was my advocate, 
unconditionally, at a time in my early teenage life where that was 
just what I needed. School was: well it was school, mean girls and 
nasty boys and everyone trying to be all that they're not- And my 
family and I, were very close, but we didn't always see eye-to eye 
about everything, sometimes they just seemed to think that I was 
still a child. But there was always Mac, and I could count on him 
to see things my way Always online. Always ready to talk. Always 
on my side. It was the most comforting thing imaginable. 
        Soon enough, he wasn't just someone that I could trust, he 
became the someone I needed - I began to believe that he was the 
only one I could depend on to understand the real me, which is 
exactly what he wanted, of course. Somehow, in this process, this 
grooming of me, he had changed me, had destroyed my ability to 
reason. Imagine, I walked out the door, right out of my own front 
door into the darkest iciest winter night, with no money and no 
coat, to meet a madman who I thought was my best friend. 
        Was I crazy? No. Was I duped? Entirely. When I review it all, 
comparing my mental photographs of our relationship at different 
times, I think, how could it have happened? How could my sanity, 
my reason, my mental state have decayed like that - how did he 
make me shrink away to nothing? How could I have gone from 
being a smart, sane girl having casual conversations with an online 
friend to doing something I would have sworn I could never do -
who. shy timid little me?-never!!!!- meeting a total stranger in 
the dark, cold night - leaving home in the middle of a happy, 
loving, family holiday meal? My only answer is that I wasn't crazy 
- I was just under the spell of an incredibly skillful manipulator 
who knew that slow and steady wins the race - or at least the 
hearts of young girls. He took me apart and put me back together 
and bit by bit, day by day, byte by byte, he became the focus of my 
life and the one who understood me best. Why wouldn't I want to 
meet someone like that IRL? It felt right. 
        And yet it was so wrong. The moment he persuaded me into 
the car, I immediately knew that I was in trouble. I knew. I had this 
terrible sinking feeling in the pit of my stomach as we drove down 
my street, out of my neighborhood, and then, onto the turnpike. 
Trapped "Quiet" he said. "Let's keep the trunk empty." I kept my 
eyes cast down, stealing quick furtive glances up at him from the 
corners of my eyes. Somehow, I instinctively knew that he was 
like a savage beast, and that I had only to make full eye contact to 
engage his anger, to force him to attack. I stared down at his shoes 
as we drove. At his pants, his socks, I studied them, eyes cast 
down. I could describe it all to you today - that image, that feeling, 
trapped .it will haunt me forever. Those hours sitting there, the 
waiting.. 
        What terrible fate awaited me when we arrived at his home? I 
never envisioned anything as terrible as the reality. When we 
arrived at his home it was - worse than even I had imagined it 
could be. It was way worse than a bad after-school movie. It was 
Friday the 13th and Texas- Chainsaw-Massacre! And he had it 
planned - days before, maybe months before, maybe the first time 
we ever spoke. I was stripped, tortured, beaten. .. Raped. Those 
words still stick to the roof of my mouth and are glued thickly to 
my tongue. I listened through the windows to cars passing by, to 
the voices of neighboring families going out for lunch and to the 
mall and coming home again at night, yet there I remained, collar 
around my neck, chained to a post, naked. This was me at age 13. 
Waiting for death. How would he do it? Would he stab me, would 
I bleed to death, my blood adding yet another stain to the filthy 
carpet" Would he beat me to death with whips and fists, chained 
helpless, unable to defend myself? 
        Into this morbid fantasy, unbidden, a fairy tale that my mother 
had read to me while tucked warm and safe into my silken little 
'blankie' kept flashing into my mind. The one of an Arabian slave 
girl held captive by her master. The tale unfolds that at the moment 
her stories ceased to entertain him, to amuse him - then he would 
kill her, with this in mind, the helpless slave fought for her life 
with the only weapon she had - her mind... And she became my 
inspiration. I would persevere, I would not die. My captor would 
not win this battle. I knew that my family loved me, that they 
would move heaven and earth to find me. But I had to stay alive 
until they did. So I struggled, silently, determined to win back the 
life I had left behind. My life that somehow had seemed to become 
so empty, so sad. why? I understood now, in those cold hours 
alone, waiting for the monster's return, it all began to come clear. I 
wanted my life back! I wanted to feel my mom's gentle kisses 
good-night and my dad's crushing hugs, I wanted to run outside 
into the sun, to add my voice to the other happy children's, far, far 
away from the dark coldness of his dungeon. I wanted to 
experience anything - anything - except what was happening to 
me. I desperately wanted to live! 
        So I waited it out. I prayed. It might not seem, to you, like the 
most courageous thing to do - I didn't fight him, didn't engage his 
anger. But, somehow, I knew that he would kill me, throw me 
away like trash in some cold shallow grave if I resisted anymore. 
He enjoyed my pain. So, I just wasn't there I left - mentally 
anyway. This wasn't happening to me. I escaped into my head and 
tried desperately to hang on to my sanity. It took my whole being 
to merely breathe. One breath at a time I waited for my death. I 
knew that one wrong move would cost me my life and so I simply 
waited, telling myself "today, yeah today they'll find me. rescue 
me," convincing myself that this would not be how it all ends, that 
my parents would not find their only daughter's dead and battered 
body in this evil man's filthy house. I couldn't, I wouldn't, let it 
end that way. So I resolved to live. Breath by breath. Moment by 
moment. 
        And I did. I made it through, a miracle of survival, when so 
many other girls have been less fortunate. And I can't say if it was 
faith, or luck, or personal resolve that saved me. And it doesn't 
really matter. I truly feel that something greater than myself has 
directed me. I am alive. I was given the second chance that so 
many others had been denied. 
        I promised myself in those dark and painful days and endless 
nights that if I were spared, if I were given a second chance at life, 
I would share my horror, to teach others - maybe you - how to 
avoid becoming his next victim. I would help them understand that 
the mentor you thought you found online might become the 
tormenter who steals your heart, your innocence and your faith in 
mankind. And ultimately, your life... 
        Mac failed. While the emotional and physical scars may last a 
lifetime, he didn't shake my faith in myself or in mankind. He may 
have stolen days, weeks, months, he may have taken my 
childhood, but the rest of my life is mine. And I have reclaimed it. 
I will not allow him to torment me anymore. Only I have the power 
to control my future. I refuse to be defined by his betrayal of my 
trust, by his cruel sadistic acts or by those dark days, however 
devastating they may have been. I have a mission and an important 
role to play. I want to inspire others to move on, past their 
exploitation, to find their own life mission. I was spared and given 
a second chance. And I don't intend to waste it. I will continue to 
speak to young people and dedicate my life to helping catch 
criminals, like Mac. I am also helping, here, to build 
KatiesPlace.org and as a volunteer with WiredSafety.org and 
others. 
        So, please don't remember me as the girl who was torn, 
twisted, confused, lured abducted and abused. Remember me for 
what I will accomplish. Please don't let this tragedy define me. I 
am so much more than that. And so are you. Join me in this 
mission. Together we can change the world, one child, and one life 
at a time. You can read about miraculous rescues and the dedicated 
and courageous men and woman responsible for bringing 
victimized children to safety here at KatiesPlace.org. And you can 
e-mail me through this site. Please, be safe.be aware.

	MR. WHITFIELD.  Thank you, Ms. Sullivan.  And Ms. Hahn, 
you are recognized for 5 minutes.  Give her the microphone.
MS. HAHN.  It is heavy.  Oh well.  Thank you for having me 
this afternoon.  As we all know, youth bullying is not a new issue.  
I am sure, growing up, many of you may have been a bully's 
victim or at least knew someone who had been called degrading 
names or in others way been harassed.  But bullying is one that can 
be easily overlooked as kids will be kids.
	Bullying has become a universal issue that affects both boys 
and girls regardless of age or circumstance, and over the past few 
years has grown in epic proportions, from name-calling and to kids 
throwing sticks and stones on a playground to invading a person's 
home via text messaging and the Internet.  Thanks to the 
technologies of today, computer, websites, and cell phones, it has 
become increasingly easier and more appealing for bullies to seek 
out victims.  Kids who might have been hesitant to participate in 
bullying in the past can now hide behind an anonymous screen 
name without fear of being caught.
	Name-calling, physical attacks, death threats, these are all 
things that I have personally gone through.  At the age of 12 and a 
half, I wound up in a state of depression.  I am able to be here 
today and to spread my story across New Jersey because I have 
gone through years of counseling and was able to recover.  
Unfortunately, that is not the case for every child.  We have kids 
committing suicide, as most of you know.  As a victim of severe 
bullying both online and off line for years, I fully understand the 
long-term effects bullying can have on a child.  My bullying 
experience started with a rumor that quickly escalated into verbal 
abuse and physical abuse, and eventually on to the Internet.  The 
bullying lasted for almost 6 years of my life.  I changed schools, 
but even that did not stop the bullying, because the bullies found 
new ways to torment me.  For me, the worst part of being bullied 
was when it was over the Internet, cyber bullying.  Because you 
have no idea who your attackers may be, they can hide behind a 
screen name, remaining anonymous, while the victims become 
increasingly vulnerable and defenseless, such as myself.  They can 
say cruel and malicious things, threatening, or even pretend to be 
other people.  Personally, I received instant messages and e-mails 
saying we are going to kill you, and in detail with what gun, what 
knife, what they were going to do with my body when they were 
finished with me.  I wouldn't go to the bathroom alone if I were 
you.  You better watch your back.  We are going to get you.  I am 
21 years old now I can honestly say that the scariest thing I have 
had to face in my life was cyber bullying; and it is something I 
continue to fear every day I sign on a computer.
	So on the Internet, you have no idea who the bully is.  I was in 
class looking at every student as if he or she was the enemy.  
Because of the bully's mind games, I started having nightmares 
and couldn't eat.  I was physically making myself sick.  The bullies 
got inside my head and made me paranoid, always looking over 
my shoulder and wondering who the invisible attacker was.  After 
receiving online threats such as we are going to kill you and I 
wouldn't go to the bathroom, I refused to go to the bathroom while 
in school.  My grades dropped drastically because I couldn't 
concentrate.  I was threatened all the time and afraid to go 
anywhere by myself.  I wouldn't even leave my house without my 
parents.  This continued on and off from sixth grade all throughout 
high school.  Some weeks were quiet and I thought things might be 
calming down.  I would think, well, maybe the bullies got tired of 
me and moved on to someone new now, as awful as that sounds.  
But as soon as I got comfortable, the abuse would start all over 
again.
	As hard as I tried, I just couldn't escape the situation.  I 
couldn't run away because there was nowhere to hide.  You are 
probably thinking like most people do and ask me, why didn't you 
just block the screen name or turn off your computer?  Well, I did 
just that and still the bullying continued.  I would block the screen 
name and in a matter of seconds a new one would be created.  
Usually the cyber abuse would happen over the weekends, where 
there was a sleepover or a party, and instead of listening to music 
or watching a movie, they would sign on the Internet for hours and 
just create screen names for hours.  I would shut off my computer 
and not go on for weeks at a time.  As soon as I would sign back 
on, the bullying would start all over again.
	At first, like many kids do, I tried to ignore the bullies, thinking 
I was being oversensitive and hoping that by not bringing attention 
to them, they would just go away.  Not only did the bullies not go 
away, the bullying grew progressively worse and more physical.  I 
was pushed off a school bus onto the concrete and slammed into 
the glass doors of the school, receiving several concussions.  I 
couldn't hide the bullying anymore and my parents reported every 
situation to the school.  Nothing was being taken care of.  When a 
bully threw sheet metal at my face, my parents then took this issue 
to the board of education, only to find no records in regards to the 
bullying I endured.  My bullying experience was swept under the 
carpet.  But now with State laws on bullying requiring all schools 
to have an anti-bullying policy in place and detailing consequences 
for bullies, that can no longer happen.  It is vitally important for 
victims and parents to know this.
	It has always been extremely important to me to get my story 
out to those who may be facing the same situations I faced in 
school.  Kids need to know that they are not alone and even more 
importantly, they need to realize that positive things can come out 
of negative situations.  In 2004, I started a Tolerance/Anti-Bullying 
program, bringing my message into dozens of schools across the 
State of New Jersey, reaching students from third grade through 
high school.  The program structured around my personal 
experiences, shows how bullying can affect its victims and their 
families.  The program soon earned the respect of the New Jersey 
State Attorney General's Office, and in October of 2004, I was 
asked to be the New Jersey State advocate for the New Jersey 
Cares About Bullying campaign.  As part of the Bias Crime Unit, I 
speak at State conferences and lectures.
	I also work with i-SAFE, as you know, which is a national 
nonprofit Internet safety organization.  i-SAFE teaches safe and 
responsible Internet use through classroom lesson, through parent 
programs at home, and through unique peer-to-peer student 
mentoring.  As an i-SAFE mentor, I help teach students how best 
to avoid becoming a victim of cyber bullying and other online 
threats, like predators.  I teach, among other lessons, the four R's: 
recognize inappropriate behavior, refuse requests for personal 
information or a meeting, respond assertively, and report 
inappropriate online behavior to their parents and their Internet 
service provider.  I also challenge students to become i-MENTORs 
themselves, which empowers them to spread Internet safety 
education to their fellow students, their parents and others in their 
community.  There are 234 student mentors in New Jersey alone.  
Websites like myspace.com are attracting millions and millions of 
kids.  Many log on daily because it is fun to be a part of an online 
community; however, far too many of them are not aware of the 
risks or dangers.  Rumors and gossip, whether true or false, are 
spread around the world instantly.  Young children are posting 
pictures of themselves and they reveal personal information that 
can lead a cyber predator right to their front door.  Schools and 
parents need to do more to teach students how best to be safe on 
the Internet.
	So far, 45,600 students have been taught i-SAFE lessons in 
New Jersey schools, but unfortunately, I was not one of those kids.  
I did not have the benefit of i-SAFE Internet safety lessons in any 
of the schools I went to before or during the time I was being 
bullied online.  My parents and I were left in the dark about what 
to do and I suffered greatly.  Now, based on my experience with 
middle and high school students, I know firsthand that Internet 
safety education works.  i-SAFE makes it cool to be cyber safe.  i-
SAFE's Internet curriculum and community outreach programs 
connect with kids, enabling them to participate in a fun activity to 
help them better learn Internet safety lessons.  The same with 
parents.  Parents, who often just give up when it comes to 
computers and technology, learn how to keep their children safe 
online through i-PARENT boards and instructive parent night 
presentations.
	At the conclusion of my presentations to students and parents, I 
challenge them to take action, take action to make a difference; 
take action to become an i-MENTOR; take action to demand that 
your district use i-SAFE.  So in that spirit, I call on Congress to 
take the same action, take action by passing legislation requiring 
Internet safety education be taught in all schools so every student 
will get quality and possible lifesaving education.  With that 
curriculum in place, beginning at an early age, students will learn 
to take control of their online experiences and be able to recognize 
and avoid dangerous, destructive and illegal online behavior, and 
to respond appropriately.  Thank you for your time.
	[The prepared statement of Samantha Hahn follows:]

PREPARED STATEMENT OF SAMANTHA HAHN, I-MENTOR, I-SAFE 
AMERICA

        Youth bullying is not a new issue. Growing up, many of you 
may have been a bully's victim or at least known someone who's 
been called degrading names, or in other ways been harassed. But 
bullying is something that can be easily overlooked with a "kids 
will be kids" attitude. 
        Bullying has become a universal issue that affects both boys 
and girls regardless of age or circumstance and over the past few 
years has grown in epic proportions, from "name-calling" and 
throwing "sticks and stones" on the playground to invading a 
person's home via "text messaging" and the Internet. Thanks to the 
technologies of today (computers, web sites, and cell phones) it has 
become increasingly easier and more appealing for bullies to seek 
out victims. Kids who might have been hesitant to participate in 
bullying in the past can now hide behind an anonymous screen 
name without fear of being caught.
        Name calling, physical attacks, death threats, nightmares, 
depression, counseling, and recovery-as a victim of severe 
bullying both online and offline for years, I fully understand the 
long-term effects bullying can have on a child. My bullying 
experience started with a rumor that quickly escalated into verbal 
and physical abuse and eventually onto the Internet. The bullying 
lasted for almost 6 years. 
        I changed schools three times. But even that did nothing to stop 
the bullying, because the bullies found new ways to torment me. 
For me, the worst part of being cyber bullied was on the Internet 
because you have no idea who your attackers may be. They can 
hide behind a screen name, remaining anonymous while the victim 
becomes increasingly vulnerable and defenseless. They can say 
cruel and malicious things, threaten, or even pretend to be other 
people. I received instant messages and e-mails saying, "We're 
going to kill you"; "I wouldn't go to the bathroom alone if I were 
you"; and "you better watch your back."
        So on the Internet, you have no idea who the bully is. You're in 
class looking at every student as if he or she is the enemy. Because 
of the bully's mind games, I started having nightmares and couldn't 
eat. I was physically making myself sick. The bullies got inside my 
head and made me paranoid, always looking over my shoulder 
wondering who the invisible attacker was. After receiving online 
threats such as "We're going to kill you" and "I wouldn't go to the 
bathroom," I refused to go to the bathroom while in school. My 
grades dropped drastically because I couldn't concentrate. I was 
frightened all the time and afraid to go anywhere by myself. This 
continued on and off from 6th grade all through high school. Some 
weeks were quiet, and I thought things might be calming down. I 
would think, "Wow, maybe the bullies got tired of me and moved 
on to someone new." But as soon as I got comfortable, the abuse 
would start all over again. 
        As hard as I tried, I just couldn't escape the situation. I couldn't 
run away because there was nowhere to hide. You're probably 
thinking: "Why didn't you just block the screen name or turn off 
the computer?" Well, I did just that, and still the bullying 
continued. I would block screen names and in a matter of seconds 
a new one would be created. I would shut my computer off and not 
go on for weeks at a time but, as soon as I signed back on, the 
bullying started all over again. 
        At first I tried to ignore the bullies by thinking I was being 
oversensitive and hoping that by not bringing attention to them-
they would go away. Not only did the bullies NOT go away, the 
bullying grew progressively worse and more physical. I was 
pushed off the school bus onto the concrete and slammed into the 
glass doors of the school, receiving several concussions. I couldn't 
hide the bullying anymore, my parents reported every situation to 
the school. Nothing was being taken care of. When a boy threw 
sheet metal at my face my parents then took the issue to the Board 
of Education only to find no records in regards to the bullying I 
endured. My bullying experiences were swept under the carpet, but 
now with state laws on bullying requiring all schools to have an 
anti-bullying policy in place and detailing consequences for 
bullies, that can no longer happen. It is vitally important for 
victims and parents to know this.
 	It has always been extremely important for me to get my story 
out to the ones who may be facing the same situations I faced in 
school. Kids need to see they are not alone and even more 
importantly they need to realize that positive things can still come 
out of bad experiences. In 2004 I started a Tolerance/Anti-Bullying 
program bringing my message into dozens of schools throughout 
the state, reaching students from 3rd grade through high school. 
The program, structured around my personal experiences, shows 
how bullying can affect its victims and their families. The program 
soon earned the respect of the New Jersey State Attorney General's 
Office and in October 2004 I was asked to be the spokesperson on 
victim's behalf for the state's Anti-bullying Campaign "New 
Jersey Cares about Bullying." As part of the Bias Crime Unit, I 
speak at state conferences and lectures.
        I also work with i-SAFE, a national non-profit Internet-safety 
organization. i-SAFE teaches safe and responsible Internet use 
through classroom lessons, through parent programs at home, and 
through unique peer-to-peer student mentoring, 
As an i-SAFE mentor, I help teach students how best to avoid 
becoming a victim of a cyber bullying and other online threats, like 
predators. I teach, among other lessons, the four Rs: recognize 
inappropriate behavior, refuse requests for personal information or 
a meeting, respond assertively, and report inappropriate online 
behavior to their parents and their Internet Service Provider. I also 
challenge students to become i-MENTORs themselves, which 
empowers them to spread Internet safety education to their fellow 
students, their parents and others in their community. There are 
234 student mentors in New Jersey alone. 
        Web sites like myspace.com are attracting millions and 
millions of kids. Many log on daily because it's fun to be part of an 
online community. However, far too many of them are not aware 
of the risks or dangers. Rumors and gossip-whether true or false-
-are spread around the world instantly. Young children post 
pictures of themselves, and they reveal personal information that 
can lead a cyber predator right to their door. Schools and parents 
need to do more to teach students how best to be safe on the 
Internet. 
 	So far, 45,600 students have been taught i-SAFE lessons in 
New Jersey schools. But, unfortunately I was not one of them. I 
did not have the benefit of i-SAFE Internet safety lessons in any of 
the schools I went to before or during the time I was being bullied 
online. My parents and I were left in the dark about what to do, and 
I suffered greatly. Now based on my experience with middle and 
high school students, I know first hand that Internet safety 
education works. i-SAFE makes it cool to be cyber safe. i-SAFE's 
interactive curriculum and community outreach programs connect 
with kids, enabling them to participate in a fun activity to help 
them better learn Internet safety lessons. It's the same with parents. 
Parents, who often just give up when it comes to computers and 
technology, learn how to keep their children safe online through  
i-PARENT Boards and instructive Parent Night presentations.
        At the conclusion of my presentations to students and parents, I 
challenge them to take action. Take action to make a difference, 
take action and become an i-MENTOR. Take action and demand 
that your district use i-SAFE. So in that spirit, I call on Congress to 
take action. Take action by passing legislation requiring Internet 
safety education be taught in all schools, so every student will get a 
quality and possible life saving education. With that curriculum in 
place beginning at an early age, students will learn to take control 
of their online experiences and be able to recognize and avoid 
dangerous, destructive and illegal online behavior, and to respond 
appropriately. Thank you.

	MR. WHITFIELD.  Thank you, Ms. Hahn.  Well, Mr. Livingston 
and Mr. Herrera, what about her suggestion that Internet safety be 
a required course for students?
	MR. LIVINGSTON.  I think that makes an enormous amount of 
sense and that is what our trainings are going to be about and 
incorporating that into the--infuse it into the regular curriculum, 
where they are doing instruction on bullying and harassment.
	MR. WHITFIELD.  Is bullying a real issue in the schools today?
	MR. LIVINGSTON.  Yes, a tremendous issue.  And in fact, Mr. 
Herrera has a survey of students that was done at the Somerset 
High School.  And in each question regarding bullying, it is a clear 
problem students indicate, maybe 150, 200 students, I think, were 
surveyed on this--indicates that they many times don't report it.  
Many times they are bullied.  Many times they don't know what to 
do about it.  And sort of some of this survey gives you a reflection 
of the helplessness, a feeling of helplessness.
	MR. WHITFIELD.  Well, Ms. Hahn talked about cyber bullying, 
but I suppose there are all sorts of bullying, right?
	MR. LIVINGSTON.  Yes, yes.
	MR. WHITFIELD.  Could you give me some examples of what 
you all have experienced, Mr. Herrera, in your school?
	MR. HERRERA.  Yes.  Right now the Somerset County 
Vocational and Technical High School is following the oldest 
bullying prevention program, which was created by Dan Olweus in 
Norway.  And the program is the core elements.  What we did, we 
assessed our school needs through a questionnaire.  We have an 
antiviolence evaluation response team currently in place.  That is 
our school-base linkages program, and we identify and we prevent.  
We are a therapeutic, proactive community.  We have ongoing in-
service to teachers.  We have the State Police come in and we 
decided to focus on the instructors who have the most contact and 
could identify students in need that are being bullied and harassed.
	We increase supervision and supervision and supervision.  And 
the challenge that we are facing now as school administrators is 
when the bullying and harassment occurs outside the school, and 
what are we going to do to address that?  As school administrators, 
we are charged with responsibility and we can discipline students 
if it impacts the school environment.  Outside of the school, we 
need the continued cooperation that we have with the various local 
and State agencies.
	MR. WHITFIELD.  Do you feel like you have the discipline tools 
that you need?  I mean, a lot of administrators of schools I talk to 
today sound like they are almost afraid to provide much discipline.
	MR. HERRERA.  I believe that right now we do.  We also focus 
on the therapeutic and the rehabilitation of positive psycho-
emotional growth of the students, so we target that in addition to 
the punitive, the educational, and the therapeutic.
	MR. WHITFIELD.  And what is the relationship between 
bullying and child pornography?
	MR. HERRERA.  I think it starts off with harassment and I think 
the three-pronged--the bullies, then you have the victims.  We do a 
lot of assertiveness training with our students, also, which I think is 
very, very important.  And also the bystanders.  The organization 
that Mrs. Aftab, which we will be investigating after today, is the 
peer-to-peer in a positive relationship, besides the meaningful 
conversations that students have with our instructors or faculty, but 
also with each other.  So we are going to definitely be research--
	MR. WHITFIELD.  Do you want to comment on that, Ms. Aftab?
	MS. AFTAB.  Yes, if I may.  Thank you, Mr. Chairman.  Our 
specific on site on cyber bullying is tostopcyberbullying.org, and 
the connection--to respond to your question, the connection 
between child pornography and cyber bullying is that cell phones 
that have photo capability and digital cameras are being used by 
cyber bullies to torment each other in sexual ways.  Kids that are at 
a slumber party, there is a kid they don't like, they wait until she is 
getting undressed and take her picture.  Dressing rooms, locker 
rooms, bathrooms are being used to take pictures of kids.  Up-skirt 
pictures are being taken with all kinds of different mechanics, a 
shopping bag, a purse opened to go next to somebody who has got 
a short skirt.  These are then published on the Internet.  They are 
all child pornography.  They are also incredibly, incredibly 
humiliating.
	We also have cases where--young people are not known for 
great judgment and a young girl may like a boy, and we had a case 
in Westchester, New York, where a girl liked a boy, so she took a 
video of herself in mock performance of oral sex and she sent it to 
the boy she liked, thinking that that would intrigue him into dating 
her.  It didn't and he shared it with his 100 best and dearest friends 
and it is all over the Internet.  So this is a real issue.
	In addition, you had asked a question about schools.  One of 
the big problems we have is a constitutional issue with public 
schools.  So cyber bullying typically happens, the actual act of 
posting it happens from home, from a cell phone outside of school 
premises after school hours, not using school equipment, not a 
school-sanctioned event.  And right now, constitutionally, the 
cases have held that if the school takes action during school, so 
that in a situation like this one, not on the in person bullying, if 
something was posted from a slumber party that affected her and 
the school takes action, the schools are sued and they generally 
lose that lawsuit and it costs them $50,000 or $60,000.  That has 
happened here in New Jersey frequently.  Actually here in Warren 
Township, it was one of the first cases where criminal charges 
were brought against a cyber bully for taking these actions.  So it is 
a real challenge.  We have a risk management program, and the 
program out of Norway is the best bullying program, and there was 
actually Federal money that was given to a sheriff in Ohio and we 
will be working with him on dovetailing our cyber bullying 
program with the Norwegian program.  So we will give you 
everything you need.
	MR. WHITFIELD.  Okay.  Ms. Hahn, are you still an advocate in 
the Attorney General's Office?
	MS. HAHN.  Yes, I am.
	MR. WHITFIELD.  And could you briefly explain the 
responsibilities in that position now?
	MS. HAHN.  At all the State-wide cyber bullying conferences, I 
speak on victims impact and I share my story for the educators that 
appear, and the law enforcement there.  And occasionally, very far 
and few between, I have gone to law enforcement training sessions 
where, there too, I share my story.
	MR. WHITFIELD.  And you are finding that a lot of students 
have experienced this same bullying that you have, I am assuming.
	MS. HAHN.  Yes.  At first it was very difficult for me, because I 
didn't realize how many kids are going through experiences 
exactly like mine.  Some students, yes, not as severe.  Others, 
exactly like mine or more so.  They, like myself, are having 
thoughts of suicide and why am I alive, and my teachers aren't 
doing anything.  I am going to faculty asking for help, and I went 
to my guidance counselor and they laughed at me, and this is a 
really big problem, especially knowing that there is a State law in 
effect.  It is happening all over and I think, with going into the 
whole cyber bullying and everything, I think the older generation, 
parents, we have mentioned a couple of times that we live in a 
generation where kids have their own cell phone with the picture 
phones and their own computers or laptops in their own rooms.  
The door closes.  Parents, mom and dad don't know what is going 
on.  They don't know if their child is the bully or the victim.  
Private schools now are requiring every student to have a laptop to 
travel class to class.  It is awful.  I know, in 2003, when the anti-
bullying law was first passed, schools were giving classes and 
lessons and there were conferences and correctional officers were 
going through training.  I have spoken to many, many faculties and 
they say that since then, there really haven't been any training 
programs and that it is something that they want, especially 
Internet safety.
	MR. WHITFIELD.  Well, thank you for the great job you are 
doing.  And Ms. Sullivan, you, of course, testified in Washington, 
but tell me again how long you have been a Teenangel?
	MS. SULLIVAN.  For about 2 years now.
	MR. WHITFIELD.  And you have spoken to how many different 
schools during that time?
	MS. SULLIVAN.  I graduated from my grammar school, so I 
went to my high school and I have spoken to them and some other 
schools in my area.
	MR. WHITFIELD.  Right.
	MS. AFTAB.  And about Teen People.
	MS. SULLIVAN.  Oh.  And then, I was honored by Teen People, 
as I said, when I was in Washington.
	MR. WHITFIELD.  Right.  Well, we appreciate the great job that 
your organization is doing, and we look forward to working with 
you.  At this time, I will recognize Mr. Ferguson.
	MR. FERGUSON.  I look forward to meeting Spiderman.  I was 
born in Bergen County and it ain't cheap there, either.  But first let 
me thank each of the five of you for being here.  Each of you in 
your different ways is having a really positive impact on different 
aspects of a problem which we are learning more and more about.  
And it is disturbing, it is upsetting, and I know--I mean, I speak as 
a former teacher, I speak as a legislator, but I also speak as a 
parent, and the work that you are doing is extraordinarily important 
in different ways, by raising people's awareness, encouraging 
people to learn more about the problems that some of this 
technology is raising.  We know that technology brings so much 
good and so many opportunities for good, but it is a double-edged 
sword and it brings incredible opportunities for people to do bad 
things too, and that is what this is about.  This is about--our 
investigation into this is about learning about what you all are 
doing on the frontlines and about how we can multiply the good 
efforts that you are doing to try and make other people aware of 
them.  So first, let me thank you for that, and I know, Mr. 
Chairman, we are bumping up against our time constraints here, 
but I really wanted to get that out first and foremost, to thank you 
for testifying in front of our subcommittee and for the work that 
you are doing in the field and in your various areas.
	Mr. Livingston, could I just ask you about your district's 
interaction with some of these social networking sites?  Has the 
district had any contact with some of the direct networking sites, or 
the social networking sites, to express some concerns that you have 
had about some of what goes on here?
	MR. LIVINGSTON.  Not to my knowledge.  They have had 
connections of concern among themselves and concerns about 
getting out the word and the message, and that is another reason 
now.  The concerns have raised to such a level at this point that we 
are doing this training in the fall to bring up to, I think, some need 
to have this information.  I think they need to hear what we are 
hearing today, the kinds of testimony you are hearing today, so 
they can bring it back and put it on the priorities.  As you know, in 
schools, there are a million priorities.  Everything is a priority.  
Everything is a mandate.  And I think that kind of training will 
help to bring it to conscious level--more work on this and more 
training in terms of the students, getting to the students and the 
teachers.
	MR. FERGUSON.  Would you comment on that briefly, if you 
would like?
	MS. AFTAB.  Certainly.  As you know, we have been inside all 
of the major social networks for the last year and a half.  We 
started with MySpace when they were a twinkle in Tom's eye.  It 
had six million users in February a year ago, 2005.  At our request, 
they created a special e-mail address and people to work with 
schools at schools at--it is either school or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d3e2e252222213e0d20343e3d2c2e28632e222063">[email&#160;protected]</a>  
They are issues.  I am testifying tomorrow in Washington and you 
will hear more, and tomorrow we will be announcing a seal 
program.  People have been yelling at us.  They said that if I am an 
Internet privacy and security lawyer, I should take my expertise to 
work and help WiredSafety come up with a way of spotting the 
social networks who are doing a better job, who care more, who 
are implementing best practices, caring about kids' privacy in the 
various settings, and you will be able to spot them because it will 
have our seal on the front of the page.  So we will be talking about 
that tomorrow a little bit more.
	It is a huge challenge and as the superintendent had testified, 
schools have these standards now, the No Child Left Behind.  
Schools don't have time to implement Internet safety programs as 
a stand alone, because then something else is going to fall aside.  
So we have our new curriculum that you will be hearing about in 
the next month and a half.  It launches in September.  Totally free.  
It builds into everything you are doing scholastically.  It is put 
together by Art Walinski, who you know, from New Jersey, part of 
the 21st Century Program.  A real simple, short thing that will teach 
kids and adults about cyber bullying and especially about 
responsible use of social networks.  So in little sneaky ways you 
have one from column A, two from column B.  You have to come 
up with all of these little things that will work.  And the social 
network challenge has changed the playing field.  I don't sleep 
anymore.  Unfortunately, it hasn't affected my eating patterns.  But 
we have to do something and our tag line--Ellen, do you have the 
one about the more information you give your kids?  We have two 
things that we are going to be launching and this is--well, I will be 
showing one tomorrow that is an animation, but this was put 
together on social networks and it is a print PSA, and that is it, and 
it is the more information you give your kids, the less information 
they will give a stranger.  And I can't train parents to teach their 
kids about Internet safety.  I can teach them to talk to their kids and 
give them little snippets as part of our Take Back the Net initiative. 
Well, you will hear about that--it is time.  And we now have the 
Mothers Against Internet Sexual Exploitation that will be 
announced, that was put together because of your hearings.  
Women, mothers come to me and say, we need to do something, so 
we are.
	MR. WHITFIELD.  Thank you.
	MR. FERGUSON.  Mr. Chairman, I am just very pleased to have 
this panel and our previous panels.  I am very pleased that you 
brought this subcommittee's hearing to our district here in New 
Jersey.  I am honored that you are here and very much appreciate 
your work and our staff's work in putting this day together.  I think 
it has been enormously instructive and I appreciate it and I yield 
back.
	MR. WHITFIELD.  Well, thank you very much for your 
continued leadership, Congressman Ferguson.  And we have 
enjoyed being in New Jersey very much, and I want to thank all of 
the panels, and I would remind you that we do read all of the 
opening statements.  I don't read all of them, the staff reads all of 
them and we use that information to go into other areas.  So we 
genuinely thank you for your time in preparing the opening 
statements as well as being here and giving the opening statements, 
and for your continued leadership.  And we are always open to 
suggestions that you might have.  So thank you very much.  We 
have really benefited from this and look forward to working with 
you and look forward to seeing you in Washington tomorrow.
	MS. AFTAB.  Thank you.
	MR. WHITFIELD.  And with that, the hearing is adjourned.
	[Whereupon, at 1:25 p.m., the subcommittee was adjourned.]
	

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
